<html>
<title> - ONLINE PROFILING AND PRIVACY</title>
<body><pre>[Senate Hearing 106-1117]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1117

                      ONLINE PROFILING AND PRIVACY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




82-146              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 13, 2000....................................     1
Statement of Senator Bryan.......................................     5
Statement of Senator Burns.......................................     2
Statement of Senator Cleland.....................................    40
    Prepared statement...........................................    43
Statement of Senator Hollings....................................     3
    Prepared statement...........................................     4
Statement of Senator Kerry.......................................    44
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Wyden.......................................     5

                               Witnesses

Bernstein, Jodie, Director, Bureau of Consumer Protection, 
  Federal Trade Commission, (Accompanied by David Medine, 
  Associate Director for Financial Practices, Bureau of Consumer 
  Protection, Federal Trade Commission and Dawne Holz, Federal 
  Trade Commission)..............................................     6
    Prepared statement of Jodie Bernstein........................     9
Polonetsky, Jules, Chief Privacy Officer, Doubleclick............    47
    Prepared statement...........................................    49
Jaye, Daniel, Chief Technology Officer, Engage Technologies......    50
    Prepared statement...........................................    52
Rotenberg, Marc, Director, Electronic Privacy Information Center.    55
    Prepared statement...........................................    57
Smith, Richard, Internet Consultant..............................    71
    Prepared statement...........................................    73

                                Appendix

Markowitz, Steve, Chairman and CEO, MyPoints.com, Inc., prepared 
  statement......................................................    97
Smith, Richard, Internet Consultant, additional testimony........    98

 
                      ONLINE PROFILING AND PRIVACY

                              ----------                              


                         TUESDAY, JUNE 13, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. This morning the Committee will 
hear testimony on online profiling done by Internet network 
advertisers and how it impacts consumers' privacy. I welcome 
and thank all the witnesses we will hear from today. Your 
testimony will help the Committee gain a better understanding 
of the issues involved and the appropriate action the Committee 
should take.
    As has been said so often, the Internet continues to 
transform our lives and our economy. Each day more and more 
Americans access the web to shop, read the news, find a job, or 
for a variety of other reasons. The Internet continues to offer 
great opportunities to consumers, but it also raises concerns 
about individual privacy.
    Online profiling, and specifically profiling done by 
network advertisers, raises serious privacy concerns among many 
consumers. Through the use of cookies and other technologies, 
network advertisers have the ability to collect and store a 
great deal of information about individual consumers. They can 
track the websites we visit, the pages we view on websites, the 
time and duration of our visits, terms entered into search 
engines, purchases, responses to advertisements, and the page 
we visited before coming to a site.
    All of this information can be collected without clicking 
on an advertisement. In fact, often this information is 
collected without the consumer's knowledge or consent. The FTC 
noted in its May report on online privacy that just 22 percent 
of websites that allow the placement of third party cookies 
provide notice to customers. Recently, USA Today noted in a May 
1st article that, even when consumers are aware of this 
practice, it can be extremely difficult to opt out of the 
collection of this data.
    While online profiling raises serious privacy concerns, 
some consumers desire this service and benefit by receiving 
targeted advertisements that appeal to them. What we need to 
find is the delicate balance between benefiting consumers and 
invading their privacy, and I am hopeful that today's witnesses 
will help us eventually find that balance. I look forward to 
the testimony presented today.
    Senator Burns, thank you for being here.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    This morning, the Committee will hear testimony on online profiling 
done by Internet network advertisers and how it impacts consumers' 
privacy. I welcome and thank all of the witnesses we will hear from 
today. Your testimony will help the Committee gain a better 
understanding of the issues involved and the appropriate action the 
Committee should take.
    As has been said so often, the Internet continues to transform our 
lives and our economy. Each day more and more Americans access the web 
to shop, read the news, find a job or for a variety of other reasons. 
The Internet continues to offer great opportunities to consumers, but 
it also raises concerns about individual privacy.
    Online profiling and specifically profiling done by network 
advertisers raises serious privacy concerns among many consumers. 
Through the use of cookies and other technologies, network advertisers 
have the ability to collect and store a great deal of information about 
individual consumers. They can track the websites we visit; the pages 
we view in websites; the time and duration of our visits; terms entered 
into search engines; purchases; responses to advertisements and the 
page we visited before coming to a site. All of this information can be 
collected without clicking on an advertisement.
    In fact, often this information is collected without the consumer's 
knowledge or consent. The FTC noted in its May report on online privacy 
that just 22% of websites that allow the placement of third party 
cookies provide notice to consumers. Recently, USA Today noted in a May 
1st article that, even when consumers are aware of this practice, it 
can be extremely difficult to opt out of the collection of this data.
    While online profiling raises serious privacy concerns, some 
consumers desire this service and benefit by receiving targeted 
advertisements that appeal to them. What we must find is the delicate 
balance between benefiting consumers and invading their privacy. I am 
hopeful that today's witnesses will help us eventually find that 
balance.
    I look forward to your testimony and to working with all of you to 
address this vital issue.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman, and I thank you for 
holding this hearing. It's very timely, too, because it does 
concern something of vital importance to today's digital era, 
so to speak, the protection of online privacy.
    While the Internet is growing at an amazing rate and it 
offers educational and commercial opportunities to millions of 
Americans, new information technologies have allowed the 
collection of personal information on an unprecedented scale. 
Many times this information is collected without the knowledge 
of consumers. Online profiling poses particular concerns, 
especially when these profiles are merged with offline 
information to create massive individualized databases on 
consumers.
    Given the continuing erosion of Americans' privacy, I am 
more convinced than ever that legislation is necessary to 
protect and empower consumers in the online world. Privacy is 
not a partisan issue, but a deeply held American principle.
    I would like to thank Senator Wyden for his hard work on 
this and many other related issues, including spamming and 
encryption, when we start dealing with the Internet. Over year 
ago, Senator Wyden and I introduced the Online Privacy 
Protection Act, which was based on our shared view that, while 
self-regulation should be encouraged, we also need to provide 
strong enforcement mechanisms to punish bad actors. In short, 
the approach should be trust but verify.
    I have grown increasingly frustrated with the industry's 
continuing stance that no legislation is necessary, even in the 
face of overwhelming public concern. Just last week, during his 
address to the Internet Caucus, Bill Gates claimed that the 
Burns-Wyden bill goes too far and that the time is still not 
right for privacy legislation. Unfortunately, his view is 
nearly unanimous among the technology industry.
    Senator Wyden has been engaging in the discussions with 
industry for well over a year and we continue to hear nothing 
more than how self-regulation is working. The need for privacy 
legislation has increased over the last year, not decreased. I 
want to reiterate my commitment to moving strong privacy 
legislation to protect consumers whether industry agrees or 
not.
    I commend the Federal Trade Commission for recognizing the 
industry has failed to produce progress and finally calling for 
legislation itself. The Commission's recent report to Congress 
revealed the extent of the stunning lack of consumer privacy on 
the Internet. Even among the 100 most popular websites, only 42 
percent have implemented fair information practices to ensure 
consumer privacy. Among a broader random sample of all 
commercial websites, the number drops dramatically to 20 
percent compliance.
    Several industry representatives have argued that the 
increase in privacy policies being posted by websites reveals 
that no privacy legislation is necessary. While the majority of 
commercial websites now post privacy policies, the difference 
between posting a privacy policy and actually providing real 
privacy to users can be huge. While I applaud the increase in 
posting of those privacy policies, many of them are overly 
complex and they are technical. I never cease to be amazed when 
you click one and then 20 pages of legalese comes up. I have 
never been hinged with the title ``lawyer,'' so I don't even 
try to work my way through the thing. I find it interesting 
that the Commission itself had to use teams of lawyers to 
decipher the privacy policies of many websites in the 
preparation of its report.
    So, Mr. Chairman, I want to thank you for holding this 
hearing. Also, I remain open to working with Senator Wyden and 
the rest of my colleagues on this Committee. I am more 
committed than ever that we should move a privacy bill forward. 
And I thank the Chairman.
    The Chairman. Senator Hollings.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. I thank you, Mr. Chairman. I will file my 
statement for the record. Thank you.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina

    I want to thank Chairman McCain for holding this hearing, the third 
this Committee has conducted in this Congress on the important issue of 
Internet privacy. Today we examine the troubling privacy implications 
raised by the practice of ``online profiling.'' While many commercial 
entities collect data about individuals on the Internet, the practice 
of profiling, particularly as it is conducted by network advertisers, 
threatens individual privacy in a manner that raises serious concerns, 
and warrants special consideration by this Committee.
    On the Internet, individuals knowingly initiate relationships with 
Internet service providers or commercial websites. For example, they 
join AOL or subscribe to The New York Times online, or visit the search 
portal Yahoo. Third party network advertisers, however, collect and use 
individuals' personal information but almost never possess a direct 
relationship with those individuals. Instead, these advertisers reach 
through the site and collect information about individuals--most likely 
without notice or consent--by placing ``cookies'' on users' computers 
that then track their every move on the Internet. The advertisers then 
examine the contents of these ``cookies'' so as to collect and analyze 
the results of this surreptitious monitoring.
    For the most part, Internet users are completely unaware that this 
surveillance is occurring. And yet this surveillance allows the 
advertisers to collect and compile incredibly detailed profiles of 
individual's tastes, preferences, and research habits as observed 
throughout the Internet. To make matters worse, these same companies 
may use the actual information they have collected to develop so called 
``psycographic'' profiles that reflect the companies' inferences and 
conclusions about the individual's interests, habits, associations, and 
traits. Such a profile by its very nature includes predictive 
information about an individual that the individual has not, in fact, 
personally provided, and which may not be an accurate characterization 
of that individual at all. And all this is going on without any real 
informed notice or consent on the part of the individual who is being 
monitored.
    If I purchased a pair of shoes, and a computer chip in the sole 
monitored every place I walked, and then others collected used that 
information to target me with ``personalized'' advertisements, I would 
be outraged. If a phone company tape recorded my conversations and then 
used my statements to market products to me I would be irate. And yet 
such obviously unacceptable practices in the traditional marketplace 
are appropriate analogies to the activities practiced by network 
advertisers on the Internet. The fact that individuals often use the 
Internet in the quiet seclusion of their homes only exacerbates the 
sense of trespass occasioned by these activities.
    Of course, not all sharing of information is bad. Some people 
probably desire targeted, personalized advertisements. The magic of the 
Internet makes that possible to a degree we never before experienced. 
However, the use of individuals' personal information to purportedly 
improve their Internet experience is only appropriate if the individual 
has been informed, and has made a conscious decision to consent to that 
practice. As we will learn today, that is not currently the case in the 
marketplace.
    Moreover, there are no sensible limits in place to ensure that 
individuals' personal information is, in fact, only used for relatively 
benign purposes, such as commercial advertisements. As The New York 
Times reported on February 2, 2000, 19 out of the top 21 health sites 
on the Internet had privacy policies but had unwittingly shared users' 
personal information with third parties through ``cookies'' that had 
been placed on the sites by network advertisers. Simply put, we need 
federal legislation to ensure that these violations do not occur.
    Some network advertisers do not collect personal information and 
instead target their marketing only to computers or Internet protocol 
addresses about which they have developed an anonymous profile. 
Although this practice demonstrates that these entities can function 
without collecting personal information, we must examine this activity, 
as well, to determine any possible risk it poses to individuals on the 
Internet.
    Again, I thank the Chairman for calling this hearing and look 
forward to the testimony of the witnesses.

    The Chairman. Thank you, sir.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, I will be very brief. First 
let me say that I share Senator Burns' view that it is time to 
move on with a bipartisan bill to address these privacy issues. 
He and I have worked for more than a year with a variety of 
groups, business and others, toward that effort.
    I happen to think Senator Hollings and Senator Rockefeller 
have made an excellent contribution, have constructive ideas. 
Senator Kerry has ideas on this matter. The clock is ticking 
down on this session, and I think we ought to go forward with a 
bipartisan privacy bill.
    Now, today's session it seems to me is particularly 
important. Most of what we have looked at is personal data that 
a consumer provides to websites he or she visits--such as name, 
address, and personal information supplied in order to purchase 
a product or register for a service online. The practice that 
we are looking at today is different in that it frequently 
involves the collection and compilation of information by third 
parties, companies whose websites the consumer has never 
visited, but who are nonetheless constructing profiles of the 
consumer's Internet habits.
    I am of the view that online profiling does raise difficult 
and troublesome issues. The mere fact that consumers often are 
not aware of the profiling is troubling enough, but even more 
serious is the prospect that a company might try to merge 
online profile data with personally identifiable data, 
producing detailed sets of information about specific 
individuals. We have already seen that represented in the 
debate about DoubleClick.
    Finally, Mr. Chairman, it seems to me that there is a role 
for self-regulation. All of the bills try to give a wide berth 
for self-regulation, and I believe that programs like TRUSTe 
have made a difference. But I continue to believe that, absent 
legislation, meaningful enforcement, and air-tight coverage, we 
will continue to vitiate a lot of the constructive work that is 
being done by the privacy sector. That is why I think we ought 
to go forward with bipartisan legislation.
    Mr. Chairman, I look forward particularly to working with 
you and Senator Hollings as the leadership of this Committee to 
get it done, and I yield back.
    The Chairman. Senator Bryan.

              STATEMENT OF HON. RICHARD H. BRYAN, 
                    U.S. SENATOR FROM NEVADA

    Senator Bryan. Mr. President, let me commend you for 
holding this important hearing. Undeniably, the Internet and e-
commerce provide enormous opportunities for Americans. I think 
on balance it has been an extraordinary and remarkable 
development. But there is also a dark side to it and that is 
the loss of privacy.
    I think most Americans, if they were thinking about this in 
the context of their local shopping center or their local mall, 
that somebody was following them around taking notes as to 
which store they went into, how long they were there, which 
items they looked at, and then at the end of that shopping 
session all of this was compiled and this information was sold 
to a third-party marketer. People would be absolutely offended 
and outraged.
    In a real sense, that is what is happening today in the 
world of cyberspace. Now, I know, Mr. Chairman, some of our 
colleagues take the position that this industry is so 
sacrosanct that it is sacrilegious to even suggest that there 
be some type of regulatory review. It seems to me, as my 
colleague Senator Wyden pointed out, there is opportunity for 
some self-regulation involved. But, in my sense, the time is 
now for us to appropriately take a look at what kind of basic 
protections we can provide for American consumers. I think the 
hearing that you have convened is extraordinarily important, 
and I am delighted to be here and hope to work in a bipartisan 
fashion with our colleagues to develop an appropriate response.
    The Chairman. I thank you, Senator Bryan.
    Before we turn to our witness, Senator Wyden, I believe 
that our first witness will comment that there are some 
negotiations going on now between her organization, the 
Department of Commerce, and some of the online advertisers as 
to some agreement that may be made on self-regulation. I hope 
our witness will illuminate us on that aspect of this issue.
    Welcome, Ms. Bernstein. You are our first witness. For the 
record, Ms. Jodie Bernstein is the Director of the Bureau of 
Consumer Protection of the Federal Trade Commission. Welcome.

  STATEMENT OF JODIE BERNSTEIN, DIRECTOR, BUREAU OF CONSUMER 
  PROTECTION, FEDERAL TRADE COMMISSION, (ACCOMPANIED BY DAVID 
 MEDINE, ASSOCIATE DIRECTOR FOR FINANCIAL PRACTICES, BUREAU OF 
                           CONSUMER 
 PROTECTION, FEDERAL TRADE COMMISSION, AND DAWNE HOLZ, FEDERAL 
                       TRADE COMMISSION)

    Ms. Bernstein. Thank you, Mr. Chairman and members of the 
Committee. With me this morning is David Medine, who works 
closely with me on Internet privacy issues particularly, and 
Dawne Holz, who is our guru of information technology, who is 
at her desk over there.
    We very much appreciate the opportunity to discuss the 
Commission's report on online profiling. The report describes 
the nature of profiling, consumer privacy concerns about these 
practices, and the Commission's efforts so far to address the 
concerns. As the Commission has in other areas, the Commission, 
along with the Department of Commerce, as you indicated, Mr. 
Chairman, we have encouraged effective industry self-
regulation, and the network advertising industry has 
cooperatively responded with working drafts of principles for 
our consideration.
    All parties agree that there are real challenges to 
creating an effective self-regulatory program, including how 
network advertisers disclose practices to consumers and how 
consumers should exercise choice. As a result, there has been a 
serious effort by this industry group to craft a program. After 
the Commission has had an opportunity to consider the final 
proposal, it will make a recommendation to Congress.
    With the remarkable growth of e-commerce has come increased 
consumer awareness as well as increased consumer concern about 
the online collection and use of personal data. One of the 
areas that has generated most public concern and about which, 
as several of you have mentioned, there is relatively little 
public knowledge or understanding is online profiling by 
network advertising companies.
    In my testimony, I thought the most useful thing to do 
would be to try to illustrate how profiling works. So, if I 
may, I would like to show you an example of profiling. First, 
we will see what the consumer sees as he surfs the web. Then I 
would like to take you behind the scenes and explain what the 
consumer does not see.
    Our online consumer, Joe Smith, logs onto the Internet and 
goes first to Webdragonsports. That is a site we made up that 
sells sporting goods. He is looking for a new golf bag and so 
he clicks on the link for golf and then he browses for golf 
bags. Then Joe says, I am going to go to TraveltheUS. He and 
his wife are considering taking a vacation, so he decides to go 
to search for information--about where? Let us go to Arizona, 
he says.
    A week later Joe visits his favorite online news site, 
which is also SenateCommerceNews. He immediately notices an ad 
for a golf vacation package in Arizona. Well, he is delighted. 
He clicks on the ad.
    Only later, Joe begins to wonder, how did that ad come to 
appear on my computer? Now let us look at what is going on 
behind the scenes and what Joe does not see. Joe's first stop 
was the wagon--I keep saying ``wagon''--Webdragonsports site. 
Hidden in the computer code was an invisible link to USAads. 
Now, USAads is what we talked about before. It is a network 
advertising company--we also made it up--that delivers ads in 
the banner space on the Webdragonsite.
    Joe's computer automatically sent a message to USAads 
asking for an ad. It also sent information about Joe's 
computer, as well as the fact that he was at Webdragonsports. 
USAads immediately placed a file, known to all of us as a 
cookie, with a unique ID number on Joe's hard drive, unknown to 
Joe.
    Meanwhile, back at USAads a profile associated with that 
cookie was also created showing Joe's interest in sports. Now, 
it does not take a lot of studies to know--and they do know 
this--that an interest in sports is often related to an 
interest in sports cars. Therefore, USAads quickly sends Joe an 
add for Motorworks sports cars. When Joe clicked on the golf 
page, this information was transferred, transmitted to USAads 
and his profile was immediately updated to reflect an interest 
in golf.
    When Joe went to TraveltheUS, a similar process occurred. 
An invisible link to USAads produced yet another ad. Because 
they knew the site was travel-related, USAads sent an ad for 
rental cars. When Joe entered a search for Arizona, his search 
term was transmitted again to USAads. As a result, travel and 
Arizona were added to the profile associated with the cookie on 
Joe's computer.
    When Joe then went to his favorite online news site, that 
was also served by USAads. The cookie on his computer was read 
and he was presented with an ad targeted to his profile, a golf 
vacation package in Arizona.
    Now, some consumers would be delighted to receive an ad 
targeted to their specific interest. Others, however, would be 
troubled by having been tracked through prior website browsing 
without their knowledge.
    Now let us suppose it occurred to Joe, and it did occur to 
him, that somebody had some information about him, that maybe 
he got the golfing vacation in Tucson ad because of a cookie 
placed on his computer. One way for Joe to see at least a small 
part of the process, the placement of the cookie on his 
machine, is for him to set the browser to notify him before 
accepting cookies. Now, you decide whether or not this is an 
easy thing for Joe or anyone to do.
    There is a capability to do it. Let's look and see how easy 
it is. What would Joe do to change the cookie settings on his 
browser? Now, nothing up there says ``cookies,'' but maybe he 
would say, try the edit menu, and that would be a good one to 
try. Then maybe he'd decide to try ``Preferences.'' Now what? 
Would the smart choice be ``Smart browsing,'' that category 
under ``Navigator''? No.
    Maybe Joe needs a lifeline here. Maybe he will try to even 
poll the Committee members who might help him out. Try clicking 
on ``Advance,'' and then someone would say, ``Is that your 
final answer?'' Now you would see a checkbox that says ``Warn 
me before accepting cookies.'' Well, that sounds right. That 
sounds intuitive almost.
    So let us see what Joe, what he accomplished after he 
clicked on ``Warn me before accepting cookies.'' What does the 
notification or warning from the browser look like? This is 
what it tells you. It tells you that someone named ``USAads'' 
wants to put a cookie on your computer with a particular ID 
number on it and the cookie will stay there until the year 
2010.
    With the way computers, personal computers, change, it'll 
probably outlast any number of computers that you have. But the 
cookie will be there twice as long. Notice, however, that this 
warning from your browser does not tell you who USAads is or 
what their cookie does. In other words, you have to choose to 
accept or reject this cookie without knowing very much at all.
    You know, if it is that hard to deal with one cookie, we 
wanted to see what it would be like and how many cookies were 
likely to come up soon that you would have to deal with. Here 
is a sample cookie file that we constructed. We did it by 
deleting all the cookies from an FTC computer and we had a law 
clerk spend about 15 minutes only surfing some of the popular 
sites, the most popular sites on the web.
    In just 15 minutes, 124 cookies were deposited on the 
computer, some of which are shown. The highlighted cookies were 
placed by third party advertising networks, in other words 
``profilers.''
    One other interesting thing to note is that the message--I 
really like this--that appears at the top of this file says 
``This is a generated file. Do not edit.'' That reminds me of 
the label that you all have seen, and I have too, on the 
mattress that says ``Under penalty of law, do not remove this 
label.'' Well, the reason for this--the suggestion is that the 
user cannot selectively edit the cookie file to keep really 
helpful cookies and get rid of the unwanted cookies.
    That is not true. The user can edit cookie files, but you 
might end up as confused as we were as we tried to work through 
the cookie files.
    Let me conclude, and I do thank the Committee for allowing 
us this amount of time. As the Commission's report details, 
targeted advertising can provide benefits to both consumers and 
business. Nonetheless, current profiling practices raise a 
number of serious concerns. The most serious concern, which I 
hope this presentation illustrated, is that profiling is 
largely invisible to consumers.
    Another concern is, because network advertisers can monitor 
consumers across numerous unrelated websites over time, the 
profiles they create can be extremely detailed and many would 
say extremely intrusive.
    The Commission looks forward to working with the Committee 
to address the many privacy issues raised by online profiling 
and would be pleased to answer your questions. Thank you again, 
Mr. Chairman, for the opportunity to present the Commission's 
report.
    [The prepared statement of Ms. Bernstein follows:]

  Prepared Statement of Jodie Bernstein, Director, Bureau of Consumer 
  Protection, Federal Trade Commission (Accompanied by David Medine, 
    Associate Director for Financial Practices, Bureau of Consumer 
  Protection, Federal Trade Commission, and Dawne Holz, Federal Trade 
                              Commission)
                    The Federal Trade Commission on
              ``Online Profiling: Benefits and Concerns''

    Mr. Chairman and Members of the Committee, I am Jodie Bernstein, 
Director of the Bureau of Consumer Protection of the Federal Trade 
Commission.\1\ I appreciate this opportunity to discuss the 
Commission's report on profiling issued today.\2\ The report describes 
the nature of online profiling, consumer privacy concerns about these 
practices, and the Commission's efforts to date to address these 
concerns. The Commission is not making any recommendations at this 
time.
    As it has in other areas, the Commission has encouraged effective 
industry self-regulation, and the network advertising industry has 
responded with drafts of self-regulatory principles for our 
consideration. As discussed further in this testimony, there are real 
challenges to creating an effective self-regulatory regime for this 
complex and dynamic industry, and this process is not yet complete. The 
Commission will supplement this report with specific recommendations to 
Congress after it has an opportunity to fully consider the self-
regulatory proposals and how they interrelate with the Commission's 
previous views and recommendations in the online privacy area.

I. Introduction and Background

A. FTC Law Enforcement Authority
    The FTC's mission is to promote the efficient functioning of the 
marketplace by protecting consumers from unfair or deceptive acts or 
practices and to increase consumer choice by promoting vigorous 
competition. As you know, the Commission's responsibilities are far-
reaching. The Commission's primary legislative mandate is to enforce 
the Federal Trade Commission Act (``FTCA''), which prohibits unfair 
methods of competition and unfair or deceptive acts or practices in or 
affecting commerce.\3\ With the exception of certain industries and 
activities, the FTCA provides the Commission with broad investigative 
and law enforcement authority over entities engaged in or whose 
business affects commerce.\4\ Commerce on the Internet falls within the 
scope of this statutory mandate.

B. Privacy Concerns in the Online Marketplace
    Since its inception in the mid-1990's, the online consumer 
marketplace has grown at an exponential rate. Recent figures suggest 
that as many as 90 million Americans now use the Internet on a regular 
basis.\5\ Of these, 69%, or over 60 million people, shopped online in 
the third quarter of 1999.\6\ In addition, the Census Bureau estimates 
that retail e-commerce sales were $5.2 billion for the fourth quarter 
of 1999, and increased to $5.3 billion for the first quarter of 
2000.\7\
    At the same time, technology has enhanced the capacity of online 
companies to collect, store, transfer, and analyze vast amounts of data 
from and about the consumers who visit their Web sites. This increase 
in the collection and use of data, along with the myriad subsequent 
uses of this information that interactive technology makes possible, 
has raised public awareness and consumer concerns about online 
privacy.\8\ Recent survey data demonstrate that 92% of consumers are 
concerned (67% are ``very concerned'') about the misuse of their 
personal information online.\9\ The level of consumer unease is also 
indicated by a recent study in which 92% of respondents from online 
households stated that they do not trust online companies to keep their 
personal information confidential.\10\ To ensure consumer confidence in 
this new marketplace and its continued growth, consumer concerns about 
privacy must be addressed.\11\

C. The Commission's Approach to Online Privacy--Initiatives Since 1995
    Since 1995, the Commission has been at the forefront of the public 
debate concerning online privacy.\12\ The Commission has held public 
workshops; examined Web site information practices and disclosures 
regarding the collection, use, and transfer of personal information; 
and commented on self-regulatory efforts and technological developments 
intended to enhance consumer privacy. The Commission's goals have been 
to understand this new marketplace and its information practices, and 
to assess the costs and benefits to businesses and consumers.\13\
    In June 1998 the Commission issued Privacy Online: A Report to 
Congress (``1998 Report''), an examination of the information practices 
of commercial sites on the World Wide Web and of industry's efforts to 
implement self-regulatory programs to protect consumers' online 
privacy.\14\ The Commission described the widely-accepted fair 
information practice principles of Notice, Choice, Access and Security. 
The Commission also identified Enforcement--the use of a reliable 
mechanism to provide sanctions for noncompliance--as a critical 
component of any governmental or self-regulatory program to protect 
privacy online.\15\ In addition, the 1998 Report presented the results 
of the Commission's first online privacy survey of commercial Web 
sites. While almost all Web sites (92% of the comprehensive random 
sample) were collecting great amounts of personal information from 
consumers, few (14%) disclosed anything at all about their information 
practices.\16\
    Based on survey data showing that the vast majority of sites 
directed at children also collected personal information, the 
Commission recommended that Congress enact legislation setting forth 
standards for the online collection of personal information from 
children.\17\ The Commission deferred its recommendations with respect 
to the collection of personal information from online consumers 
generally. In subsequent Congressional testimony, the Commission 
referenced promising self-regulatory efforts suggesting that industry 
should be given more time to address online privacy issues. The 
Commission urged the online industry to expand these efforts by 
adopting effective, widespread self-regulation based upon the long-
standing fair information practice principles of Notice, Choice, 
Access, and Security, and by putting enforcement mechanisms in place to 
assure adherence to these principles.\18\ In a 1999 report to Congress, 
Self-Regulation and Privacy Online, a majority of the Commission again 
recommended that self-regulation be given more time.\19\
    On May 22, 2000, the Commission issued its third report to Congress 
examining the state of online privacy and the efficacy of industry 
self-regulation. Privacy Online: Fair Information Practices in the 
Electronic Marketplace (``2000 Report'') presented the results of the 
Commission's 2000 Online Privacy Survey, which reviewed the nature and 
substance of U.S. commercial Web sites' privacy disclosures, and 
assessed the effectiveness of self-regulation. In that Report, a 
majority of the Commission concluded that legislation is necessary to 
ensure further implementation of fair information practices online and 
recommended a framework for such legislation.\20\

II. Online Profiling
    On November 8, 1999, the Commission and the United States 
Department of Commerce jointly sponsored a Public Workshop on Online 
Profiling.\21\ As a result of the Workshop and public comment, the 
Commission learned a great deal about what online profiling is, how it 
can benefit both businesses and consumers, and the privacy concerns 
that it raises.

A. What is Online Profiling?
    More than half of all online advertising is in the form of ``banner 
ads'' displayed on Web pages--small graphic advertisements that appear 
in boxes above or to the side of the primary site content.\22\ Often, 
these ads are not selected and delivered by the Web site visited by a 
consumer, but by a network advertising company that manages and 
provides advertising for numerous unrelated Web sites.
    In general, these network advertising companies do not merely 
supply banner ads; they also gather data about the consumers who view 
their ads. This is accomplished primarily by the use of ``cookies'' 
\23\ which track the individual's actions on the Web.\24\ The 
information gathered by network advertisers is often, but not always, 
anonymous, that is, the profiles are frequently linked to the 
identification number of the advertising network's cookie on the 
consumer's computer rather than the name of a specific person. In some 
circumstances, however, the profiles derived from tracking consumers' 
activities on the Web are linked or merged with personally identifiable 
information.\25\
    Once collected, consumer data is analyzed and can be combined with 
demographic and ``psychographic'' \26\ data from third-party sources, 
data on the consumer's offline purchases, or information collected 
directly from consumers through surveys and registration forms. This 
enhanced data allows the advertising networks to make a variety of 
inferences about each consumer's interests and preferences. The result 
is a detailed profile that attempts to predict the individual 
consumer's tastes, needs, and purchasing habits and enables the 
advertising companies' computers to make split-second decisions about 
how to deliver ads directly targeted to the consumer's specific 
interests.
    The profiles created by the advertising networks can be extremely 
detailed. A cookie placed by a network advertising company can track a 
consumer on any Web site served by that company, thereby allowing data 
collection across disparate and unrelated sites on the Web. Also, 
because the cookies used by ad networks are generally persistent, their 
tracking occurs over an extended period of time, resuming each time the 
individual logs on to the Internet. When this ``clickstream'' 
information is combined with third-party data, these profiles can 
include hundreds of distinct data fields.\27\
    Although network advertisers and their profiling activities are 
nearly ubiquitous,\28\ they are most often invisible to consumers. All 
that consumers see are the Web sites they visit; banner ads appear as a 
seamless, integral part of the Web page on which they appear and 
cookies are placed without any notice to consumers.\29\ Unless the Web 
sites visited by consumers provide notice of the ad network's presence 
and data collection, consumers may be totally unaware that their 
activities online are being monitored.\30\

B. Profiling Benefits and Privacy Concerns
    Network advertisers' use of cookies \31\ and other technologies to 
create targeted marketing programs can benefit both consumers and 
businesses. As noted by commenters at the Public Workshop, targeted 
advertising allows customers to receive offers and information about 
goods and services in which they are actually interested.\32\ 
Businesses clearly benefit as well from the ability to target 
advertising because they avoid wasting advertising dollars marketing 
themselves to consumers who have no interest in their products.\33\ 
Additionally, a number of commenters stated that targeted advertising 
helps to subsidize free content on the Internet.\34\
    Despite the benefits of targeted advertising, there is widespread 
concern about current profiling practices. The most consistent and 
significant concern expressed about profiling is that it is conducted 
without consumers' knowledge.\35\ The presence and identity of a 
network advertiser on a particular site, the placement of a cookie on 
the consumer's computer, the tracking of the consumer's movements, and 
the targeting of ads are simply invisible in most cases.
    The second most persistent concern expressed by commenters was the 
extensive and sustained scope of the monitoring that occurs. 
Unbeknownst to most consumers, advertising networks monitor individuals 
across a multitude of seemingly unrelated Web sites and over an 
indefinite period of time. The result is a profile far more 
comprehensive than any individual Web site could gather. Although much 
of the information that goes into a profile is fairly innocuous when 
viewed in isolation, the cumulation over time of vast numbers of 
seemingly minor details about an individual produces a portrait that is 
quite comprehensive and, to many, inherently intrusive.\36\
    For many of those who expressed concerns about profiling, the 
privacy implications of profiling are not ameliorated in cases where 
the profile contains no personally identifiable information.\37\ First, 
commenters feared that companies could unilaterally change their 
operating procedures and begin associating personally identifiable 
information with non-personally identifiable data previously 
collected.\38\ Second, these commenters objected to the use of 
profiles--regardless of whether they contain personally identifiable 
information--to make decisions about the information individuals see 
and the offers they receive. Commenters expressed concern that 
companies could use profiles to determine the prices and terms upon 
which goods and services, including important services like life 
insurance, are offered to individuals.\39\

C. Online Profiling and Self Regulation: the NAI Effort
    The November 8th workshop provided an opportunity for consumer 
advocates, government, and industry members not only to educate the 
public about the practice of online profiling, but to explore self-
regulation as a means of addressing the privacy concerns raised by this 
practice. In the Spring of 1999, in anticipation of the Workshop, 
network advertising companies were invited to meet with FTC and 
Department of Commerce staff to discuss their business practices and 
the possibility of self-regulation. As a result, industry members 
announced at the Workshop the formation of the Network Advertising 
Initiative (NAI), an organization comprised of the leading Internet 
Network Advertisers--24/7 Media, AdForce, AdKnowledge, Avenue A, Burst! 
Media, DoubleClick, Engage, and MatchLogic--to develop a framework for 
self-regulation of the online profiling industry.
    In announcing their intention to implement a self-regulatory 
scheme, the NAI companies acknowledged that they face unique challenges 
as a result of their indirect and invisible relationship with consumers 
as they surf the Internet. The companies also discussed the fundamental 
question of how fair information practices, including choice, should be 
applied to the collection and use of data that is unique to a consumer 
but is not necessarily personally identifiable, such as clickstream 
data generated by the user's browsing activities and tied only to a 
cookie identification number.\40\
    Following the workshop, the NAI companies submitted working drafts 
of self-regulatory principles for consideration by FTC and Department 
of Commerce staff. Although efforts have been made to reach a consensus 
on basic standards for applying fair information practices to the 
business model used by the network advertisers, this process is not yet 
complete. The Commission will supplement this report with specific 
recommendations to Congress after it has an opportunity to fully 
consider the self-regulatory proposals and how they interrelate with 
the Commission's previous views and recommendations in the online 
privacy area.

III. Conclusion
    The Commission is committed to the goal of ensuring privacy online 
for consumers and will continue working to address the unique issues 
presented by online profiling. I would be pleased to answer any 
questions you may have.

Endnotes
    1. The Commission vote to issue this testimony was 5-0, with 
Commissioner Swindle concurring in part and dissenting in part. 
Commissioner Swindle's separate statement is attached to the testimony.
    2. My oral testimony and responses to questions you may have 
reflect my own views and are not necessarily the views of the 
Commission or any individual Commissioner.
    3. 15 U.S.C. Sec. 45(a).
    4. The Commission also has responsibility under 45 additional 
statutes governing specific industries and practices. These include, 
for example, the Truth in Lending Act, 15 U.S.C. Sec. Sec. 1601 et 
seq., which mandates disclosures of credit terms, and the Fair Credit 
Billing Act, 15 U.S.C. Sec. Sec. 1666 et seq., which provides for the 
correction of billing errors on credit accounts. The Commission also 
enforces over 30 rules governing specific industries and practices, 
e.g., the Used Car Rule, 16 C.F.R. Part 455, which requires used car 
dealers to disclose warranty terms via a window sticker; the Franchise 
Rule, 16 C.F.R. Part 436, which requires the provision of information 
to prospective franchisees; the Telemarketing Sales Rule, 16 C.F.R. 
Part 310, which defines and prohibits deceptive telemarketing practices 
and other abusive telemarketing practices; and the Children's Online 
Privacy Protection Rule, 16 C.F.R. Part 312.
    In addition, on May 12, 2000, the Commission issued a final rule 
implementing the privacy provisions of the Gramm-Leach-Bliley Act, 15 
U.S.C. Sec. Sec. 6801 et seq. The rule requires a wide range of 
financial institutions to provide notice to their customers about their 
privacy policies and practices. The rule also describes the conditions 
under which those financial institutions may disclose personal 
financial information about consumers to nonaffiliated third parties, 
and provides a method by which consumers can prevent financial 
institutions from sharing their personal financial information with 
nonaffiliated third parties by opting out of that disclosure, subject 
to certain exceptions. The rule is available on the Commission's Web 
site at <http://www.ftc.gov/os/2000/05/index.htm#12>. See Privacy of 
Consumer Financial Information, to be codified at 16 C.F.R. pt. 313.
    The Commission does not, however, have criminal law enforcement 
authority. Further, under the FTCA, certain entities, such as banks, 
savings and loan associations, and common carriers, as well as the 
business of insurance, are wholly or partially exempt from Commission 
jurisdiction. See Section 5(a)(2) and (6)a of the FTC Act, 15 U.S.C. 
Sec. 45(a)(2) and 46(a). See also The McCarran-Ferguson Act, 15 U.S.C. 
Sec. 1012(b).
    5. The Intelliquest Technology Panel, Panel News, available at 
<http://www.techpanel.com/news/index.asp> [hereinafter ``Technology 
Panel''] (90 million adult online users as of third-quarter 1999). 
Other sources place the number in the 70-75 million user range. See 
Cyber Dialogue, Internet Users, available at <http://
www.cyberdialogue.com/resource/data/ic/index.html> (69 million users); 
Cyberstats, Internet Access and Usage, Percent of Adults 18+, available 
at <http://www.mediamark.com/cfdocs/MRI/cs_f99a.cfm> (75 million 
users).
    6. Technology Panel. This represents an increase of over 15 million 
online shoppers in one year. See id.
    7. United States Department of Commerce News, Retail E-commerce 
Sales Are $5.3 Billion In First Quarter 2000, Census Bureau Reports 
(May 31, 2000), available at <http://www.census.gov/mrts/www/
current.html>.
    8. Survey data is an important component in the Commission's 
evaluation of consumer concerns, as is actual consumer behavior. 
Nonetheless, the Commission recognizes that the interpretation of 
survey results is complex and must be undertaken with care.
    9. Alan F. Westin, Personalized Marketing and Privacy on the Net: 
What Consumers Want, Privacy and American Business at 11 (Nov. 1999) 
[hereinafter ``Westin/PAB 1999'']. See also IBM Multi-National Consumer 
Privacy Survey at 72 (Oct. 1999), prepared by Louis Harris & Associates 
Inc. [hereinafter ``IBM Privacy Survey''] (72% of Internet users very 
concerned and 20% somewhat concerned about threats to personal privacy 
when using the Internet); Forrester Research, Inc., Online Consumers 
Fearful of Privacy Violations (Oct. 1999), available at <http://
www.forrester.com/ER/Press/Release/0,1769,177,FF.html> (two-thirds of 
American and Canadian online shoppers feel insecure about exchanging 
personal information over the Internet).
    10. Survey Shows Few Trust Promises on Online Privacy, Apr. 17, 
2000, available at <http://www.nyt.com> (citing recent Odyssey survey).
    11. The Commission, of course, recognizes that other consumer 
concerns also may hinder the development of e-commerce. As a result, 
the agency has pursued other initiatives such as combating online fraud 
through law enforcement efforts.  See FTC Staff Report: The FTC's First 
Five Years Protecting Consumers Online (Dec. 1999). The Commission, 
with the Department of Commerce, recently held a public workshop and 
soliciting comment on the potential issues associated with the use of 
alternative dispute resolution for online consumer transactions. See 
Initial Notice Requesting Public Comment and Announcing Public 
Workshop, 65 Fed. Reg. 7,831 (Feb. 16, 2000); Notice Announcing Dates 
and Location of Workshop and Extending Deadline for Public Comments, 65 
Fed. Reg. 18,032 (Apr. 6, 2000). The workshop was held on June 6 and 7, 
2000. Information about the workshop, including the federal register 
notices and public comments received, is available at <http://
www.ftc.gov/bcp/altdisresolution/index.htm>.
    12. The Commission's review of privacy has mainly focused on online 
issues because the Commission believes privacy is a critical component 
in the development of electronic commerce. However, the FTC Act and 
most other statutes enforced by the Commission apply equally in the 
offline and online worlds. As described infra, n.11, the agency has 
examined privacy issues affecting both arenas, such as those implicated 
by the Individual Reference Services Group, and in the areas of 
financial and medical privacy. It also has pursued law enforcement, 
where appropriate, to address offline privacy concerns. See FTC v. 
Rapp, No. 99-WM-783 (D. Colo. filed Apr. 21, 1999); In re Trans Union, 
Docket No. 9255 (Feb. 10, 2000), appeal docketed, No. 00-1141 (D.C. 
Cir. Apr. 4, 2000). These activities--as well as recent concerns about 
the merging of online and offline databases, the blurring of 
distinctions between online and offline merchants, and the fact that a 
vast amount of personal identifying information is collected and used 
offline--make clear that significant attention to offline privacy 
issues is warranted.
    13. The Commission held its first public workshop on privacy in 
April 1995. In a series of hearings held in October and November 1995, 
the Commission examined the implications of globalization and 
technological innovation for competition and consumer protection 
issues, including privacy concerns. At a public workshop held in June 
1996, the Commission examined Web site practices regarding the 
collection, use, and transfer of consumers' personal information; self-
regulatory efforts and technological developments to enhance consumer 
privacy; consumer and business education efforts; the role of 
government in protecting online information privacy; and special issues 
raised by the online collection and use of information from and about 
children. The Commission held a second workshop in June 1997 to explore 
issues raised by individual reference services, as well as issues 
relating to unsolicited commercial e-mail, online privacy generally, 
and children's online privacy.
    The Commission and its staff have also issued reports describing 
various privacy concerns in the electronic marketplace. See, e.g., FTC 
Staff Report: The FTC's First Five Years Protecting Consumers Online 
(Dec. 1999); Individual Reference Services: A Federal Trade Commission 
Report to Congress (Dec. 1997); FTC Staff Report: Public Workshop on 
Consumer Privacy on the Global Information Infrastructure (Dec. 1996); 
FTC Staff Report: Anticipating the 21st Century: Consumer Protection 
Policy in the New High-Tech, Global Marketplace (May 1996). Recently, 
at the request of the Department of Health and Human Services 
(``HHS''), the Commission submitted comments on HHS' proposed Standards 
for Privacy of Individually Identifiable Health Information (required 
by the Health Insurance Portability and Accountability Act of 1996). 
The Commission strongly supported HHS' proposed ``individual 
authorization'' or ``opt-in'' approach to health providers' ancillary 
use of personally identifiable health information for purposes other 
than those for which the information was collected. The Commission also 
offered HHS suggestions it may wish to consider to improve disclosure 
requirements in two proposed forms that would be required by the 
regulations. The Commission's comments are available at <http://
www.ftc.gov/be/v000001.htm>.
    The Commission also has brought law enforcement actions to protect 
privacy online pursuant to its general mandate to fight unfair and 
deceptive practices. See FTC v. ReverseAuction.com, Inc., No. 00-0032 
(D.D.C. Jan. 6, 2000) (consent decree) (settling charges that an online 
auction site obtained consumers' personal identifying information from 
a competitor site and then sent deceptive, unsolicited e-mail messages 
to those consumers seeking their business); Liberty Financial 
Companies, Inc., FTC Dkt. No. C-3891 (Aug. 12, 1999) (consent order) 
(challenging the allegedly false representations by the operator of a 
``Young Investors'' Web site that information collected from children 
in an online survey would be maintained anonymously); GeoCities, FTC 
Dkt. No. C-3849 (Feb. 12, 1999) (consent order) (settling charges that 
Web site misrepresented the purposes for which it was collecting 
personal identifying information from children and adults).
    14. The Report is available on the Commission's Web site at http://
www.ftc.gov/reports/privacy3/index.htm.
    15. 1998 Report at 11-14.
    16. Id. at 23, 27.
    17. Id. at 42-43. In October 1998, Congress enacted the Children's 
Online Privacy Protection Act of 1998 (``COPPA''), which authorized the 
Commission to issue regulations implementing the Act's privacy 
protections for children under the age of 13. 15 U.S.C. Sec. Sec. 6501 
et seq. In October 1999, as required by COPPA, the Commission issued 
its Children's Online Privacy Protection Rule, which became effective 
last month. 16 C.F.R. Part 312.
    18. See Prepared Statement of the Federal Trade Commission on 
``Consumer Privacy on the World Wide Web'' before the Subcommittee on 
Telecommunications, Trade and Consumer Protection of the House 
Committee on Commerce, U.S. House of Representatives (July 21, 1998), 
available at <http://www.ftc.gov/os/1998/9807/privac98.htm>.
    19. Self-Regulation and Privacy Online (July 1999) at 12-14 
(available at <http:
//www.ftc.gov/os/1999/9907/index.htm#13>).
    20. The 2000 Report is available at <http://www.ftc.gov/os/2000/05/
index.htm#22>. The Commission's vote to issue the report was 3-2, with 
Commissioner Swindle dissenting and Commissioner Leary concurring in 
part and dissenting in part.
    21. A transcript of the Workshop is available at <http://
www.ftc.gov/bcp/profiling/index.htm> and will be cited as ``Tr. [page], 
[speaker].'' Public comments received in connection with the Workshop 
can be viewed on the Federal Trade Commission's Web site at <http://
www.ftc.gov/bcp/profiling/comments/index.html> and will be cited as 
``Comments of [organization or name] at [page].''
    22. In 1999, 56% of all online advertising revenue was attributable 
to banner advertising. Online advertising has grown exponentially in 
tandem with the World Wide Web: online advertising revenues in the U.S. 
grew from $301 million in 1996 to $4.62 billion in 1999. See Press 
Release: Internet Advertising Revenues Soar to $4.6 billion in 1999 
(available at <http://www.iab.net/news/content/revenues.html>). 
Advertising revenues are projected to reach $11.5 billion by 2003. See 
Jupiter Communications, Inc., Online Advertising Through 2003 (July 
1999) (summary available at <http://www.jupitercommunications.com>).
    23. A cookie is a small text file placed on a consumer's computer 
by a Web server that transmits information back to the server that 
placed it. As a rule, a cookie can be read only by the server that 
placed it.
    24. In addition to cookies, which are largely invisible to 
consumers, other hidden methods of monitoring consumers' activities on 
the Web may also be used. One such method is through the use of ``Web 
bugs,'' also known as ``clear GIFs'' or ``1-by-1 GIFs.'' Web bugs are 
tiny graphic image files embedded in a Web page, generally the same 
color as the background on which they are displayed. They are one pixel 
in height by one pixel in length--the smallest image capable of being 
displayed on a monitor--and are invisible to the naked eye. The Web bug 
sends back to its home server (which can belong to the host site, a 
network advertiser or some other third party): the IP (Internet 
Protocol) address of the computer that downloaded the page on which the 
bug appears; the URL (Uniform Resource Locator) of the page on which 
the Web bug appears; the URL of the Web bug image; the time the page 
containing the Web bug was viewed; the type of browser that fetched the 
Web bug; and the identification number of any cookie on the consumer's 
computer previously placed by that server. Web bugs can be detected 
only by looking at the source code of a Web page and searching in the 
code for 1-by-1 IMG tags that load images from a server different than 
the rest of the Web page. At least one expert claims that, in addition 
to disclosing who visits the particular Web page or reads the 
particular e-mail in which the bug has been placed, in some 
circumstances, Web bugs can also be used to place a cookie on a 
computer or to synchronize a particular e-mail address with a cookie 
identification number, making an otherwise anonymous profile personally 
identifiable. See generally Comments of Richard M. Smith; see also Big 
Browser is Watching You!, Consumer Reports, May 2000, at 46; USA Today, 
A new wrinkle in surfing the Net: Dot-coms' mighty dot-size bugs track 
your every move, Mar. 21, 2000 (available at <http://www.usatoday.com/
life/cyber/tech/cth582.htm>).
    25. Personally identifiable data is data that can be linked to 
specific individuals and includes, but is not limited to such 
information as name, postal address, phone number, e-mail address, 
social security number, and driver's license number. The linkage of 
personally identifiable information with non-personally identifiable 
information generally occurs in one of two ways when consumers identify 
themselves to a Web site on which the network advertiser places banner 
ads. First, the Web site to whom personal information is provided may, 
in turn, provide that information to the network advertiser. Second, 
depending upon how the personal information is retrieved and processed 
by the Web site, the personally identifying information may be 
incorporated into a URL string that is automatically transmitted to the 
network advertiser through its cookie. In addition, network advertising 
companies can and do link personally identifiable information to non-
personally identifiable information at their own Web sites by asking 
consumers to provide personal information (for example, to enter a 
sweepstakes) and then linking that information to the cookie previously 
placed on the consumer's computer; the linkage of personally 
identifying information to a cookie makes all of the data collected 
through that cookie personally identifiable.
    26. Psychographic data links objective demographic characteristics 
like age and gender with more abstract characteristics related to 
ideas, opinions and interests. Data mining specialists analyze 
demographic, media, survey, purchasing and psychographic data to 
determine the exact groups that are most likely to buy specific 
products and services. See Comments of the Center for Democracy and 
Technology (CDT) at 5 n.5. Psychographic profiling is also referred to 
in the industry as ``behavioral profiling.''
    27. For example, the Web site for Engage states repeatedly that its 
profiles contain 800 ``interest categories.'' See, e.g., <http://
www.engage.com/press/releases/2qfiscal.htm>.
    28. DoubleClick has approximately 100 million consumer profiles, 
see Heather Green, Privacy: Outrage on the Web, Business Week, Feb 14, 
2000, at 38; Engage has 52 million consumer profiles, see <http://
www.engage.com/press/releases/2qfiscal.htm>; and 24/7 Media has 60 
million profiles, see <http://www.247media.com/connect/adv_pub.html>.
    29. Most Internet browsers can be configured to notify users that a 
cookie is being sent to their computer and to give users the option of 
rejecting the cookie. The browsers' default setting, however, is to 
permit placement of cookies without any notification.
    30. Not all profiles are constructed by network advertising 
companies. Some Web sites create profiles of their own customers based 
on their interactions. Other companies create profiles as part of a 
service--for example, offering discounts on products of interest to 
consumers or providing references to useful Web sites on the same topic 
as those already visited by the consumer. See, e.g., Megan Barnett, The 
Profilers: Invisible Friends, The Industry Standard, Mar. 13, 2000, at 
220; Ben Hammer, Bargain Hunting, The Industry Standard, Mar. 13, 2000, 
at 232. These profiles are generally created by companies that have a 
known, consensual relationship with the consumer and are not addressed 
in this report. This report uses the term ``profiling'' to refer only 
to the activities of third-party network advertising companies.
    31. Cookies are used for many purposes other than profiling by 
third-party advertisers, many of which significantly benefit consumers. 
For example, Web sites often ask for user names and passwords when 
purchases are made or before certain kinds of content are provided. 
Cookies can store these names and passwords so that consumers do not 
need to sign in each time they visit the site. In addition, many sites 
allow consumers to set items aside in an electronic shopping cart while 
they decide whether or not to purchase them; cookies allow a Web site 
to remember what is in a consumer's shopping cart from prior visits. 
Cookies also can be used by Web sites to offer personalized home pages 
or other customized content with local news and weather, favorite stock 
quotes, and other material of interest to individual consumers. 
Individual online merchants can use cookies to track consumers' 
purchases in order to offer recommendations about new products or sales 
that may be of interest to their established customers. Finally, by 
enabling businesses to monitor traffic on their Web sites, cookies 
allow businesses to constantly revise the design and layout of their 
sites to make them more interesting and efficient. The privacy issues 
raised by these uses of cookies are beyond the scope of this report.
    32. See, e.g., Comments of the Magazine Publishers of America (MPA) 
at 1; Comments of the Direct Marketing Association (DMA) at 2; Comments 
of the Association of National Advertisers (ANA) at 2; Tr. 30, Smith; 
Tr. 120, Jaffe.
    33. See, e.g., Comments of the Association of National Advertisers 
(ANA) at 2.
    34. See, e.g., Comments of the Magazine Publishers of America (MPA) 
at 1; Comments of Solveig Singleton at 3-4; Tr. 20, Jaye; Tr. 124, 
Aronson.
    35. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2, 16; Reply Comments of the Electronic Information Privacy 
Center (EPIC) at 1; Comments of TRUSTe at 2; Tr. 113, Mulligan.
    36. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2; Reply Comments of Electronic Information Privacy Center 
(EPIC) at 1-2.
    37. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2-3; Tr. 112, Steele; Tr. 128, Smith.
    38. See Comments of the Center for Democracy and Technology (CDT) 
at 2-3; Comments of Christopher K. Ridder (Nov. 30, 1999) at 6 (listing 
examples of sites whose privacy policies explicitly reserve the right 
of the site to change privacy policies without notice to the consumer); 
Tr. 158, Mulligan. These commenters also felt that the comprehensive 
nature of the profiles and the technology used to create them make it 
reasonably easy to associate previously anonymous profiles with 
particular individuals.
    39. See Comments of the Center for Democracy and Technology (CDT) 
at 3; Comments of the Electronic Frontier Foundation (EFF) Session II 
at 2; Rebuttal Comments of the Electronic Frontier Foundation (EFF) at 
4; Tr. 81, Feena; Tr. 114, Hill; Tr. 146-7, Steele; see also John 
Simons, The Coming Privacy Divide, The Standard, Feb. 21, 2000, <http:/
/www. thestandard.com/article/display/1,1153,10880,00.html>. For 
example, products might be offered at higher prices to consumers whose 
profiles indicate that they are wealthy, or insurance might be offered 
at higher prices to consumers whose profiles indicate possible health 
risks. This practice, known as ``web-lining,'' raises many of the same 
concerns that ``redlining'' and ``reverse redlining'' do in offline 
financial markets. See, e.g., Rebuttal Comments of the Electronic 
Frontier Foundation (EFF) at 4 (expressing concern about ``electronic 
redlining''); Tr. 81, Feena (describing technology's potential use for 
``red-lining'' [sic]); Tr. 146-7, Steele (describing risk of 
``electronic redlining and price discrimination'').
    40. Tr. 186, Jaye; Tr. 192-193, Zinman.
                                 ______
                                 
    Statement of Commissioner Orson Swindle Concurring in Part and 
     Dissenting in Part to Prepared Statement of the Federal Trade
       Commission on ``Online Profiling: Benefits and Concerns''

    I concur in the issuance of the Prepared Statement of the Federal 
Trade Commission on ``Online Profiling: Benefits and Concerns'' before 
the Committee on Commerce, Science, and Transportation, United States 
Senate (June 13, 2000) (``Commission Statement''), but I dissent from 
how certain consumer opinion surveys are used in the Commission 
Statement.
    First, consumer opinion surveys like the ones used in the 
Commission Statement often are not reliable predictors of consumer 
behavior. For several reasons, and as the Commission Statement 
acknowledges in footnote 8, survey results should be examined with 
scrupulous care. Surveys are one-time snapshots of consumer opinion, 
are easily biased by design, and must be examined for methodological 
integrity.
    Ideally, consumer opinion surveys should complement, but not be a 
substitute for, empirical evidence of consumer behavior relating to 
privacy. They should not serve as the substantive basis for policy.\1\
---------------------------------------------------------------------------
    \1\ A portion of my dissent from the Commission's 2000 Privacy 
Report addressed the Commission's dubious reliance on consumer opinion 
surveys. See Dissenting Statement of Commissioner Orson Swindle, 
Federal Trade Commission, ``Privacy Online: Fair Information Practices 
in the Electronic Marketplace: A Report to Congress'' (May 22, 2000) at 
12-16.
---------------------------------------------------------------------------
    Second, when the Commission reports to or testifies before 
Congress, it owes the Congress a certain degree of thoroughness. A 
statistic included in a Commission report likely will be given 
credibility beyond what might attach to the use of that same number in 
a brief news story or an advertisement. Because of the added degree of 
credibility attached to a Commission report, the Commission should not 
uncritically repeat estimates, projections, or other statistics unless 
it knows how the numbers were derived, including the assumptions on 
which they may have been based. This requires going directly to the 
source of a number. If that standard of analysis cannot be met, then 
the Commission either should not use the number or should explicitly 
qualify its use of the number by the uncertainties attached to it.
    For example, both the Online Profiling Report and this testimony 
contain an estimate of future advertising revenue drawn from an 
overview of a July 1999 report by a management consulting firm. (see 
``Online Profiling: A Report to Congress'' at 2, n.7; Commission 
Statement at n.22). The Commission has no basis for assessing what 
assumptions went into that projection, nor does the Report or the 
testimony highlight that the July 1999 date of the projection alone 
likely means it is less accurate in light of the tremendous growth in 
online commerce since then. In my dissent from the Commission's 2000 
Privacy Report, I criticized the Commission's use of a lost sales 
projection by the same management consulting firm based on the 
repetition of that projection in a news article and the information 
available from an online overview of the study. An examination of the 
full study revealed that the lost sales projection was based on 
assumptions that completely invalidated the Privacy Report's reliance 
on that lost sales projection. See 2000 Privacy Report, Dissenting 
Statement of Commissioner Orson Swindle at 13-14.
    Another example of relying on numbers without assessing their 
validity is the testimony's reference to an Odyssey study in which 92% 
of respondents from online households stated that they do not trust 
online companies to keep their personal information confidential. 
(Commission Statement at 5-6 n.10). This figure comes from the same 
Odyssey Study cited by the majority in the Privacy Report and appears 
to be subject to the same flaws that I discussed in my dissent from the 
Privacy Report. Unfortunately, the Odyssey Study does not reveal the 
specific questions used to derive the 92% that either agree or strongly 
agree with the proposition repeated in the Commission Statement. If the 
Odyssey Study uses the same methodology as for other questions, it 
likely biases the responses to ``agree'' categories by not allowing a 
choice to ``somewhat disagree.'' (See 2000 Privacy Report, Dissenting 
Statement of Commissioner Orson Swindle at 11.)
    I respectfully ask that Congress keep these limitations in the data 
in mind as it considers the Commission's Online Profiling Report and 
the Commission Statement.
                                 ______
                                 
                 Online Profiling: A Report to Congress
                       Federal Trade Commission*
---------------------------------------------------------------------------
    * The Commission vote to issue this Report was 5-0, with 
Commissioner Swindle concurring in part and dissenting in part. 
Commissioner Swindle's separate statement is attached to the Report.
---------------------------------------------------------------------------
Robert Pitofsky, Chairman
Sheila F. Anthony, Commissioner
Mozelle W. Thompson, Commissioner
Orson Swindle, Commissioner
Thomas B. Leary, Commissioner

Bureau of Consumer Protection, Division of Financial Practices

I. Introduction
    On November 8, 1999, the Federal Trade Commission (hereinafter 
``FTC'' or ``Commission'') and the United States Department of Commerce 
jointly sponsored a Public Workshop on Online Profiling.\1\ The goals 
of the Workshop were to educate government officials and the public 
about online profiling and its implications for consumer privacy, and 
to examine efforts of the profiling industry to implement fair 
information practices.\2\ The Commission also sought public comment on 
any issues of fact, law or policy that might inform its consideration 
of the practice of online profiling.\3\
    In keeping with its longstanding support of industry self-
regulation, the Commission has encouraged the network advertising 
industry in its efforts to craft an industry-wide program. The industry 
has responded with working drafts of self-regulatory principles for our 
consideration. In examining the practice of online profiling, as well 
as our work in online privacy, we nonetheless recognize there are real 
challenges to creating an effective self-regulatory regime for this 
complex and dynamic industry, and this process is not yet complete.
    This report describes the current practice of online profiling by 
the network advertisers \4\ and the benefits and concerns it presents 
for consumers. It also discusses the ongoing effort of the industry to 
develop self-regulatory principles. The Commission expects to 
supplement this report with specific recommendations to Congress after 
it has an opportunity to fully consider the self-regulatory proposals 
and how they interrelate with the Commission's previous views and 
recommendations in the online privacy area.

II. What is Online Profiling?

A. Overview
    Over the past few years, online advertising has grown exponentially 
in tandem with the World Wide Web. Online advertising revenues in the 
U.S. grew from $301 million in 1996 \5\ to $4.62 billion in 1999,\6\ 
and were projected to reach $11.5 billion by 2003.\7\ A large portion 
of that online advertising is in the form of ``banner ads'' displayed 
on Web pages--small graphic advertisements that appear in boxes above 
or to the side of the primary site content.\8\ Currently, tens of 
billions of banner ads are delivered to consumers each month as they 
surf the World Wide Web.\9\ Often, these ads are not selected and 
delivered by the Web site visited by a consumer, but by a network 
advertising company that manages and provides advertising for numerous 
unrelated Web sites. DoubleClick, Engage, and 24/7 Media, three of the 
largest Internet advertising networks, all estimate that over half of 
all online consumers have seen an ad that they delivered.\10\
    In general, these network advertising companies do not merely 
supply banner ads; they also gather data about the consumers who view 
their ads. This is accomplished primarily by the use of ``cookies'' 
\11\ and ``Web bugs'' which track the individual's actions on the 
Web.\12\ Among the types of information that can be collected by 
network advertisers are: information on the Web sites and pages within 
those sites visited by consumers; the time and duration of the visits; 
query terms entered into search engines; purchases; ``click-through'' 
responses to advertisements;\13\ and the Web page a consumer came from 
before landing on the site monitored by the particular ad network (the 
referring page). All of this information is gathered even if the 
consumer never clicks on a single ad.
    The information gathered by network advertisers is often, but not 
always, anonymous, i.e., the profiles are frequently linked to the 
identification number of the advertising network's cookie on the 
consumer's computer rather than the name of a specific person. This 
data is generally referred to as non-personally identifiable 
information (``non-PII''). In some circumstances, however, the profiles 
derived from tracking consumers' activities on the Web are linked or 
merged with personally identifiable information (``PII'').\14\ This 
generally occurs in one of two ways when consumers identify themselves 
to a Web site on which the network advertiser places banner ads.\15\ 
First, the Web site to whom personal information is provided may, in 
turn, provide that information to the network advertiser. Second, 
depending upon how the personal information is retrieved and processed 
by the Web site, the personally identifying information may be 
incorporated into a URL string \16\ that is automatically transmitted 
to the network advertiser through its cookie.\17\
    Once collected, consumer data can be analyzed and combined with 
demographic and ``psychographic'' \18\ data from third-party sources, 
data on the consumer's offline purchases, or information collected 
directly from consumers through surveys and registration forms. This 
enhanced data allows the advertising networks to make a variety of 
inferences about each consumer's interests and preferences. The result 
is a detailed profile that attempts to predict the individual 
consumer's tastes, needs, and purchasing habits and enables the 
advertising companies' computers to make splitsecond decisions about 
how to deliver ads directly targeted to the consumer's specific 
interests.
    The profiles created by the advertising networks can be extremely 
detailed. A cookie placed by a network advertising company can track a 
consumer on any Web site served by that company, thereby allowing data 
collection across disparate and unrelated sites on the Web. Also, 
because the cookies used by ad networks are generally persistent, their 
tracking occurs over an extended period of time, resuming each time the 
individual logs on to the Internet. When this ``clickstream'' 
information is combined with third-party data, these profiles can 
include hundreds of distinct data fields.\19\
    Although network advertisers and their profiling activities are 
nearly ubiquitous,\20\ they are most often invisible to consumers. All 
that consumers see are the Web sites they visit; banner ads appear as a 
seamless, integral part of the Web page on which they appear and 
cookies are placed without any notice to consumers.\21\ Unless the Web 
sites visited by consumers provide notice of the ad network's presence 
and data collection, consumers may be totally unaware that their 
activities online are being monitored.

B. An Illustration of How Network Profiling Works
    Online consumer Joe Smith goes to a Web site that sells sporting 
goods. He clicks on the page for golf bags. While there, he sees a 
banner ad, which he ignores as it does not interest him. The ad was 
placed by USAad Network. He then goes to a travel site and enters a 
search on ``Hawaii.'' USAad Network also serves ads on this site, and 
Joe sees an ad for rental cars there. Joe then visits an online 
bookstore and browses through books about the world's best golf 
courses. USAad Network serves ads there, as well. A week later, Joe 
visits his favorite online news site, and notices an ad for golf 
vacation packages in Hawaii. Delighted, he clicks on the ad, which was 
served by the USAad Network. Later, Joe begins to wonder whether it was 
a coincidence that this particular ad appeared and, if not, how it 
happened.
    At Joe's first stop on the Web, the sporting goods site, his 
browser will automatically send certain information to the site that 
the site needs in order to communicate with Joe's computer: his browser 
type \22\ and operating system;\23\ the language(s) accepted by the 
browser; and the computer's Internet address. The server hosting the 
sporting goods site answers by transmitting the HTTP \24\ header and 
HTML \25\ source code for the site's home page, which allows Joe's 
computer to display the page.
    Embedded in the HTML code that Joe's browser receives from the 
sporting goods site is an invisible link to the USAad Network site 
which delivers ads in the banner space on the sporting goods Web site. 
Joe's browser is automatically triggered to send an HTTP request to 
USAad which reveals the following information: his browser type and 
operating system; the language(s) accepted by the browser; the address 
of the referring Web page (in this case, the home page of the sporting 
goods site); and the identification number and information stored in 
any USAad cookies already on Joe's computer. Based on this information, 
USAad will place an ad in the pre-set banner space on the sporting 
goods site's home page. The ad will appear as an integral part of the 
page. If an USAad cookie is not already present on Joe's computer, 
USAad will place a cookie with a unique identifier on Joe's hard drive. 
Unless he has set his browser to notify him before accepting cookies, 
Joe has no way to know that a cookie is being placed on his 
computer.\26\ When Joe clicks on the page for golf bags, the URL 
address of that page, which discloses its content, is also transmitted 
to USAad by its cookie.
    When Joe leaves the sporting goods site and goes to the travel 
site, also serviced by USAad, a similar process occurs. The HTML source 
code for the travel site will contain an invisible link to USAad that 
requests delivery of an ad as part of the travel site's page. Because 
the request reveals that the referring site is travel related, USAad 
sends an advertisement for rental cars. USAad will also know the 
identification number of its cookie on Joe's machine. As Joe moves 
around the travel site, USAad checks his cookie and modifies the 
profile associated with it, adding elements based on Joe's activities. 
When Joe enters a search for ``Hawaii,'' his search term is transmitted 
to USAad through the URL used by the travel site to locate the 
information Joe wants and the search term is associated with the other 
data collected by the cookie on Joe's machine. USAad will also record 
what advertisements it has shown Joe and whether he has clicked on 
them.
    This process is repeated when Joe goes to the online bookstore. 
Because USAad serves banner ads on this site as well, it will recognize 
Joe by his cookie identification number. USAad can track what books Joe 
looks at, even though he does not buy anything. The fact that Joe 
browsed for books about golf courses around the world is added to his 
profile.
    Based on Joe's activities, USAad infers that Joe is a golfer, that 
he is interested in traveling to Hawaii someday, and that he might be 
interested in a golf vacation. Thus, a week later, when Joe goes to his 
favorite online news site, also served by USAad, the cookie on his 
computer is recognized and he is presented with an ad for golf vacation 
packages in Hawaii. The ad grabs his attention and appeals to his 
interests, so he clicks on it.

III. Profiling Benefits and Privacy Concerns

A. Benefits
    Cookies are used for many purposes other than profiling by third-
party advertisers, many of which significantly benefit consumers. For 
example, Web sites often ask for user names and passwords when 
purchases are made or before certain kinds of content are provided. 
Cookies can store these names and passwords so that consumers do not 
need to sign in each time they visit the site. In addition, many sites 
allow consumers to set items aside in an electronic shopping cart while 
they decide whether or not to purchase them; cookies allow a Web site 
to remember what is in a consumer's shopping cart from prior visits. 
Cookies also can be used by Web sites to offer personalized home pages 
or other customized content with local news and weather, favorite stock 
quotes, and other material of interest to individual consumers. 
Individual online merchants can use cookies to track consumers' 
purchases in order to offer recommendations about new products or sales 
that may be of interest to their established customers. Finally, by 
enabling businesses to monitor traffic on their Web sites, cookies 
allow businesses to constantly revise the design and layout of their 
sites to make them more interesting and efficient.\27\
    Network advertisers' use of cookies and other technologies to 
create targeted marketing programs also benefits both consumers and 
businesses. As noted by commenters at the Public Workshop, targeted 
advertising allows customers to receive offers and information about 
goods and services in which they are actually interested.\28\ Targeted 
advertising can also improve a consumer's Web experience simply by 
ensuring that she is not repeatedly bombarded by the same ads.\29\ 
Businesses clearly benefit as well from the ability to target 
advertising because they avoid wasting advertising dollars marketing 
themselves to consumers who have no interest in their products.\30\
    Additionally, a number of commenters stated that targeted 
advertising helps to subsidize free content on the Internet. By making 
advertising more effective, profiling allows Web sites to charge more 
for advertising. This advertising revenue helps to subsidize their 
operations, making it possible to offer free content rather than 
charging fees for access.\31\
    Finally, one commenter suggested that profiles can also be used to 
create new products and services. First, entrepreneurs could use 
consumer profiles to identify and assess the demand for particular 
products or services. Second, targeted advertising could help small 
companies to more effectively break into the market by advertising only 
to consumers who have an interest in their products or services.\32\
    In sum, targeted advertising can provide numerous benefits to both 
business and consumers.

B. Concerns
    Despite the benefits of targeted advertising, there is widespread 
concern about current profiling practices.\33\ Many commenters at the 
Workshop objected to network advertisers' hidden monitoring of 
consumers and collection of extensive personal data without consumers' 
knowledge or consent; they also noted that network advertisers offer 
consumers few, if any, choices about the use and dissemination of their 
individual information obtained in this manner. As one of the 
commenters put it, current profiling practices ``undermine[] 
individuals' expectations of privacy by fundamentally changing the Web 
experience from one where consumers can browse and seek out information 
anonymously, to one where an individual's every move is recorded.'' 
\34\
    The most consistent and significant concern expressed about 
profiling is that it is conducted without consumers' knowledge.\35\ The 
presence and identity of a network advertiser on a particular site, the 
placement of a cookie on the consumer's computer, the tracking of the 
consumer's movements, and the targeting of ads are simply invisible in 
most cases. This is true because, as a practical matter, there are only 
two ways for consumers to find out about profiling at a particular site 
before it occurs.\36\ The first is for Web sites that use the services 
of network advertisers to disclose that fact in their privacy policies. 
Unfortunately, this does not typically occur. As the Commission's 
recent privacy survey discovered, although 57% of a random sample of 
the busiest Web sites allowed third parties to place cookies, only 22% 
of those sites mentioned third-party cookies or data collection in 
their privacy policies; of the top 100 sites on the Web, 78% allowed 
third-party cookie placement, but only 51% of those sites disclosed 
that fact.\37\ The second way for consumers to detect profiling is to 
configure their browsers to notify them before accepting cookies.\38\ 
One recent survey indicates, however, that only 40% of computer users 
have even heard of cookies and, of those, only 75% have a basic 
understanding of what they are.\39\
    The second most persistent concern expressed by commenters was the 
extensive and sustained scope of the monitoring that occurs. 
Unbeknownst to most consumers, advertising networks monitor individuals 
across a multitude of seemingly unrelated Web sites and over an 
indefinite period of time. The result is a profile far more 
comprehensive than any individual Web site could gather. Although much 
of the information that goes into a profile is fairly innocuous when 
viewed in isolation, the cumulation over time of vast numbers of 
seemingly minor details about an individual produces a portrait that is 
quite comprehensive and, to many, inherently intrusive.\40\
    For many of those who expressed concerns about profiling, the 
privacy implications of profiling are not ameliorated in cases where 
the profile contains no personally identifiable information.\41\ First, 
these commenters felt that the comprehensive nature of the profiles and 
the technology used to create them make it reasonably easy to associate 
previously anonymous profiles with particular individuals.\42\ This 
means that anyone who obtains access to ostensibly anonymous data--
either by purchasing the data or hacking into it--might be able to mine 
the data and link it to identifiable individuals. Second, commenters 
feared that companies could unilaterally change their operating 
procedures and begin associating personally identifiable information 
with non-personally identifiable data previously collected.\43\ Third, 
commenters noted that, regardless of whether they contain personally 
identifiable information, profiles are used to make decisions about the 
information individuals see and the offers they receive. These 
commenters expressed concern that companies could use profiles to 
determine the prices and terms upon which goods and services, including 
important services like life insurance, are offered to individuals (for 
example, products might be offered at higher prices to consumers whose 
profiles indicate that they are wealthy, or insurance might be offered 
at higher prices to consumers whose profiles indicate possible health 
risks).\44\ This practice, known as ``weblining,'' raises many of the 
same concerns that ``redlining'' and ``reverse redlining'' do in 
offline financial markets.\45\
    Another concern expressed by commenters is that, as consumers begin 
to learn more about companies' monitoring activities, fear of online 
monitoring will discourage valuable uses of the Internet that are 
fostered by its perceived anonymity. As one commenter noted:

        The anonymity that the Internet affords individuals has made it 
        an incredible resource for those seeking out information. 
        Particularly where the information sought is on controversial 
        topics such as sex, sexuality, or health issues such as HIV, 
        depression, and abortion; [sic] the ability to access 
        information without risking identification has been 
        critical.\46\

Indeed, in support of this point, this commenter cites studies that it 
believes suggest that, in both the online and offline world, the 
perceived anonymity of computer research facilitates access to these 
kinds of sensitive information.\47\ By chilling use of the Internet for 
such inquiries, several commenters asserted, profiling may ultimately 
prevent access to important kinds of information.\48\
    Finally, some commenters expressed the opinion that targeted 
advertising is inherently unfair and deceptive. They argued that 
targeted advertising is manipulative and preys on consumers' weaknesses 
to create consumer demand that otherwise would not exist, and that, as 
a result, targeted advertising undermines consumers' autonomy.\49\
    Recent consumer surveys indicate that consumers are troubled by the 
monitoring of their online activities. First, as a general matter, 
surveys consistently show that Americans are worried about online 
privacy. Ninety-two percent say they are concerned about threats to 
their personal privacy when they use the Internet and seventy-two 
percent say they are very concerned.\50\ Eighty percent of Americans 
believe that consumers have lost all control over how personal 
information is collected and used by companies.\51\
    In particular, surveys show that consumers are not comfortable with 
profiling. A Business Week survey conducted in March of this year found 
that 89% of consumers are not comfortable having their browsing habits 
and shopping patterns merged into a profile that is linked to their 
real name and identity.\52\ If that profile also includes additional 
personal information such as income, driver's license, credit data and 
medical status, 95% of consumers express discomfort.\53\ Consistent 
with the comments received in connection with the Public Workshop, 
consumers are also opposed to profiling even when data are not 
personally identifiable: sixty-three percent of consumers say they are 
not comfortable having their online movements tracked even if the data 
is not linked to their name or real-world identity.\54\ An overwhelming 
91% of consumers say that they are not comfortable with Web sites 
sharing information so that they can be tracked across multiple Web 
sites.\55\
    Many consumers indicate that their concerns about the collection of 
personal information for online profiling would be diminished if they 
were given clear notice of what data would be collected about them and 
what it would be used for, and were given a choice to opt-out of data 
collection or of particular uses of their personal data. A recent 
survey by Privacy & American Business explained to Internet users that, 
in order to offer consumers personalized advertising, companies would 
need information about the consumer.\56\ Internet users were then asked 
about their willingness to provide that information by: (1) describing 
their interests; (2) allowing the use of information on their Web site 
visits; (3) allowing the use of information on their Internet 
purchases; (4) allowing the use of information on their offline 
purchases; and (5) allowing the combination of online and offline 
purchasing information. When told that the company providing tailored 
ads would spell out how they would use the consumer's information and 
the consumer would be given a chance to opt-out of any uses that he did 
not approve, a majority of consumers indicated willingness to provide 
personal information. With notice and choice, 68% were willing to 
describe their interests; 58% were willing to allow site visit data to 
be used; 51% were willing to allow use of online purchasing 
information; 53% were willing to allow use of offline purchasing data; 
and 52% were willing to allow the use of combined online and offline 
purchasing information.\57\
    Although this survey indicates that, with appropriate notice and 
choice, many consumers would be willing to allow companies to use their 
personal information in order to deliver advertising targeted to the 
consumer's individual needs and interests, the statistics also 
demonstrate that many consumers are not willing to allow this kind of 
profiling regardless of whether notice and choice are given. A 
substantial minority of Internet users--between 32% and 49%--indicated 
that they would not be willing to participate in personalization 
programs even if they were told what would be done with their 
information and were given the choice to opt-out of uses that they did 
not approve.\58\
    Internet users are also overwhelmingly opposed to the wholesale 
dissemination of their personal information. Ninety-two percent say 
that they are not comfortable with Web sites sharing their personal 
information with other organizations and 93% are uncomfortable with 
their information being sold.\59\ Eighty-eight percent of consumers say 
they would like a Web site to ask their permission every time it wants 
to share their personal information with others.\60\
    Ultimately, consumers' privacy concerns are businesses' concerns; 
the electronic marketplace will not reach its full potential unless 
consumers become more comfortable browsing and purchasing online. That 
comfort is unlikely to come unless consumers are confident (1) that 
they are notified at the time and place information is collected who is 
collecting information about them, what information is being collected, 
and how it will be used and (2) that they can choose whether their 
personal information is gathered, how it is used, and to whom it is 
disseminated.\61\

IV. The FTC'S Role in Addressing Online Privacy Issues and Self-
        Regulation

A. Legal Authority
    The FTC's mission is to promote the efficient functioning of the 
marketplace by protecting consumers from unfair or deceptive acts or 
practices and to increase consumer choice by promoting vigorous 
competition. The Commission's primary legislative mandate is to enforce 
the Federal Trade Commission Act (``FTCA''), which prohibits unfair 
methods of competition and unfair or deceptive acts or practices in or 
affecting commerce.\62\ With the exception of certain industries and 
activities, the FTCA provides the Commission with broad investigative 
and law enforcement authority over entities engaged in or whose 
business affects commerce.\63\ Commerce on the Internet falls within 
the scope of this statutory mandate.

B. Online Privacy
    As noted in Section III.B., the online collection and use of 
consumers' information, including the tracking of individual browsing 
habits, raise significant concerns for many consumers. These concerns 
are not new; since 1997, surveys have consistently demonstrated 
consumer unease with data collection practices in the online 
marketplace.\64\ The Commission has responded to these concerns with a 
series of workshops and reports focusing on a variety of privacy 
issues, including the collection of personal information from children, 
self-regulatory efforts and technological developments to enhance 
consumer privacy, consumer and business education efforts, and the role 
of government in protecting online privacy.\65\ The Commission's 
longstanding goal has been to understand this new marketplace and its 
information practices and to assess its cost and beneficial effects. It 
has also used its law enforcement authority to challenge Web sites with 
deceptive privacy policy statements.\66\
    In its 1998 report, Privacy Online: A Report to Congress, the 
Commission summarized widely-accepted principles regarding the 
collection, use, and dissemination of personal information.\67\ These 
fair information practice principles, which predate the online medium, 
have been recognized and developed by government agencies in the United 
States, Canada, and Europe since 1973, when the United States 
Department of Health, Education, and Welfare released its seminal 
report on privacy protections in the age of data collection, Records, 
Computers, and the Rights of Citizens.\68\ The 1998 Report identified 
the core principles of privacy protection common to the government 
reports, guidelines, and model codes that had emerged as of that time:

        (1) Notice--data collectors must disclose their information 
        practices before collecting personal information from 
        consumers;\69\

        (2) Choice--consumers must be given options with respect to 
        whether and how personal information collected from them may be 
        used for purposes beyond those for which the information was 
        provided;\70\

        (3) Access--consumers should be able to view and contest the 
        accuracy and completeness of data collected about them;\71\ and

        (4) Security--data collectors must take reasonable steps to 
        assure that information collected from consumers is accurate 
        and secure from unauthorized use.\72\

    It also identified Enforcement--the use of a reliable mechanism to 
impose sanctions for noncompliance with these fair information 
practices--as a critical ingredient in any governmental or self-
regulatory program to ensure privacy online.\73\
    The 1998 Report assessed the information practices of commercial 
Web sites and the existing self-regulatory efforts in light of these 
fair information practice principles and concluded that an effective 
self-regulatory system had not yet taken hold.\74\ The Commission 
deferred judgment on the need for legislation to protect the online 
privacy of consumers generally, and instead urged industry to focus on 
the development of broad-based and effective self-regulatory 
programs.\75\ One year later, the Commission issued a second report, 
Self-Regulation and Online Privacy: A Report to Congress (``1999 
Report'').\76\ In the 1999 Report, a majority of the Commission again 
recommended that self-regulation be given more time, but called for 
further industry efforts to implement the fair information 
practices.\77\ The Commission also outlined plans for future Commission 
actions to encourage greater implementation of online privacy 
protections, including the public workshop on online profiling.\78\ In 
its 2000 Report, a majority of the Commission concluded that, despite 
its significant work in developing self-regulatory initiatives, 
industry efforts alone have been insufficient. Thus, the majority 
recommended that Congress enact legislation to ensure consumer privacy 
online.\79\

C. Online Profiling and Self Regulation: the NAI Effort
    The November 8th workshop provided an opportunity for consumer 
advocates, government, and industry members not only to educate the 
public about the practice of online profiling, but to explore self-
regulation as a means of addressing the privacy concerns raised by this 
practice. In the Spring of 1999, in anticipation of the Workshop, 
network advertising companies were invited to meet with FTC and 
Department of Commerce staff to discuss their business practices and 
the possibility of self-regulation. As a result, industry members 
announced at the Workshop the formation of the Network Advertising 
Initiative (NAI), an organization comprised of the leading Internet 
Network Advertisers--24/7 Media, AdForce, AdKnowledge, Avenue A, Burst! 
Media, DoubleClick, Engage, and MatchLogic--to develop a framework for 
self-regulation of the online profiling industry.
    In announcing their intention to implement a self-regulatory 
scheme, the NAI companies acknowledged that they face unique challenges 
as a result of their indirect and invisible relationship with consumers 
as they surf the Internet. The companies also discussed the fundamental 
question of how fair information practices, including choice, should be 
applied to the collection and use of data that is unique to a consumer 
but is not necessarily personally identifiable, such as clickstream 
data generated by the user's browsing activities and tied only to a 
cookie identification number.\80\
    Following the workshop, the NAI companies submitted working drafts 
of self-regulatory principles for consideration by FTC and Department 
of Commerce staff. Although efforts have been made to reach a consensus 
on basic standards for applying fair information practices to the 
business model used by the network advertisers, this process is not yet 
complete. The Commission will supplement this report with specific 
recommendations to Congress after it has an opportunity to fully 
consider the self-regulatory proposals and how they interrelate with 
the Commission's previous views and recommendations in the online 
privacy area.

IV. Conclusion
    The Commission is committed to the goal of ensuring privacy online 
for consumers and will continue working to address the unique issues 
presented by online profiling.

Endnotes
    1. A transcript of the Workshop is available at <http://
www.ftc.gov/bcp/profiling/index.htm> and will be cited as ``Tr. [page], 
[speaker].'' Public comments received in connection with the Workshop 
can be viewed on the Federal Trade Commission's Web site at <http://
www.ftc.gov/bcp/profiling/comments/index.html> and will be cited as 
``Comments of [organization or name] at [page].''
    2. See FTC and Commerce Dept. to Hold Public Workshop on Online 
Profiling, <http://www.ftc.gov/opa/1999/9909/profiling.htm>.
    3. See 64 Fed. Reg. 50813, 50814 (1999) (also available at <http://
www.ftc.gov/os/1999/9909/FRN990915.htm>).
    4. Not all profiles are constructed by network advertising 
companies (also known as online profilers). Some Web sites create 
profiles of their own customers based on their interactions. Other 
companies create profiles as part of a service--for example, offering 
discounts on products of interest to consumers or providing references 
to useful Web sites on the same topic as those already visited by the 
consumer. See, e.g., Megan Barnett, The Profilers: Invisible Friends, 
The Industry Standard, Mar. 13, 2000, at 220; Ben Hammer, Bargain 
Hunting, The Industry Standard, Mar.13, 2000, at 232. These profiles 
are generally created by companies that have a known, direct 
relationship with the consumer, unlike third-party network advertising 
companies, and are beyond the scope of this report.
    5. See Federal Trade Commission, Privacy Online: A Report to 
Congress (1998) [hereinafter ``1998 Report''] at 3. The Report is 
available on the Commission's Web site at <http://www.ftc.gov/reports/
privacy3/index.htm>.
    6. See Internet Advertising Bureau, Internet Advertising Revenues 
Soar to $4.6 billion in 1999 (available at <http://www.iab.net/news/
content/revenues.html>).
    7. See Jupiter Communications, Inc., Online Advertising Through 
2003 (July 1999) (summary available at <http://
www.jupitercommunications.com>).
    8. In 1999, 56% of all online advertising revenue was attributable 
to banner advertising. See Internet Advertising Bureau, Internet 
Advertising Revenues Soar to $4.6 billion in 1999 (available at <http:/
/www.iab.net/news/content/revenues.html>).
    9. DoubleClick, the largest network advertising company, estimates 
that it serves an average of 1.5 billion ads each day, for an average 
of approximately 45 billion ads per month. The next largest network 
advertisers, Engage and 24/7 Media, serve approximately 8.6 billion 
ads/month and 3.3 billion ads/month respectively. See DoubleClick DART 
Now Serving on Average 1.5 Billion Ads Per Day, <http://
www.doubleclick.com/company_info/press_kit/pr.00.22.24.htm>; Engage 
Reports Strong Growth in Key Metrics for Fiscal 2000 Second Quarter, 
<http://www.engage.com/press/releases/2qfiscal.htm>; 24/7 Media, Inc., 
<http://www.247media.com/index2.html>.
    10. See, e.g., <http://www.doubleclick.com/company_info>; <http://
www.engage.com/press/releases/2qfiscal.htm>; <http://www.247media.com/
advertise/index.html>.
    11. A cookie is a small text file placed on a consumer's computer 
hard drive by a Web server. The cookie transmits information back to 
the server that placed it and, in general, can be read only by that 
server. For more information on cookies, see, e.g., <http://
www.cookiecentral.com>.
    12. ``Web bugs'' are also known as ``clear GIFs'' or ``1-by-1 
GIFs.'' Web bugs are tiny graphic image files embedded in a Web page, 
generally the same color as the background on which they are displayed 
which are invisible to the naked eye. The Web bug sends back to its 
home server (which can belong to the host site, a network advertiser or 
some other third party): the IP (Internet Protocol) address of the 
computer that downloaded the page on which the bug appears; the URL 
(Uniform Resource Locator) of the page on which the Web bug appears; 
the URL of the Web bug image; the time the page containing the Web bug 
was viewed; the type of browser that fetched the Web bug; and the 
identification number of any cookie on the consumer's computer 
previously placed by that server. Web bugs can be detected only by 
looking at the source code of a Web page and searching in the code for 
1-by-1 IMG tags that load images from a server different than the rest 
of the Web page. At least one expert claims that, in addition to 
disclosing who visits the particular Web page or reads the particular 
e-mail in which the bug has been placed, in some circumstances, Web 
bugs can also be used to place a cookie on a computer or to synchronize 
a particular e-mail address with a cookie identification number, making 
an otherwise anonymous profile personally identifiable. See generally 
Comments of Richard M. Smith; see also Big Browser is Watching You!, 
Consumer Reports, May 2000, at 46; USA Today, A new wrinkle in surfing 
the Net: Dot-coms' mighty dotsize bugs track your every move, Mar. 21, 
2000 (available at <http://www.usatoday.com/life/cyber/tech/
cth582.htm>).
    13. When a consumer requests additional information about a product 
or service by clicking on a banner ad, she has ``clicked through'' the 
advertisement.
    14. Personally identifiable data is data that can be linked to 
specific individuals and includes, but is not limited to such 
information as name, postal address, phone number, e-mail address, 
social security number, and driver's license number.
    15. A previously anonymous profile can also be linked to personally 
identifiable information in other ways. For example, a network 
advertising company could operate its own Web site at which consumers 
are asked to provide personal information. When consumers do so, their 
personal information could be linked to the identification number of 
the cookie placed on their computer by that company, thereby making all 
of the data collected through that cookie personally identifiable.
    16. ``URL'' stands for Uniform Resource Locator.
    17. This kind of data transmission occurs when Web sites use the 
``GET'' (as opposed to ``POST'') method of processing data. See, e.g., 
Janlori Goldman, Zoe Hudson, and Richard M. Smith, California 
HealthCare Foundation, Privacy: Report on the Privacy Policies and 
Practices of Health Web Sites (Jan. 2000). It is not presently clear 
how personally identifiable information sent to network advertisers in 
a URL string as the result of ``GET'' technology is recognized, stored, 
or utilized.
    18. Psychographic data links objective demographic characteristics 
like age and gender with more abstract characteristics related to 
ideas, opinions and interests. Data mining specialists analyze 
demographic, media, survey, purchasing and psychographic data to 
determine the exact groups that are most likely to buy specific 
products and services. See Comments of the Center for Democracy and 
Technology (CDT) at 5 n.5. Psychographic profiling is also referred to 
in the industry as ``behavioral profiling.''
    19. For example, the Web site for Engage states repeatedly that its 
profiles contain 800 ``interest categories.'' See, e.g., <http://
www.engage.com/press/releases/2qfiscal.htm>.
    20. DoubleClick has approximately 100 million consumer profiles, 
see Heather Green, Privacy: Outrage on the Web, Business Week, Feb 14, 
2000, at 38; Engage has 52 million consumer profiles, see <http://
www.engage.com/press/releases/2qfiscal.htm>; and 24/7 Media has 60 
million profiles, see <http://www.247media.com/connect/adv_pub.html>.
    21. Most Internet browsers can be configured to notify users that a 
cookie is being sent to their computer and to give users the option of 
rejecting the cookie. The browsers' default setting, however, is to 
permit placement of cookies without any notification.
    22. For example, Netscape's Navigator or Microsoft's Internet 
Explorer.
    23. For example, Windows.
    24. Hypertext Transfer Protocol (the protocol for communication 
between Web browsers and Web servers).
    25. Hypertext Markup Language (the code/language in which most Web 
content is created).
    26. Because many sites require users to accept cookies in order to 
view their content, or make multiple attempts to place cookies before 
displaying content, the notification process may unacceptably frustrate 
consumers' ability to surf the Web efficiently.
    27. The privacy issues raised by these uses of cookies are beyond 
the scope of this report. Data reflecting the use of cookies are 
reported in the FTC's recent report Privacy Online: Fair Information 
Practices in the Electronic Marketplace (May 2000) [hereinafter ``2000 
Report''], available at <http://www.ftc.gov/reports/privacy2000/
privacy2000.pdf> The Commission's vote to issue the 2000 Report was 3-
2, with Commissioner Swindle dissenting and Commissioner Leary 
concurring in part and dissenting in part.
    28. See, e.g., Comments of the Magazine Publishers of America (MPA) 
at 1; Comments of the Direct Marketing Association (DMA) at 2; Comments 
of the Association of National Advertisers (ANA) at 2; Tr. 30, Smith; 
Tr. 120, Jaffe.
    29. See, e.g., Comments of the Magazine Publishers of America (MPA) 
at 1.
    30. See, e.g., Comments of the Association of National Advertisers 
(ANA) at 2.
    31. See, e.g., Comments of the Magazine Publishers of America (MPA) 
at 1; Comments of Solveig Singleton at 3-4; Tr. 20, Jaye; Tr. 124, 
Aronson.
    32. See Comments of Solveig Singleton at 4-5.
    33. Survey data is an important component in the Commission's 
evaluation of consumer concerns, as is actual consumer behavior. 
Nonetheless, the Commission recognizes that the interpretation of 
survey results is complex and must be undertaken with care.
    34. See Comments of the Center for Democracy and Technology (CDT) 
at 3.
    35. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2, 16; Reply Comments of the Electronic Information Privacy 
Center (EPIC) at 1; Comments of TRUSTe at 2; Tr. 113, Mulligan.
    36. It is possible for consumers to learn about profiling after the 
fact by examining the cookie files on their hard drive; the text of a 
cookie will disclose the server that placed the cookie. Consumers can 
also delete the cookie files stored on their computers. Deletion will 
not erase any information stored by a network advertising company, but 
it will prevent future Web activity from being associated with past 
activity through the identification number of the deleted cookie.
    37. For purposes of the FTC's survey, third parties were defined as 
any domain other than the one survey participants were currently 
visiting, but the majority of the third-party cookies were in fact from 
network advertising companies that engage in profiling. The full 
results of the FTC study, as well as a description of its methodology, 
were released in the Commission's 2000 Report.
    38. Even for consumers who are aware of cookies, it is often 
difficult to discern how to change a browser's settings in order to 
receive notification of cookies. For example, in Netscape Navigator, a 
user must click on the ``Edit'' menu and select ``Preferences'' from 
the dropdown menu; select ``Advanced'' under the listing of categories; 
and click on a check-off box to activate the notification feature. In 
Internet Explorer 5.0, the user must click on the ``Tools'' menu and 
select ``Internet Options'' from the dropdown menu; click on the tab 
for ``Security'' options; click on ``Custom Level''; then scroll down 
to the choices for cookies and select ``Prompt.''
    39. See Business Week Online, Business Week/Harris Poll: A Growing 
Threat, www.businessweek.com/2000/00_12/b3673010.htm (March 20, 2000) 
[hereinafter ``Business Week/Harris Poll''].
    40. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2; Reply Comments of Electronic Information Privacy Center 
(EPIC) at 1-2. One commenter also worried that the existence of 
detailed personal profiles may facilitate an increase in identity 
theft. See Rebuttal Comments of the Electronic Frontier Foundation 
(EFF) at 4.
    41. See, e.g., Comments of the Center for Democracy and Technology 
(CDT) at 2-3; Tr. 112, Steele; Tr. 128, Smith.
    42. See, e.g., Rebuttal Comments of the Electronic Frontier 
Foundation (EFF) at 2; Tr. 40-1, Catlett; Tr. 54, Smith; Tr. 62, 
Weitzner.
    43. See Comments of the Center for Democracy and Technology (CDT) 
at 2-3; Christopher K. Ridder (Nov. 30, 1999) at 6 (listing examples of 
sites whose privacy policies explicitly reserve the right of the site 
to change privacy policies without notice to the consumer); Tr. 158, 
Mulligan.
    44. See Comments of the Center for Democracy and Technology (CDT) 
at 3; Comments of the Electronic Frontier Foundation (EFF) Session II 
at 2; Rebuttal Comments of the Electronic Frontier Foundation (EFF) at 
4; Tr. 81, Feena; Tr. 114, Hill; Tr. 146-7, Steele; see also John 
Simons, The Coming Privacy Divide, The Standard, Feb. 21, 2000, <http:/
/www. thestandard.com/article/display/1,1153,10880,00.html>.
    45. See, e.g., Rebuttal Comments of the Electronic Frontier 
Foundation (EFF) at 4 (expressing concern about ``electronic 
redlining''); Tr. 81, Feena (describing technology's potential use for 
``redlining'' [sic]); Tr. 146-7, Steele (describing risk of 
``electronic redlining and price discrimination''); see also Marcia 
Stepanek, Weblining: Companies are using your personal data to limit 
your choices--and force you to pay more for products, Business Week 
Online, Apr. 3, 2000, <http://www.businessweek.com/2000/00_14/
b3675027.htm>. ``Redlining'' and ``reverse redlining'' are, 
respectively, the practice of some financial institutions to not extend 
credit or to offer less favorable credit terms to prospecitve borrowers 
in predominantly minority areas.
    46. Comments of the Center for Democracy and Technology (CDT) at 
19; see also Rebuttal Comments of the Electronic Frontier Foundation 
(EFF) at 4-5; Reply Comments of the Electronic Information Privacy 
Center (EPIC) at 2.
    47. See Comments of the Center for Democracy and Technology (CDT) 
at 19.
    48. See Comments of the Center for Democracy and Technology (CDT) 
at 19; Rebuttal Comments of the Electronic Frontier Foundation (EFF) at 
4-5; Reply Comments of the Electronic Information Privacy Center (EPIC) 
at 2.
    49. See, e.g., Comments of Robert Ellis Smith; Tr. 56-7, Catlett; 
Tr. 122, 148, Chester; Tr. 129-30, Smith.
    50. See Louis Harris & Assoc., IBM Multi-National Consumer Privacy 
Survey (1999) [hereinafter ``IBM Privacy Survey''], at 81.
    51. See IBM Privacy Survey, at 76.
    52. Business Week/Harris Poll.
    53. Business Week/Harris Poll.
    54. Business Week/Harris Poll.
    55. Business Week/Harris Poll.
    56. See Alan F. Westin, Privacy and American Business, Personalized 
Marketing and Privacy on the Internet: What Consumers Want (1999) 
[hereinafter ``Westin/PAB 1999''] at 8-9.
    57. Westin/PAB 1999 at 8-9.
    58. Westin/PAB 1999 at 11. Consumers also want access to and 
control over their personal information. Eighty-three percent of 
Internet users say that it is important that companies engaged in 
tailored advertising programs allow participants to see their 
individual profiles and remove items that they do not want included; 
seventy percent felt that this was absolutely vital or very important. 
Id. 
    59. Business Week/Harris Poll.
    60. Business Week/Harris Poll.
    61. There may be complicated issues regarding the consequences of 
choice, such as the extent to which consumers may exchange use of their 
data for benefits.
    62. See 15 U.S.C. Sec. 45(a).
    63. The Commission also has responsibility under 45 additional 
statutes governing specific industries and practices. These include, 
for example, the Truth in Lending Act, 15 U.S.C. Sec. Sec. 1601 et 
seq., which mandates disclosures of credit terms, and the Fair Credit 
Billing Act, 15 U.S.C. Sec. Sec. 1666 et seq., which provides for the 
correction of billing errors on credit accounts. The Commission also 
enforces over 30 rules governing specific industries and practices, 
e.g., the Used Car Rule, 16 C.F.R. Part 455, which requires used car 
dealers to disclose warranty terms via a window sticker; the Franchise 
Rule, 16 C.F.R. Part 436, which requires the provision of information 
to prospective franchisees; the Telemarketing Sales Rule, 16 C.F.R. 
Part 310, which defines and prohibits deceptive telemarketing practices 
and other abusive telemarketing practices; and the Children's Online 
Privacy Protection Rule, 16 C.F.R. Part 312.
    In addition, on May 12, 2000, the Commission issued a final rule 
implementing the privacy provisions of the Gramm-Leach-Bliley Act, 15 
U.S.C. Sec. Sec. 6801 et seq. The rule requires a wide range of 
financial institutions to provide notice to their customers about their 
privacy policies and practices. The rule also describes the conditions 
under which those financial institutions may disclose personal 
financial information about consumers to nonaffiliated third parties, 
and provides a method by which consumers can prevent financial 
institutions from sharing their personal financial information with 
nonaffiliated third parties by opting out of that disclosure, subject 
to certain exceptions. The rule is available on the Commission's Web 
site at <http://www.ftc.gov/os/2000/05/index.htm#12. See Privacy of 
Consumer Financial Information, to be codified at 16 C.F.R. pt. 313.
    The Commission does not, however, have criminal law enforcement 
authority. Further, under the FTCA, certain entities, such as banks, 
savings and loan associations, and common carriers, as well as the 
business of insurance, are wholly or partially exempt from Commission 
jurisdiction. See Section 5(a)(2) and (6)a of the FTC Act, 15 U.S.C. 
Sec. 45(a)(2) and 46(a). See also The McCarran-Ferguson Act, 15 U.S.C. 
Sec. 1012(b).
    64. See 1998 Report at 3.
    65. The Commission held its first public workshop on online privacy 
in April 1995. In a series of hearings held in October and November 
1995, the Commission examined the implications of globalization and 
technological innovation for competition issues and consumer protection 
issues, including privacy concerns. At a public workshop held in June 
1996, the Commission examined Web site practices in the collection, 
use, and transfer of consumers' personal information; self-regulatory 
efforts and technological developments to enhance consumer privacy; 
consumer and business education efforts; the role of government in 
protecting online information privacy; and special issues raised by the 
online collection and use of information from and about children. The 
Commission held a second workshop in June 1997 to explore issues raised 
by individual reference services, as well as issues relating to 
unsolicited commercial e-mail, online privacy generally, and children's 
online privacy.
    These efforts have served as a foundation for dialogue among 
members of the information industry and online business community, 
government representatives, privacy and consumer advocates, and experts 
in interactive technology. Further, the Commission and its staff have 
issued reports describing various privacy concerns in the electronic 
marketplace. See, e.g., Individual Reference Services: A Federal Trade 
Commission Report to Congress (1997); FTC Staff Report: Public Workshop 
on Consumer Privacy on the Global Information Infrastructure (1996) 
[``1996 Staff Report'']; FTC Staff Report: Anticipating the 21st 
Century: Consumer Protection Policy in the New High-Tech, Global 
Marketplace (1996); 1998 Report; Federal Trade Commission, Self-
Regulation and Online Privacy: A Report to Congress (1999) [hereinafter 
``1999 Report''].
    66. See ReverseAuction.com, Inc., Civil Action No. 000032 (D.D.C.) 
(Final Order, January 10, 2000) (available at <http://www.ftc.gov/opa/
2000/01/reverse4.htm>); Liberty Financial Cos., Docket No.C-3891 (Final 
Order, Aug. 12, 1999) (available at <http://www.ftc.gov/opa/1999/9905/
younginvestor.htm>); GeoCities, Docket No. C
        -3849 (Final Order, Feb. 5, 1999) (available at <http://
        www.ftc.gov/os/1999/9902/9823015d%26o.htm>).
    67. 1998 Report at 7-14. See also 1996 Staff Report at 8-12, 
available at <http://www.ftc.gov/reports/privacy/privacy1.htm> 
(summarizing participants' testimony on fair information practices).
    68. 1998 Report at 7-11. In addition to the HEW Report, the major 
reports setting forth the core fair information practice principles 
are: The U.S. Privacy Protection Study Commission, Personal Privacy in 
an Information Society (1977); Organization for Economic Cooperation 
and Development, OECD Guidelines on the Protection of Privacy and 
Transborder Flows of Personal Data (1980); U.S. Information 
Infrastructure Task Force, Information Policy Committee, Privacy 
Working Group, Privacy and the National Information Infrastructure: 
Principles for Providing and Using Personal Information (1995); U.S. 
Dept. of Commerce, Privacy and the NII: Safeguarding 
Telecommunications-Related Personal Information (1995); The European 
Union Directive on the Protection of Personal Data (1995); and the 
Canadian Standards Association, Model Code for the Protection of 
Personal Information: A National Standard of Canada (1996).
    69. 1998 Report at 7-8; see also 1999 Report at 3-4; 2000 Report at 
4.
    70. 1998 Report at 8-9; see also 1999 Report at 3-4; 2000 Report at 
4.
    71. 1998 Report at 9; see also 1999 Report at 3-4; 2000 Report at 
4.
    72. 1998 Report at 10; see also 1999 Report at 3-4; 2000 Report at 
4.
    73. 1998 Report at 10-11; see also 1999 Report at 3-4; 2000 Report 
at 4.
    74. See 1998 Report at 41. In addition, the Commission recommended 
that Congress adopt legislation setting forth standards for the online 
collection of personal information from children; and indeed, just four 
months after the 1998 Report was issued, Congress enacted the 
Children's Online Privacy Protection Act of 1998 (``COPPA''). On 
October 21, 1999, the Commission issued the Children's Online Privacy 
Protection Rule, which implements the Act's fair information practices 
standards for commercial Web sites directed to children under 13, or 
who knowingly collect personal information from children under 13. The 
Rule became effective on April 21, 2000.
    75. See 1998 Report at 41-42.
    76. See 1999 Report.
    77. The 1999 Report was issued by a vote of 3-1, with Commissioner 
Anthony concurring in part and dissenting in part.
    78. See 1999 Report at 13-14. Other actions contemplated by the 
Commission included the establishment of an advisory committee of 
industry representatives and privacy and consumer advocates to develop 
strategies to implement the fair information practices of access and 
security and to assess the costs and benefits of those strategies. The 
Advisory Committee on Online Access and Security was established in 
December 1999 and its final report was released as an appendix to the 
Commission's 2000 Report.
    79. See supra at n.27; 2000 Report at 34-38. The 2000 Report did 
not discuss and its legislative proposal does not address the unique 
issues raised by online profiling.
    80. Tr. 186, Jaye; Tr. 192-193, Zinman.
                                 ______
                                 
    Statement of Commissioner Orson Swindle Concurring in Part and 
      Dissenting in Part in Online Profiling: A Report to Congress
                            File No. P994809

    I concur in the issuance of ``Online Profiling: A Report to 
Congress,'' but I dissent from the use of consumer opinion surveys in 
the Report.
    Consumer opinion surveys like the ones used in the Report are often 
not reliable predictors of consumer behavior. For several reasons, and 
as this Report acknowledges in footnote 33, survey results should be 
examined with scrupulous care. Surveys are one-time snapshots of 
consumer opinion, are easily biased by design, and must be examined for 
methodological integrity.
    Ideally, consumer opinion surveys should complement, but not be a 
substitute for, empirical evidence of consumer behavior relating to 
privacy. Consumer opinion surveys should not serve as a substantive 
basis for policy decisions.

    The Chairman. Thank you very much and thank you for a very 
interesting, illuminating presentation.
    I would like to talk for a minute about these discussions 
you are having with the online advertisers. Is not a 
fundamental question here opt-in or opt-out?
    Ms. Bernstein. That would be a fundamental question and it 
could be--or there are those who would say that, depending on 
what the purpose is, it could be--one or the other, and it 
might depend on the type of information that is being 
collected.
    The Chairman. Would that not get a little complicated 
pretty quick?
    Ms. Bernstein. It could get very complicated. We hope not, 
because obviously it needs to be simple in order to be useful 
to consumers.
    The Chairman. Well, we conduct these hearings on the 
basis--on the premise--that there is no such thing as a dumb 
question, Okay?
    It seems to me that the decision made by the consumer as to 
whether they want out of one of those files is one thing. It is 
an entirely different scenario if these people have to come to 
me and say, we would like for you to give your positive, 
affirmative permission to use your information or track your 
habits.
    So is this not a fundamental question here?
    Ms. Bernstein. Yes, it is.
    The Chairman. Mr. Medine, you want to comment?
    Mr. Medine. Well, these discussions are trying to address 
this issue, but of course the discussions are under way, and 
obviously the Committee's views on what the proper balance is 
in this area would be extremely helpful in informing us as the 
discussions go forward as to whether consumers should be asked 
if they want to participate in this process or should simply be 
told of their ability to not participate in this process.
    The Chairman. Well, do you have a view on that, Ms. 
Bernstein?
    Ms. Bernstein. The Commission has not taken a position on 
that yet, as you know, Mr. Chairman. And in view of the fact 
that we are still engaged in trying to do two things--one is to 
see if we can complete an effective self-regulatory program--I 
think we would be, as David said, we could be of the view that 
in order for a cookie to be placed in the first instance an 
affirmative consent by a consumer would be useful. Principally, 
one wants to put the consumer in the position of being in 
control of how his information is used.
    The Chairman. Well, it just seems to me that the 
advertisers would argue strenuously for an opt-out option.
    Ms. Bernstein. They have and I am sure that they would 
continue to.
    The Chairman. What we just saw is relatively innocuous. I 
believe that--I hope that every American would know of a 
golfing vacation package in Tucson.
    [Laughter.]
    Senator Bryan. And want to go there.
    The Chairman. Bypassing Nevada on the way.
    [Laughter.]
    Senator Bryan. And stopping there on the way back.
    Senator Wyden. But still finding their way to the Oregon 
coast.
    Ms. Bernstein. We will try to accommodate every Senator on 
this Committee.
    The Chairman. Let us hear from you or Mr. Medine about the 
less attractive aspects of this. Your presentation is 
excellent, but, frankly, if that was the only problem we have 
here, I do not think we would be having these hearings. Let us 
talk about the really invasive, intrusive aspects of this kind 
of procedure.
    Ms. Bernstein. I will be happy to do that. One of the 
things that is clear from the presentation that we decided to 
use as an illustration is that so far the information is not 
personal. It is only connected to the consumer's computer. That 
is, it does not say John McCain asked for this information, but 
rather it is connected to John McCain's computer.
    That information, however, is capable of being combined 
with personal information about that person.
    The Chairman. For example?
    Ms. Bernstein. By use of another database or combining it 
with prior information, or sometimes the website itself.
    The Chairman. For example, what kind of personal 
information? How much money I have in a bank account, or my 
credit rating?
    Ms. Bernstein. Well, it could be your name, your address, 
perhaps your telephone number. From that information, sometimes 
more sensitive information can be obtained from another source. 
So there is the capability to put together a really very 
complete information profile about a consumer.
    The Chairman. Do you want to add to that, Mr. Medine?
    Mr. Medine. Yes. In addition to that, the consumer may 
visit a website that might reveal sensitive items, like certain 
health conditions or religious or political affiliations that 
might be linked to somebody's name. There is also the 
capability of making identifiable months or even years of web 
browsing that you had thought were anonymous that could then 
become identified to you. There have certainly been instances 
publicly where people have been associated with past browsing 
that has made them uncomfortable.
    There is also the issue of merging online and offline data 
as well. That is, you think your shopping online is one thing, 
your shopping offline or your habits offline are different, but 
to have them merged raises special concerns as well.
    So this is the most innocuous of non-personally 
identifiable information used to target a relatively simple ad. 
But clearly there is the capability of gathering personal and 
sensitive information through this process.
    Ms. Bernstein. That is really where the intrusiveness comes 
about and why so many people are expressing concerns about it. 
In addition, it is really secret. People do not know this is 
going on, and that I think is the most--most people react very 
negatively to the fact that there is----
    The Chairman. How do you let them know that it is going on?
    Ms. Bernstein. Well, you could let them know by various 
notices that could be either on the website or that would be 
required to be on website where it begins in the first 
instance, and then you could have a subsequent notice in the 
site itself so that the consumer knew that that was going on. 
But it would be fundamental notice that does not now occur.
    The Chairman. Could you have something that would flash 
that said ``Information is being transmitted concerning your 
visit to this website; do you object?''
    Ms. Bernstein. You could have that, certainly.
    The Chairman. Well, I guess that question is also something 
for the next panel.
    Finally, I guess if you could carry it to its extreme, for 
someone who is a very heavy user of the Internet, you could 
compile information which would over time give someone a 
dossier compiled of your political, religious, financial 
information--literally everything about your life. Is that your 
view, Mr. Medine?
    Mr. Medine. That is certainly a potential here when you are 
web browsing, which many people think of as being anonymous and 
they appreciate being anonymous so that they can freely move 
around, gather information, and it may no longer be anonymous 
if an identifiable cookie is placed on your computer.
    The Chairman. Finally, what is your degree of optimism 
about reaching some kind of a deal with the online advertising 
industry?
    Ms. Bernstein. We have had good talks with them and I think 
they are very anxious to put an effective self-regulatory 
program in place. As the Commission said in its earlier 
testimony, Mr. Chairman, the Commission did not view a self-
regulatory program in isolation, but rather expressed its view 
that the most effective program is a self-regulatory program 
that is supported or buttressed by a fundamental law that would 
support the program.
    I would say it is about--oh, we could flip a coin, but 
better than half and half. How is that?
    The Chairman. Well, let me just say that we obviously would 
like to see an agreement that is acceptable to one and all. You 
have heard views, strong views, expressed by both Senator Burns 
and Senator Wyden that legislation is necessary. So if you do 
reach an agreement, I think you are going to have a selling job 
at least with some members of the Committee as well as other 
members of Congress.
    I thank you for being here today.
    Senator Hollings.
    Senator Hollings. Well, Ms. Bernstein, we only said that 
legislation was necessary after five years of the Federal Trade 
Commission working on it. The FTC put out reports and reviews 
that suggested the voluntary approach was the proper approach. 
Having done that for over five years, Mr. Pitofsky, your 
Chairman, came here and testified that he thought that 
legislation was necessary. That is correct; is that not right?
    Ms. Bernstein. Yes, it is absolutely correct.
    Senator Hollings. I mean, do not have the Federal Trade 
Commission be a moving target. What we are trying to do is 
maintain the integrity of the Internet so that people can trust 
it. We are at the same starting line. We are going to have to 
have some kind of regulation, I take it, for those who make a 
business of collecting personally identifiable privacy 
information.
    Do you agree with me on that?
    Ms. Bernstein. Yes, I do agree with you.
    Senator Hollings. When we drew the bill, we looked at the 
recommendations in the five-year consideration of the Federal 
Trade Commission. We said that for anonymous information, like 
you are taking a census, we wouldn't talk about opting in 
there. We are only talking about opting out. If people are 
making a business out of this, then they can collect any kind 
of personal information on Senator McCain or me. Anybody in the 
audience can collect the information and know it and understand 
it.
    Once they start making a commercial enterprise or business 
out of the thing, then we say, now hold up, you owe a duty to 
the public. If we do not do that, then people are going to be 
fearful of using the Internet. The trust that we have and the 
participation that we have won't continue. We want to continue 
Internet participation.
    Now, only after five years did we really start with a bill. 
You toyed with it for five years and we see only the 
frustration, having toyed with it and not getting a voluntary 
response. You are not going to get advertisers. You have always 
got that group that won't be fair. I go to a class where the 
teacher grades on a curve and 95 percent of the students are 
honest and they study and they are ready to take the exam. The 
honest 95 percent finds out that 5 percent of the class has 
already stolen the exam. I say, wait a minute, I better get a 
copy of the exam, too.
    That sort of breaks the discipline and the voluntariness 
and everything. We have tried that for five years, and you are 
not going to get it voluntarily. You are going to have certain 
advertisers who are going to use every scheme there is to get 
around and make money out of it.
    Otherwise, we have got these states attorneys general all 
moving for different kinds of rules, regulations, and laws. We 
find that the longer we delay the greater the chaos and the 
greater the difficulty there is to legislate.
    When the Federal Trade Commission appeared before the 
Committee, we asked each one of the Commissioners to critique 
our bill. Do you know where they are on it? I am welcome to 
criticism. I do not get any award for a bill. People back in 
South Carolina could care less whether I put it in. They do not 
even know I am up here hardly. The state has gone Republican; I 
am having a hard time. The best thing I can do is tell them I 
am a friend of John McCain and we get along.
    [Laughter.]
    So I do not have to have a bill. But I can see and ten 
others have seen. We have tried to look at all the features, 
rather than hit and run driving politically. I have got a bill 
in on privacy, so tell them to study it further and hope they 
voluntarily respond.
    We are five years into the real study of it, and we have 
got the states all moving to laws. So it begs the question now 
that the federal government here in Washington move and get 
some orderly measure.
    So we do not discourage your moving with advertisers, but 
if we wait on that we will never get a law. We will never get 
what you finally say. Even if you got the voluntary agreement, 
you would still have to have a law for some kind of 
enforcement. Is that not correct?
    Ms. Bernstein. I believe that is correct.
    Senator Hollings. So we are going to pass some kind of law 
on privacy for those who are trying to make a business out of 
my identifiable personal information on the Internet.
    You have answered the question, you said 50-50. Well, that 
is a good answer, but----
    Ms. Bernstein. I think I said better than 50-50, so I am a 
little more optimistic than that.
    Senator Hollings. Yes, but I mean, we cannot wait. You have 
got to get 100 percent.
    Ms. Bernstein. Yes.
    Senator Hollings. When do you think you are going to get 
100 percent agreement?
    Ms. Bernstein. Well, we will either reach agreement or we 
will--the Commission has to review this, obviously, and we are 
still working at the staff level to see whether or not we have 
a program that we think we could recommend enthusiastically to 
the Commission. That should happen in a week or two.
    Senator Hollings. Now, you identified someone in the 
original instance as a ``guru.''
    Ms. Bernstein. Yes.
    Senator Hollings. What is his name?
    Ms. Bernstein. Her name----
    Senator Hollings. Her name, excuse me.
    Ms. Bernstein [continuing]. Is Dawne, Dawne Holz, and she 
is our technology guru who assisted us with putting this 
program together, more than assisted us, even came up with some 
of the names of sites and so forth so that we could do our 
presentation. She works with this.
    Senator Hollings. What we want to do here at the 
Congressional level is pass something that is realistic. Let me 
ask the guru, will you please take our bill and study it and 
criticize what is unrealistic, what is too burdensome, what is 
unenforceable? Any kind of criticism that you can give from 
your experience, we would appreciate here at the Committee 
level.
    Take that bill for me and criticize it so that we can 
correct it or not pass it or whatever it is, knock it out. I 
would appreciate it.
    Ms. Bernstein. Senator, each of the Commissioners I know is 
at work preparing their own views, as you have asked.
    Senator Hollings. But I want the guru.
    Ms. Bernstein. Yes. Well, the guru will----
    [Laughter.]
    Senator Hollings. I want the guru. You know, sometimes the 
Commissioners, they are political just like me. It is like sort 
of delivering lettuce by way of a rabbit. The guru's ideas do 
not come through. I want her ideas.
    Ms. Bernstein. You have it, sir. You will have it.
    Senator Hollings. Thank you very much. Thank you, Ms. 
Bernstein.
    The Chairman. Thank you, sir. Thank you for your kind 
words.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Bernstein, if an agreement is reached on online 
profiling, how could the profiling industry guarantee that all 
of the profiling companies are going to participate?
    Ms. Bernstein. They can guarantee it of all the companies 
are signatories to the agreement. That leaves open, of course, 
the issue of new entrants into the industry and whether they 
could be bound. That is always a difficulty when one is dealing 
with a self-regulatory program and it is probably one of the 
underlying reasons why in the past self-regulatory programs 
that have had an underlying legal structure have been the most 
effective ones, because then everyone is bound even if there is 
a new entrant.
    Senator Wyden. What is troubling to me, and I think it is 
what Senator Hollings is touching on, as well, is that you are 
not likely to bring into the system of oversight the people who 
most need to be monitored. I think my next question would be 
who would enforce an action against a company that was 
violating the agreement? Are profilers going to do this? Are 
they going to run their own enforcement program? Are 
advertising agencies, websites where banner ads are running 
going to enforce this? Who is going to enforce this?
    Ms. Bernstein. If they did not do what they have promised 
to do in an agreement, a final agreement, the FTC could. The 
FTC's underlying authority is to prevent deception and 
therefore we could bring an enforcement action if they failed 
to live up to their promises. So that is one method of 
enforcement.
    In addition, other groups have made arrangements for third 
parties to audit their compliance with agreements, and if those 
auditors turn up violations that could also be referred to the 
FTC, as others have done.
    Senator Wyden. So signatories can be brought before the 
Federal Trade Commission. But, again, the people, frankly, that 
I'm most concerned about are not the people who sit down and 
work with you on these kinds of pieces of legislation. They're 
the ones that operate in the shadows and certainly are engaged 
in some practices that are far more serious than the one we saw 
today involving golf.
    Now, you identified four core principles for personal data, 
that is what the FTC did, and that is why I tried to separate 
out personal data from profiling, which is the area we are 
looking at today. Now, with respect to personal data, the FTC 
said it is important to deal with notice, choice, access, and 
security.
    What arguments would there be for not applying these 
principles to data collected by online profilers?
    Ms. Bernstein. There is none. In fact, the Commission's 
report that was released today on online profile articulates 
those same four fundamental elements of fair information 
practices--notice, choice, access, and security--and 
enforcement.
    Senator Wyden. Now, you have been in the consumer 
protection field an awfully long time. I happen to think you 
give public service a good name because of the work that you 
have done in consumer protection. I think I would like you to 
outline whether there are any consumer laws now on the books 
that significantly limit what online profilers could do with 
respect to, say, medical and sensitive information?
    Ms. Bernstein. In regard to medical and sensitive----
    Senator Wyden. Let us just say, are there any laws on the 
books today that limit in a significant way what online 
profilers can do with important significant information?
    Ms. Bernstein. There are some, but they are not 
comprehensive and do not do what you are suggesting. But as you 
know, the recent Financial Modernization Act (Gramm-Leach-
Bliley) did provide some protections for consumers for the 
collection of financial information and, while we are not 
expert in it, there has been some legislation in connection 
with medical information that is being, I believe, worked in 
the regulatory process from the Health and Human Services. 
Those are the only ones that we know of.
    Senator Wyden. But it does not exist today, and I think 
that is the important point. I think both the questions asked 
by Chairman McCain and by Senator Hollings are extremely 
important. We all want to see the self-regulatory initiative 
succeed and, from the very beginning, I have said they ought to 
have a wide berth. But people who are not signatories to these 
voluntary agreements, based on what you have just told us, as 
of today those that are not and are not willing to try to 
subscribe to strong consumer protection standards can do any 
darn thing they want with respect to sensitive medical 
information and online profiling.
    I do not think that is right. I do want to give the private 
sector a wide berth, but I think we do need to have enough 
oversight and enough leverage on the part of government to be 
able to proceed against those who would exploit and rip off the 
citizens of this country with respect to sensitive medical 
information and other areas. I think that is why we ought to be 
trying on a bipartisan basis to put together a bill.
    Mr. Chairman, I thank you.
    The Chairman. Thank you.
    Senator Bryan.
    Senator Bryan. Thank you very much, Mr. Chairman.
    Ms. Bernstein, let me continue where Senator Wyden left 
off. Among those core values, notice it would seem to me is the 
most fundamental and basic right that a consumer would have, 
that is to be informed as to what is occurring with respect to 
his activity or her activity. Is there objection to 
establishing a legislative floor, to say at least there is a 
requirement that you must provide notice if you are collecting 
this kind of information? Is that something that is resisted by 
the industry?
    Ms. Bernstein. I do not believe so, and in fact the 
Commission's legislative proposal that was discussed before 
this Committee two weeks ago would require a website on which 
there would be a third party operating to disclose that to a 
consumer. So that was already contemplated in terms of the 
notice requirement that the Commission was recommending.
    Senator Bryan. I guess what I am saying, Ms. Bernstein, 
does the industry agree with that? I know that was the proposal 
that was advanced, but do they agree with that?
    Ms. Bernstein. Yes, they do.
    Senator Bryan. So we have an agreement that legislation 
that provides one of those core values, that is notice, would 
be appropriate?
    Ms. Bernstein. Yes.
    Senator Bryan. Okay, so at least we have crossed the 
Rubicon on that issue. What are the sanctions that attach to 
those companies that agree to a self-regulatory agreement if 
one of the parties violate the terms of the agreement, in 
general? Just do not do that again, or if you do that again we 
are going to really get pretty upset with you, kind of the 
Bobby Knight approach to regulation?
    Ms. Bernstein. No, we do not agree with the Bobby Knight 
approach. As I said before, the FTC has authority under its 
deception authority to proceed to bring an action that would 
force them to comply with the agreement and under some 
circumstances we could seek penalties, as you know.
    Senator Bryan. Would that be monetary fines of some kind, 
Ms. Bernstein or Mr. Medine?
    Mr. Medine. Well, there would be injunctions and possible 
consumer redress if we could establish actual injury, and 
certainly going forward actual fines or enforcement proceedings 
if they fail to comply with an FTC order.
    Senator Bryan. Just in general--you may have many options--
what would the maximum fine be? Suppose you have a signatory to 
the agreement who has a habit or practice of consistently 
violating the provision? This is not just, we goofed, we are 
sorry, we are not going to do that again. What would be the 
hammer that the FTC could bring down upon that violator?
    Ms. Bernstein. Well, under existing law the penalties are 
$11,000 a day per violation. So that could add up to a very 
significant amount of money.
    Senator Bryan. Indeed it could.
    Now, with respect to those who are not participants to the 
agreement, there are no penalties that would attach; am I 
correct?
    Ms. Bernstein. Under present circumstances, no. If they are 
not signatories, they would not be subject unless they took 
some other actions.
    Senator Bryan. Are there other actions covered in the law?
    Ms. Bernstein. Right.
    Senator Bryan. Do you have any idea as to what percentage 
of the universe out there would be willing to sign onto such a 
self-regulatory agreement?
    Ms. Bernstein. We have--there are about a dozen companies 
and we believe that that represents about 90 percent of the 
industry.
    Senator Bryan. So we would still have 10 percent that would 
be operating beyond the ambit of whatever agreement would be 
entered into?
    Ms. Bernstein. That is what we know at the present time, 
and it is an estimate, Senator.
    Senator Bryan. I appreciate that.
    Ms. Bernstein. But it may be that it is greater than that.
    Senator Bryan. Ms. Bernstein, you made the point that 
currently, in the example that was cited, this was not 
personally identifiable information.
    Ms. Bernstein. Right.
    Senator Bryan. You also made the point that it might be 
possible, in response to the Chairman's inquiry, to in effect 
combine a personally identifiable database with this and then 
really put a great deal of information in it. Is there 
currently any law that prohibits that?
    Ms. Bernstein. No, there is not.
    Senator Bryan. Let me be clear on that. So you are saying 
that tomorrow, at the end of this hearing, if a determination 
was made by any commercial website or one of these cookie 
companies or however we would characterize them, it would be 
possible for them to combine the personally identifiable 
database with the non-personally identifiable information that 
you provided there and that could be done without any violation 
of the law at all?
    Ms. Bernstein. That is correct, Senator.
    Senator Bryan. Now, is there objection by the industry to 
legislation that would say, you shall be prohibited from 
combining those two types of database?
    Ms. Bernstein. We have not discussed legislation with them, 
Senator. That really has not been a part of our discussions to 
date with them. Rather, we have been trying to work through a 
self-regulatory program----
    Senator Bryan. And I understand that. But would you not 
agree that we have agreement essentially that there ought to be 
a requirement in law of notice? Would it not be appropriate to 
have legislation that says, look, you cannot combine those two 
databases?
    Ms. Bernstein. I will not be representing the views of the 
Commission, so this makes it a little uncomfortable for me. And 
I am not sure you want my personal views, but my personal views 
are----
    Senator Bryan. What would your personal view be? You have 
done a great deal. We understand that for the record you have 
made the disclaimer that you are not speaking on behalf of the 
Commission.
    Ms. Bernstein. Right.
    Senator Bryan. And I am not trying to entrap you, Ms. 
Bernstein.
    Ms. Bernstein. I know you are not, sir.
    Senator Bryan. But you are a witness with considerable 
experience and a great deal of credibility, as my colleague 
from Oregon pointed out.
    Ms. Bernstein. It would seem to me that, unless there is at 
a minimum an opt-in by consumers, that is if a company is ever 
going to combine personal and non-personal information that the 
consumer would have the opportunity to have a very full 
disclosure of what was going to happen to them and a very firm 
opportunity to say yes or no to that. And that would be at a 
minimum.
    Senator Bryan. Now, is there any technical reason that one 
could not require an opt-in provision in terms of this whole 
profiling issue that we are talking about? Is there any 
technical reason, anything systematically that would prevent 
that?
    Ms. Bernstein. Not that I know of.
    Senator Bryan. And my friend from South Carolina's guru 
would agree with that statement, would she?
    Ms. Bernstein. Guru, you agree with that?
    Ms. Holz.
    [Nods affirmatively.]
    Ms. Bernstein. She agrees.
    Senator Bryan. Guru indicates that----
    Ms. Bernstein. Let the record show.
    Senator Bryan. Let the record reflect that the guru agrees 
with the witness.
    Mr. Medine. Hearing no objection.
    Senator Bryan. We thank the guru.
    Finally, if I may, because I know there are many others 
that want to comment on this, in terms of providing the 
greatest measure of protection to the consumer would not the 
opt-in, that is to say, look, before we are going to do this 
profiling we need your prior permission. Does that not provide 
the ultimate or best protection to the consumer?
    Ms. Bernstein. I believe most people would agree that that 
provides the greatest amount of protection or, put another way, 
it allows the consumer the greatest control over their own 
information; and that really is where the control should rest.
    Senator Bryan. By and large, we are talking about the 
consumer's personal information, activities, shopping habits, 
or otherwise, of the individual. I know every one of my 
colleagues fully understands that, but the opt-in requires the 
prior consent. That is, none of this activity could occur 
unless the consumer affirmatively agreed.
    Ms. Bernstein. That is correct.
    Senator Bryan. The opt-out permits the company to do so, 
notify the consumer, and then the consumer can say, stop, I do 
not want you to do that again; is that the essence of it?
    Ms. Bernstein. Well, an opt-out could be that they could 
not do it unless they gave the consumer notice of the 
opportunity to not have it done. So it is just a slight 
difference in the way I think you phrased it, Senator.
    Senator Bryan. So would that mean, in effect, that silence 
is acquiescence under what you have just said? In other words, 
the consumer is notified, but you do not require his or her 
affirmative consent, but if they take no action at all silence 
is acquiescence?
    Ms. Bernstein. Having given them the opportunity to opt 
out, yes.
    Senator Bryan. I appreciate that. Thank you very much to 
our witnesses and thank you very much, Mr. Chairman.
    The Chairman. Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    I do not know what ground my colleagues have covered here, 
but even though Senator Wyden and I have worked on a bill that 
principally is an opt-out type of an approach, which I think is 
the correct approach until somebody convinces me otherwise, I 
am still concerned about enforcement. How do we know who the 
bad actor is, or who takes unlawful information and either 
markets it or it pops up somewhere else, and then there is no 
paper trail or there is not anything to go back and see who 
really was the first to misuse it? Because once the information 
is out there in cyberspace, it just roams around out there and 
it becomes the property of the guy that has got the biggest net 
to catch it.
    What kind of--what do you recommend as an enforcement 
mechanism? How do we do that?
    Ms. Bernstein. Well, one of the things that has worked 
effectively in other areas we believe, Senator, is a third 
party audit or a third party firm that will on a systematic 
basis review what practices each of the sites are engaging in, 
sample it, and find out whether or not the protections are 
being provided.
    You can also have consumers who are surfing the net. They 
can also report, as they often do, to an enforcement mechanism 
or, in the case of a law, to the FTC. We have a very, very good 
way, I think, of collecting consumer complaints, and then a law 
enforcement action can be brought. But that requires, of 
course, what we have talked about previously, and that is 
either a system where they have not done what they promised to 
do in self-regulation or a legal structure that would permit 
that kind of enforcement.
    Senator Burns. Does that also pertain to the people who 
collect information on consumers through any other mode other 
than electronically? In other words, any place else than the 
Internet? Every time I buy something that says: 
congratulations, you bought this great new thing here, in order 
to get your warranty you have to send in this card, but you are 
going to answer some questions; what about those?
    Ms. Bernstein. In the sense of if they tell you something 
that is not true, represent something that is not true? That is 
against the law.
    Senator Burns. Even in the collection of this information 
and what they are going to do with it?
    Ms. Bernstein. If they tell you that they are not going to 
do with it what they are going to do with it, then it could be 
considered deceptive under the FTC Act.
    Senator Burns. What if there is no statement at all?
    Ms. Bernstein. Then it makes it very difficult for the FTC 
to proceed, because no statement has been made and there is not 
a specific requirement that it be made under existing law. That 
is why the Commission recommended legislation on general 
privacy two weeks ago.
    Senator Burns. You see, I am very supportive of some 
privacy legislation. I am very supportive of that. I just think 
that the consumer has that right. It is one of the American 
core values that we must protect, a person's own privacy. It 
gets even more sensitive whenever we start talking about 
financial arrangements and those kind of things, and also with 
medical records and some other privacy things that I do not 
think the public needs to know anything about.
    But I am still concerned about whether we are placing 
certain restrictions on those folks who are in the electronic 
business or the Internet business and not placing the same 
restrictions on the people who collect personal information 
even at grocery stores--and they make no statement on how that 
information is going to be used?
    Ms. Bernstein. Well, there are two things. First of all, 
there are some significant differences in the so-called e-
commerce marketplace, as you have already alluded to. It is 
faster, it is quicker, they have access to more information, 
and they can more quickly obtain that information, in a way 
that has not happened before.
    But most recently there has been increased public attention 
on just what you raise, and that is, is there a need to make 
sure that there is a level playing field across these various 
media so that the same protections consumers expect in the 
offline world would be provided in the online world and vice 
versa?
    Senator Burns. You see, I think I read a story, was it 
yesterday--and I have got such a fantastic memory, but it is 
short about the implementation of Senator Bryan's legislation 
with regard to child privacy on the act that we passed through 
here and which we were very supportive of. But yet they are 
still having problems on implementation and enforcement.
    That is the reason I ask those questions, because I think 
we can pass this thing and say we have done a good thing and 
then not revisit the situation later on. I think that would not 
serve the industry or the consumer very well.
    I thank the chairman.
    The Chairman. Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman.
    Ms. Bernstein, Mr. Medine is it? I am still struggling with 
the terminology. The terminology, I find, is fascinating about 
the Internet: mouse, web bugs, cookies, and spam--all found in 
every kitchen in America. What is your understanding of what a 
web bug is, Ms. Bernstein?
    Ms. Bernstein. My understanding of what a web bug is, it is 
a very tiny image that can be placed on a computer and indeed 
can be placed on a cookie itself and it cannot be detected 
visibly at all. It also collects information, not exactly the 
same way that a cookie does, which is a file, a little file of 
personal information.
    Do you want to add anything to that, guru?
    Ms. Holz. No.
    Ms. Bernstein. That is my understanding of what a web bug 
is. They are both used in different ways.
    Senator Cleland. Are you saying that a web bug can be put 
on someone's personal computer when they use the Internet and a 
cookie can be imposed on an Internet user without their 
knowledge?
    Ms. Bernstein. Yes.
    Mr. Medine. Web bugs are typically found on web pages and 
they are really hidden code on web pages that essentially sends 
a message back to a third party, typically a network 
advertiser, saying, does this consumer have a cookie--and 
reading the cookie if the consumer has one on their file--and 
if not, placing a cookie.
    But what's unique about web bugs is you do not see them and 
they may even appear on a page--unlike the pages that we showed 
earlier, there may not even be an advertisement on that page. 
You may not have any reason to suspect that a third party is in 
any way monitoring your web browsing.
    Senator Cleland. So as you browse you may leave cookies?
    Mr. Medine. The web bug can place cookies or read cookies, 
yes, even when you are unaware that that is going on.
    Senator Cleland. That is amazing. Spam, what is spam?
    Ms. Bernstein. Other than the pink meat that you get, spam 
is unsolicited----
    Mr. Medine. E-mail.
    Ms. Bernstein [continuing]. E-mail, unsolicited. It comes 
in over your e-mail.
    Senator Burns. It is like junk mail.
    Ms. Bernstein. Right, it is junk mail in every sense.
    Senator Burns. In your mail box.
    Senator Cleland. And the ultimate unwanted access is the 
Love Bug, right?
    Mr. Medine. Which is a virus.
    Senator Cleland. A virus.
    Ms. Bernstein. Right.
    Senator Cleland. Mouse, web bugs, cookies, spam, and 
virus--amazing terminology to apply to this new technology.
    Let me just say, Mr. Chairman, I think bringing the privacy 
rights of Internet users to the forefront of the Senate's 
attention is, quite frankly, critical. I think most people when 
they use the Internet think of it in many ways starting out, 
much like I would, using a telephone. A telephone is a direct 
line. You do not assume that it is a party line. You do not 
assume that there is somebody out there monitoring your call. 
You assume that what you say is in private between you and the 
hearer.
    I think most Americans would be shocked if they picked up a 
telephone, dialed a number, and found out later that their 
phone call was being monitored, their preferences were being 
tracked with a cookie, and that ultimately if they hung up all 
of a sudden they could get multiple phone calls back 
unsolicited. I think that would be relatively shocking to the 
average individual out there. But that is exactly, apparently, 
what is happening to Internet users. Is that correct?
    Ms. Bernstein. That is correct, and we agree that Americans 
are shocked by it to the extent that there is survey data that 
suggests that, when they know about it.
    Senator Cleland. Because it seems to me that, much like the 
privacy of a phone, if one goes to the Internet one goes to it 
with a sense of privacy. It is you and the computer, and you 
and the information, and usually not a whole bunch of people 
standing around. It is pretty much a private moment, shall we 
say. It is kind of deceptively private and personal. It is kind 
of deceiving.
    Now we find out that there is some deception out there. I 
am not sure, quite frankly, what role we have to play, but we 
are trying to find that out here.
    Thomas L. Friedman, who wrote the book ``Lexis in the Olive 
Tree: Understanding Globalization,'' says that maybe government 
is more needed rather than less. He said that government should 
be downsized, but it should be raised in quality, and said what 
we have to worry about is not so much government tapping your 
phone line or big brother, but little brother, somebody else 
out there.
    He says in the web world everybody is connected, but nobody 
is in charge. And one wonders what the role of the FCC is and 
what the roles of the Senate Commerce Committee and the Senate 
are in installing some sense of being in charge, some sense of 
rules, some sense of instituting or guaranteeing privacy.
    I think privacy is the currency of the Internet. If that is 
destroyed, I think people will not go to the Internet or be as 
open, or as frank, or as consuming of the Internet and its 
products as we would be comfortable in doing.
    Is that your sense?
    Ms. Bernstein. Yes, it is, Senator. In fact, you have hit 
on something that many have written about also, that one of the 
great benefits of the Internet and Internet commerce was the 
anonymity, that you could do what you wanted to do at your own 
pace and make your own choices. That can be destroyed by 
practices that impact on the anonymity that you might have come 
to and hopefully could expect.
    Senator Cleland. Yes, I think there is a certain 
expectation that when you use the Internet, that one is not so 
much anonymous, but it is private. It is private, and it is 
personal. The exchanges that take place there in effect belong 
to you and you should have the ability of choice.
    Now, that is where we come to opt-in and opt-out. I am not 
sure I follow the bouncing ball here, but it seems to me the 
underlying principle is that I do not want web bugs, I do not 
want cookies, I do not want spam, I do not want anything 
messing up my communications here unless I choose for that to 
happen. If I choose, then so be it. I am still empowered with 
that choice.
    I think we are looking at something here that we have to 
come to some decision on. The Internet and the web can 
certainly be very empowering. It can facilitate commerce, and 
it can facilitate the flow of information worldwide. The 
Internet can help heal diseases and communicate to people, all 
kinds of wondrous things. But if the medium itself is 
compromised, shall we say, by these terms, I think we shoot 
ourselves in the foot. We make the medium less than it can be.
    Is that your sense, Ms. Bernstein?
    Ms. Bernstein. It is indeed, and we know that consumer 
confidence has already been somewhat impacted because of fears 
of just what you suggest, Senator, that they are fearful that 
their privacy will not be protected.
    Senator Cleland. Fear is a terrible thing. Fear can drive 
the stock market up or drive it down. Millions of people can 
react in fear just by one or two, shall we say, horror stories. 
We are not in the horror story business here, but the point 
being we are trying to find that role here. We do not want to 
kill the Internet, and we do not want to kill the goose that 
lays the golden egg. I understand that information technology 
is now the number one force driving the American economy, that 
Internet business, e-commerce, is growing at 6 to 8 percent a 
year.
    This growth is, quite frankly, incredible. But I think one 
of the things that can kill the goose that lays the golden egg 
is an attrition of consumer confidence. You have that in the 
old economy, too. If you lose confidence in a manufacturer or 
product, all of a sudden overnight sales drop, and things 
happen that are not good.
    So we appreciate you working with us and your guidance and 
advice in helping us work through these issues. We do not want 
to be too active here where we interfere with people's commerce 
and their communication, but, by the same token, I think it 
does rest and reside on a certain level of confidence and 
therefore privacy that is assumed and that ultimately I think 
should be guaranteed if the Internet is going to go ahead and 
grow.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cleland follows:]

                Prepared Statement of Hon. Max Cleland, 
                       U.S. Senator from Georgia
    Thank you, Mr. Chairman, for holding this Committee hearing on one 
of the most important issues facing Americans today, at least for those 
Americans who are not on the short end of the digital divide. We owe 
Internet users our undivided attention in developing ways of ensuring 
their privacy while not unduly overburdening the Dot Com companies or 
place them at a competitive disadvantage with off-line businesses. I 
believe that there is a solution that be crafted which respects the 
advertiser's ability to collect consumer information on the Internet 
and Americans' right to privacy.
    By bringing the privacy rights of Internet users to the forefront 
of the Senate's attention, we are setting a course in a positive 
direction to alleviate the fears that many have concerning how their 
private information is acquired, stored, shared and used by others. In 
this fast-paced electronic age, information is being collected and 
stored at the rate of billions of bits per second. The information that 
users send over the Internet passes through dozens of different 
computer systems on the way to its final destination. Each of these 
systems may be managed by a different system operator, each with its 
own capability of capturing and storing online communications. It is 
little wonder that Internet users have concerns about their online 
activities.
    Network advertisers are developing relationships with consumers 
that they don't know and, in many cases, these relationships are 
unwanted by the consumer. Placing cookies and ``web bugs'' on one's PC 
and tracking their movements in such an apparently underhanded manner 
seems very wrong on its face. What kind of a technology is ``web bugs'' 
anyway? In my mind bugs are pests that you use a bug zapper to get rid 
of. The alarming trend of using cookies and placing ``web pests'' on 
peoples' PCs that is being practiced by more and more firms, some of 
whom are represented here today, can't be a good thing if consumers are 
unaware these actions are being taken.
    While some might consider targeted ads directed at a person to be 
helpful, many others consider them to be bothersome. For example, spam, 
or unwanted e-mail solicitations, is one form of advertising unwanted 
by just about everyone. What concerns me the most is the vast databases 
that are being generated to aim ads based on ``inferential'' or 
``psychographic'' data. The ever increasing use of cookies, web bugs, 
and inferential data is only the beginning. With data collection 
technology, such as it is, peoples' innovativeness with how to apply 
this technology and the speed at which data can be processed, there is 
no telling how or what data will be collected in the future. One thing 
we can be certain of is that the information gathering industry will 
not be the same tomorrow as it is today. It is disconcerting to think 
how many current Internet users are unaware that their communications 
are being monitored and their activities tracked.
    Today, there are an estimated 17.8 million websites registered 
worldwide and every day more are coming online. Each of these websites 
has the potential of collecting data that many consider private and 
many of them are actually collecting such information. I recognize that 
there are firms out there who are helping to ensure that industry's 
self-governing online privacy becomes a reality. One is the Better 
Business Bureau. Since it began certifying sites, the Bureau has 
certified just over 6,000 of the 17.8 million websites in existence 
today. While some in industry may believe this is a good start at self-
regulating privacy concerns, I believe industry is falling short in its 
attempt to show it is capable of self regulation in this field.
    I am looking forward to the dialog that will take place this 
morning and to hearing the distinguished witnesses address how the 
legislation that has been offered, or should be offered, can 
appropriately balance the consumer's right to privacy and the 
advertiser's ability to collect and utilize personal information. I am 
very interested in ensuring that a comprehensive, enforceable online 
privacy policy is afforded to all Americans. It is our collective 
responsibility to do this so the Internet can continue to grow at an 
exponential rate, businesses are not burdened by overly burdensome 
restrictions and consumers can be assured that their privacy rights 
will be protected.

    The Chairman. Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thank you, Mr. Chairman.
    I regret coming in late because I know it has been an 
interesting discussion, and there is nothing worse than trying 
to pick up on it without having been part of the flow. So I was 
just trying to get as quick an update as I could. I do not want 
to, hopefully, be repetitive.
    I have been spending more and more time in the last weeks 
trying to reach out to the folks in the industry who are on the 
cutting edge of changing things so rapidly and trying to get a 
better sense of what the play is and what the possibilities are 
within this privacy issue. I have come away from those 
discussions perhaps more confirmed, Mr. Chairman, in my sense, 
that we need to be careful about how fast we move.
    I know there is bubbling up a sort of congressional sense 
of outrage that wants to protect appropriately our citizens' 
right of privacy, and I want to do that, too. But I become more 
convinced that the more you dig into it, the more complicated 
it becomes as to exactly what you can mandate effectively from 
this vantage point at this time.
    Let me be precise. On the access issue, for instance, it is 
very difficult to provide the full measure of access that some 
people are asking for and still maintain the integrity of the 
recordkeeping on the other side that you want. How does 
somebody get access to their record to change whatever it is 
they want, and what is the guard against the input that they 
might want to change it with, the information that they have?
    You can run down the line here on various aspects of the 
issue and you keep running into walls. Enforcement, I gather, 
has been raised by a number of my colleagues as an issue. It is 
almost a certainty that whatever we pass will be unenforceable 
unless we are passing something that sets some very clear 
standards and expectations that are meetable. Whether or not 
they will be meetable will depend to a large degree on where 
the technology goes and what the cooperative effort is going to 
be within the industry itself.
    I think there is a medium ground, and I have tried to 
express that in the prior hearing that we had. But I think 
that, on greater analysis, my colleagues are going to share 
with me a sense that there may be a first step. Now, we are 
here focused on the online profiling, I believe, which in a 
sense it sort of underscores the predicament that we face.
    The last hearing that we had was also focused on sort of 
online and we are focused on the Internet. But privacy is 
privacy is privacy. I mean, if privacy is a right and privacy 
is something that attaches to every American, it attaches to 
them online and offline. And, to the best of my knowledge, no 
one in the U.S. Congress has put forward a full measure of what 
has happened to Americans offline.
    Am I correct? Is there not a very significant intrusiveness 
that takes place in the marketplace offline?
    Ms. Bernstein. There certainly is some. There are, 
however--as you know, Senator, there have been some responses 
to that. Organizations like the Direct Marketing Association 
have put in place systems so that consumers can indicate that 
they do not want to receive certain kinds of telephone calls 
from sales persons or mail calls.
    The Telemarketing Sales Act put some restrictions on what 
messages can be limited by consumers on the telephone. So I 
think it is not quite as bereft of any kind of protections for 
consumers as you suggest. Could there be more? I am confident 
that there could be.
    Senator Kerry. That is a voluntary system.
    Ms. Bernstein. The DMA is, but the----
    Senator Kerry. So it is not mandated by Congress.
    Ms. Bernstein [continuing]. Telemarketing Sales Act was 
mandated by Congress.
    Senator Kerry. But you can get very significant, through 
private sources and otherwise, extraordinary amounts of 
information regarding any fellow citizen. I mean, you can get 
their criminal record. You can get what their credit card 
expenditures have been for some particular months through 
various sources. It is not a crime to do that.
    You can do some remarkable profiling through purchases that 
take place. For instance, if I walk into a store here in 
Washington, swish my card through the credit machine, every 
purchase that I have made is known to those people. They can do 
whatever targeting they want.
    So what we are doing here is we are really talking about 
conceivably in the outcome, depending on what we do, picking 
some winners and losers and affecting the marketplace as 
against another component of the marketplace. I mean, if 
privacy is the concern, privacy applies to everybody in every 
context, does it not?
    Ms. Bernstein. Yes, it does.
    Senator Kerry. So why are we focused on one sector of the 
marketplace versus others?
    Ms. Bernstein. I think the focus has been on the online 
marketplace particularly because it is new, it does have many 
benefits for consumers that they would like to be able to use, 
and at the same time there have been increasing concerns about 
what happens to their information when they are using it. It is 
new. Everyone wants it to flourish because of the benefits it 
can bring, but it also has to have a balance of having people 
feel confident or they will not use it.
    Senator Kerry. I agree with the Chairman that there is a 
special status with respect to medical information, and there 
is a special status with respect to financial information.
    Ms. Bernstein. Whether online or offline.
    Senator Kerry. Correct, online or offline, and they ought 
to probably be treated similarly. But what is the harm with 
respect to this protection we are seeking to provide with 
respect to the other aspects of the targeting and profiling? 
What is the harm?
    Ms. Bernstein. Well, one of the harms is that, at least in 
what we have been discussing today, is that consumers have no 
idea that this is going on.
    Senator Kerry. Which, the profiling?
    Ms. Bernstein. The profiling. They have no idea.
    Senator Kerry. So my concept of privacy, of what we should 
do at this point, is to mandate the level of notice and to 
encourage the maximizing of anonymity. I have spent some time 
lately trying to sort of test different sites and see where 
privacy appears. I look for how fast it leaps out at me, and 
how quickly can I see the word. I also look for what they are 
going to do. And there is a difference, there is a variance, I 
will concede that.
    Clearly, we could legislate some standard that would 
encourage people--or not encourage, that would mandate and that 
would flow to your jurisdiction that as a fair trade practice 
people must post right up front what the options are. That is 
maximizing choice.
    In the context of measuring against the harm that may be 
done, is that not a balance?
    Ms. Bernstein. The Commission has already recommended just 
that notice and just that choice in connection with all 
commercial website activity. So it would certainly go a long 
way toward bringing about a much better balance than exists 
today.
    Senator Kerry. Well, let me go a step further. If citizens 
are as concerned as you say they are, then the opt-in, opt-out 
issue becomes more important. Some people would argue that the 
initial opt-in is when you buy your computer, turn it on, and 
go to a site. That is opting in.
    Ms. Bernstein. It is correct that some people argue that.
    Senator Kerry. Then, if on that site there is a prominent 
display about how the information may or may not be handled, 
they have a next threshold level at which they can exercise 
again a choice of opt-in, opt-out, correct?
    Ms. Bernstein. Under present circumstances, Senator?
    Senator Kerry. No, assuming you had adequate notice that 
was posted.
    Ms. Bernstein. Right.
    Senator Kerry. So then the consumer is making a choice, 
correct? And the down side of harm is that it may be that they 
had adequate posting of X, Y, or Z profiling process or they 
may be targeted for some sale or something. If their financial 
and health information is completely and totally protected, 
would you not have gone an extraordinary distance here to sort 
of set a standard as to how we view privacy without becoming 
overly intrusive and overly regulated and overly structured in 
a way that might inhibit the creativity of the marketplace?
    Ms. Bernstein. I think everyone agrees that it would go a 
long way to have those kinds of protections for financial and 
medical information. There are other areas of sensitive 
information, at least to some people, for example, their 
religious preferences or organizations that they belong to, 
that they may consider as highly confidential to them.
    Senator Kerry. Is any of that protected in the offline 
world?
    Ms. Bernstein. I do not know that it is routinely 
collected.
    Senator Kerry. The answer is no.
    Ms. Bernstein. I believe not.
    Senator Kerry. Okay. So the bottom line comes to this 
question of what definition of ``privacy'' are we prepared to 
recommit ourselves to with respect to the American people, 
online or offline, so that we are not somehow picking winners 
and losers in the process. I will pursue that later, and I 
thank the chair.
    The Chairman. Thank you, Senator Kerry. I thank my friend.
    We have been almost an hour and a half and we have another 
panel. So I thank you, Ms. Bernstein, Mr. Medine, and guru. 
Thank you very much.
    The next panel is: Mr. Jules Polonetsky, who is the Chief 
Privacy Officer of DoubleClick; Daniel Jaye, the Chief 
Technology Officer of Engage Technologies; Mr. Marc Rotenberg, 
who is the President of the Electronic Privacy Information 
Center; and Mr. Richard Smith, an Internet consultant.
    Mr. Polonetsky, we will begin with you. Welcome and thank 
you for your patience.

     STATEMENT OF JULES POLONETSKY, CHIEF PRIVACY OFFICER, 
                          DOUBLECLICK

    Mr. Polonetsky. Thank you, Mr. Chairman. Thank you, 
Senators. Thank you for holding this hearing on the critical 
issue of online profiling and Internet privacy. As Chief 
Privacy Officer at DoubleClick, I report directly to the 
company's Board of Directors to ensure that DoubleClick is 
effectively implementing its privacy policies and procedures. I 
act as a resource for Internet users. I work with advertisers 
and publishers to oversee their privacy policies and I work to 
educate the public about Internet privacy.
    I appreciate the opportunity to testify today. In order for 
the Internet to continue to flourish--in order for this 
revolutionary medium to keep growing at such a rapid pace and 
be the engine for the greatest economic expansion in U.S. 
history--the Internet industry must make consumers comfortable 
that their privacy is being protected online, and at the same 
time publishers and ad servers must continue to customize and 
personalize web content and advertising so that users can get 
the information they want and websites can generate the 
revenues necessary to stay in business and keep content on the 
Internet free.
    Currently, a vast majority of websites offer content free 
of charge. From The New York Times to The Washington Post to 
Encyclopedia Britannica, sites offering directions, weather 
information, content is offered to consumers for free. Why? 
Because of effective Internet advertising. By keeping the 
Internet free, Internet advertisers help bridge the digital 
divide for consumers. Internet advertising revenue also helps 
smaller startup websites offer unique and diverse content and 
compete with more established businesses.
    As the consumer affairs commissioner in New York City for 
Mayor Giuliani for the past two years, I saw firsthand the 
consumer benefits of effective advertising. In markets where 
merchants were competing successfully, consumers had many 
choices and were easily able to find the products and services 
they needed. In markets where advertising was limited or 
ineffective and where it was difficult for merchants to reach 
the right consumer at the right time, such as funeral services 
or prescription medications, prices varied by as much as 40 
percent or 50 percent from location to location. The result: 
many consumers overpaying for services and products they 
needed.
    On the Internet, advertising is effective for consumers and 
advertisers when ads reach the right consumer at the right 
time. Internet advertising companies use information to attempt 
to deliver the ads to consumers that the consumers are likely 
to click on.
    As Senator Kerry noted, this happens every day in the 
offline world. Catalogue companies share their mailing lists 
with each other. Magazines share subscription lists, and 
political candidates use voting lists so they can send 
persuasion or fundraising mail only to the voters likely to 
respond. This is the heart of offline direct marketing and it 
is critical to effective advertising on the web.
    Now, we at DoubleClick understand and take very seriously 
the privacy issues raised by the technological tools used for 
effective web advertising. We also understand that the 
different types of information used need to be treated very 
differently. Not surprisingly, consumers understand that 
certain information in the wrong hands can be harmful to them 
and that some information, like marketing data, does not pose a 
threat.
    Research that we conducted showed that consumers are very 
concerned about the collection of social security numbers, a 
fear of identity theft. They are concerned about their credit 
card numbers, information that could be used against them. 
People have very practical concerns. They are worried about the 
collection and sharing of sensitive credit information that 
could be used to deny them mortgages, sensitive health 
information that could be used to deny them insurance.
    It is DoubleClick's policy not to use sensitive information 
for profiling when we deliver an ad. We do not use health 
information, we do not use sensitive financial information, 
visits to adult sites, sexual information, information about 
children. The example that the FTC presented and that, Senator 
McCain, I think you referred to as relatively innocuous frankly 
is the kind of ad serving that we do.
    Consumers are much less concerned about transaction data 
used for marketing purposes, but we do believe that they have a 
right to know--even if it is not sensitive data--data about 
basic transactions. Consumers have the right to know what kind 
of data net advertisers are using and they have the right to 
have control over that use. There are significant steps that 
industry can and should take to give consumers more confidence 
in and more control over their web experience. Primary among 
them are notice and choice.
    Consumers need and deserve real choice. They need to know 
the type of data that is being collected about them and they 
need to have the ability to opt out, to choose not to 
participate if they want to. We recently finished one of the 
largest Internet education campaigns in web history. We served 
more than 100 million banner ads connecting consumers to 
privacychoices.org, a website dedicated to consumer privacy 
education, offering a two-clicks-and-you-are-out policy for 
consumers who wanted to opt out of targeted advertising.
    At DoubleClick, no website is allowed to contribute profile 
information or to have ads delivered based on any cross-web 
behavior unless their privacy policy links to DoubleClick to 
give consumers notice about what is going on and a chance to 
opt out.
    We are also rewriting our privacy policy to make it 
shorter, clearer, and easier for consumers to understand. We 
employ an outside auditor, PriceWaterhouseCoopers, to do an 
external audit periodically to ensure that we are living up to 
the privacy commitments that we make to consumers, and we have 
an independent consumer privacy advisory board to help us 
continue to improve our privacy procedures and to respond to 
the new issues that will continue to arise as new forms of e-
commerce develop.
    Finally, as part of the network advertising initiative, we 
are working with the other companies in our industry to develop 
uniform rules for all third party advertisers to follow to 
ensure that our activities are clear and understood by 
consumers and to ensure that consumers have control over how we 
use information.
    We recognize that consumers must know that their privacy is 
protected online for e-commerce to continue to flourish and we 
welcome your ideas for additional steps that we can take to 
benefit consumers.
    Thank you.
    [The prepared statement of Mr. Polonetsky follows:]

    Prepared Statement of Jules Polonetsky, Chief Privacy Officer, 
                              DoubleClick

    Thank you for holding this hearing on the critical issue of online 
profiling and Internet privacy. As Chief Privacy Officer at 
DoubleClick, I report directly to the company's Board of Director's to 
ensure that DoubleClick is effectively implementing its privacy 
policies and procedures, act as a resource for internet users, work 
with advertisers and publishers to oversee their privacy policies and 
work to educate the public about internet privacy. I appreciate the 
opportunity to testify today.
    In order for the Internet to continue to flourish--in order for 
this revolutionary medium to keep growing at such a rapid pace and be 
the engine for the greatest economic expansion in U.S. history--the 
Internet industry must make consumers comfortable that their privacy is 
being protected on-line. And, at the same time, publishers and ad 
servers must continue to customize and personalize web content and 
advertising so that users can get the information they want and 
websites can generate the revenues necessary to stay in business and 
keep the Internet free.
    Currently, a vast majority of Web sites offer content free of 
charge. From The New York Times to The Washington Post to Encyclopedia 
Britannica and sites offering directions and weather information, 
content is offered to consumers for free. Why? Because of effective 
Internet advertising. By keeping the Internet free, Internet 
advertisers help bridge the digital divide for consumers. Internet 
advertising revenue also helps smaller start up Web sites offer unique 
and diverse content and compete with more established Web sites.
    As the Consumer Affairs Commissioner in New York for Mayor Giuliani 
for the past two years, I saw firsthand the consumer benefits of 
effective advertising. In markets where merchants were competing 
successfully, consumers had many choices and were easily able to find 
the products and services they needed. In markets where advertising was 
limited or ineffective and where it was difficult for merchants to 
reach the right consumer at the right time--such as funeral services or 
prescription medications--prices varied by as much as 40% from location 
to location and many consumers overpaid for services and products they 
needed.
    On the Internet, advertising is effective for consumers and 
advertisers when ads reach the right consumer at the right time. 
Internet advertising companies use information to attempt to deliver 
the ads to consumers that they are likely to click on.
    This happens every day in the off-line world. Catalogue companies 
share their mailing lists with each other. Magazines share subscription 
lists. And political candidates use voting lists so they can send 
persuasion or fundraising mail only to likely voters.
    This is the heart of off-line direct marketing. And it is critical 
to effective advertising on the Web.
    Now, we at DoubleClick understand and take very seriously the 
privacy issues raised by the technological tools used for effective Web 
advertising. We also understand that different types of information 
need to be treated differently.
    Not surprisingly, consumers understand that certain information in 
the wrong hands can be harmful to them and that some information--like 
marketing data--does not pose a threat.
    Research conducted for DoubleClick showed that consumers are very 
concerned about the collection of social security numbers--in other 
words, a fear of identity theft--credit card numbers and information 
that can be used against them. People have very practical concerns--
they are worried about the collection and sharing of sensitive credit 
information that can be used to deny them mortgages and sensitive 
health information that can be used to deny them insurance.
    It is DoubleClick's policy not to use sensitive information for 
profiling when delivering an ad. We do not profile using health 
information, detailed financial information, visits to adult sites or 
sexual information, or information about children.
    While consumers are much less concerned about transaction data used 
for marketing purposes, we believe they have a right to know what type 
of data is being used by network advertisers and have the right to have 
control over that use.
    There are significant steps that industry can and should take to 
give consumers more confidence in and control over their web 
experience. Primary among them are notice and choice. Consumers need 
and deserve real choice. They need to know the type of data that is 
being collected about them and have the ability to opt-out--to choose 
not to participate--if they want to.
    We recently finished one of the largest Internet education 
campaigns in Web history . . . 100,000,000 banner ads connecting 
consumers to www.privacychoices.org, a website dedicated to consumer 
privacy education and offering a two-clicks-and-you're-out policy for 
those who wish to opt-out of targeted advertising.
    At DoubleClick, no Web site is allowed to contribute profile 
information or receive ads based on cross web behavior unless their 
privacy policy links to DoubleClick to give consumers notice and a 
chance to opt-out.
    We are also re-writing our privacy policy to make it shorter, 
clearer and easier to understand.
    We employ PriceWaterhouse Coopers to provide an outside audit to 
ensure we are living up to the privacy commitments we make and we have 
appointed an independent Consumer Privacy Advisory Board to help us 
continue to improve our privacy procedures and respond to new issues 
that will arise as new forms of e-commerce develop.
    And finally, as part of the Network Advertising Initiative, we are 
working with the other companies in our industry to develop uniform 
rules for all third party advertisers to follow to ensure that our 
activities are clear and understood by consumers and to ensure 
consumers have control over how we use information.
    We recognize that consumers must know that their privacy is 
protected online for e-commerce to continue to flourish and we welcome 
your ideas for additional steps that we can take to benefit consumers.
    Thank you.

    The Chairman. Thank you very much.
    Mr. Jaye, welcome.

  STATEMENT OF DANIEL JAYE, CHIEF TECHNOLOGY OFFICER, ENGAGE 
                          TECHNOLOGIES

    Mr. Jaye. Thank you. Thank you, Mr. Chairman. My name is 
Daniel Jaye. I appreciate the opportunity to appear before you 
today. I am the Chief Technology Officer and co-founder of 
Engage, Inc., of Andover, Massachusetts. When I joined with 
CMGI Chairman and CEO David Weatherall to create Engage in 
1995, we were guided by the fundamental proposition that 
effective, tailored online advertising was vital to the 
Internet's future, but could ultimately be effective only if 
consumers found online targeted advertising a valued customized 
information service and not an unwelcome intrusion. This is 
only more clear today.
    If the Internet is going to bridge--and not widen--the 
digital divide, advertising support is essential. Today, 
however, three out of four Internet ads remain unsold or 
undersold, and the great majority of websites remain 
unprofitable. The traditional advertisers we need will commit 
to the web only if they can achieve the effectiveness 
attainable offline and something more as well. That is where 
online profiling comes in.
    Using various business models and technologies, online 
network advertisers enable website visitors to receive news, 
information, and ads customized in real time to their 
demonstrated interests. At Engage, we have developed a 
distinctive anonymous profiling model that enables online 
marketers to deliver the relevant ads to the right audience. In 
this model, while we do provide notice and choice, we do not 
know a consumer's name, address, social security number, or any 
other personally identifiable information.
    We do not maintain information about the specific websites 
a browser visits. We do not collect any sensitive or 
controversial data, such as personal medical or financial data, 
ethnic origin, religion, political interests, or review of 
adult content. And we do not merge anonymous profiling data 
with personally identifiable data, no matter what the source.
    Instead, we simply derive an apparent interest level score 
by looking to the aggregate amount of time a browser has spent 
on different types of content, very similar to the 
demonstration we saw earlier. We do not look at who they are or 
where in particular they have been on the web. Our patent-
pending, dual-blind technology creates a firewall that prevents 
our customers from gaining access to our interest profiles or 
determining a visitor's real world identity.
    Industry-wide as well, elegantly simple technological tools 
are emerging for consumers to ensure their privacy. We are 
particularly excited about an outgrowth of the Platform for 
Privacy Preferences project, P3P, that is specifically focused 
on cookies. Engage has authored and is working with other 
industry leaders on this trust labels technology that would 
recognize automatically whether a website's use of cookies 
meets third party seal organization standards and the user's 
own standards.
    Moreover, any third party that attempts to set a cookie but 
does not meet these standards will trigger a warning on the 
computer screen, instantaneously allowing the consumers to 
block the business from collecting data. Unless and until it 
reforms its practices to meet the standards of privacy seal 
organizations, the bad actor will actually be locked out of the 
marketplace. This more than any regulation will drive 
widespread, indeed global, compliance with seal programs.
    In addition, market forces are driving the online industry 
to raise the bar for protection of consumer privacy through 
effective industry standards, through increasingly vigorous 
seal of approval programs, through contractual commitments that 
extend the reach of industry standards to our business 
partners, and through stepped-up consumer and business 
education.
    Through the network advertising initiative, we are ensuring 
that our network advertiser segment of the marketplace embraces 
each of these mechanisms and expands upon prevailing industry 
standards in a clear, public, and enforceable way. You should 
be hearing soon about the particulars of the significant 
standards and practices to which our sector has committed.
    The growing marketplace premium on privacy protection makes 
the commitment to self-regulation of our business particularly 
credible. We welcome the spotlight on privacy. Engage feels 
confident that its own technology, business models, and 
commitment to consumer privacy will continue to meet or exceed 
the highest of any industry standards or government mandates.
    But the early adoption of a regulatory framework or, worse 
yet, a patchwork of regimes could undermine these surging 
market incentives to develop and deploy technological advances 
and privacy protection. Instead of setting a floor that turns 
into a ceiling as well, policymakers would, I believe, be well 
served to test the dynamism of technological innovation and the 
power of the market to deliver on this promise before moving 
forward.
    Thank you.
    [The prepared statement of Mr. Jaye follows:]

     Prepared Statement of Daniel Jaye, Chief Technology Officer, 
                          Engage Technologies

    Thank you, Mr. Chairman. I appreciate the opportunity to testify 
before you today on these issues of importance to your Committee, to 
Internet users, and to the future of our Internet economy.
    My name is Daniel Jaye. I am the Chief Technology Officer and Co-
Founder of Engage, Inc. of Andover, Massachusetts. Engage is a leading 
provider of technology and services that allow website operators and 
advertisers to tailor their commercial and editorial content in 
innovative ways likely to be of the greatest interest to a visiting 
Internet user--all without tracking, or ever learning, an individual's 
identity.
    Since co-founding our company in 1995, I have been engaged in the 
design and development of privacy-sensitive online marketing 
solutions--including inventing the Internet's first anonymous profiling 
technology, participating as a founding member of the initial so-called 
``P3P'' specification and as author of the related ``TrustLabels'' 
specification (developments I'd like to highlight shortly). I have also 
actively participated in a number of significant industry online 
privacy standards initiatives, including the Network Advertising 
Initiative (NAI). And I have recently served as a member of the Federal 
Trade Commission (FTC) Advisory Committee on Online Access and 
Security, and a panelist in the FTC/NTIA Online Profiling Workshop in 
November 1999.
    I would like to address three topics today:

  <bullet> First, the fundamental role served, and the basic models 
        used, by online network advertisers;

  <bullet> Second, the technological tools and developments that are 
        bolstering the power of industry--and indeed the power of 
        consumers themselves--to promote privacy-sensitive online 
        practices; and,

  <bullet> Third, the potent market forces that are compelling online 
        businesses to provide consumers real assurance that they can 
        surf the web without unwittingly sacrificing their personal 
        privacy.

    I might note that I offer these comments not in an effort to 
demonstrate that there could never be a place for legislation in this 
area, nor out of any concern about the direct impact of proposed 
privacy legislation on our company's practices. Engage feels confident 
that its own technology, business models, and longstanding commitment 
to consumer privacy would continue to meet or exceed the highest of any 
industry standards or mandates. Yet, I offer these comments because I 
respectfully believe that it is essential that any legislative 
deliberations fully appreciate the vital role, the dynamic technology, 
and the palpable marketplace forces that shape the online advertising 
business.

Keeping The Internet Free For All Consumers Through Effective Online 
        Advertising
    Let me briefly explain, then, how ``online profiling'' offers a 
tool critical to underwriting the Internet's emergence as a remarkable 
toll-free bridge spanning an otherwise widening societal divide in 
access to information and commerce. Early online entrepreneurs learned 
quickly that sustaining a rich array of information and services on the 
Internet, readily accessible to all consumers, would require a model 
based on advertising support--and free of subscription fees. And, based 
on this prevailing model, the Internet has flourished as a remarkably 
vibrant and innovative source of freely accessible information, 
entertainment and commerce.
    Yet if advertising is truly to provide a viable, long-term 
foundation for the Internet economy resting upon it, website operators 
must harness the medium's unique marketing capabilities to allow 
advertisers to deliver relevant ads to the right audience. Today, 
however, three out of four Internet ads remain unsold or undersold. 
And, not coincidentally, the great majority of websites remain non-
profitable. The traditional advertisers that we must attract to the web 
will come in requisite numbers only if they can achieve the 
measurability and effectiveness that they can achieve offline--and 
something more, as well. Profiling technology enables this advertising 
and content to be more effectively targeted to consumers' interests, 
thus offering a vital means for fulfilling the Internet's rich 
potential--for consumers, advertisers, and website operators alike.
    Different online companies employ different business models and 
technologies to offer customized news, information and ads on topics of 
demonstrated specific interest, even when a visitor might be viewing 
more general interest web pages. And, the types of information 
collected and used for online profiling can vary among personally 
identifiable information (PII), non-personally identifiable information 
(non-PII), or a combination of the two.

  <bullet> PII is data used to identify, contact, or locate a person, 
        such as name, address, telephone number or e-mail address.

  <bullet> Non-PII is data that does not identify a particular person 
        and is typically compiled from anonymous clickstream 
        information collected as a browser moves among different 
        websites (or a single website).

    The collection of online data relies upon the use of ``cookies,'' 
which are simply small files of information that most websites place on 
a user's browser--to provide, in Engage's case, a unique anonymous 
identifier or, importantly, a message that the browser is set to opt-
out from collection of any data about its users.

Harnessing Technology To Make Online Advertising Effective And Privacy-
        Sensitive
    When I joined with CMGI Chairman & CEO David Wetherell to create 
Engage in 1995, we were guided by the fundamental proposition that 
effective, tailored online advertising was vital to the Internet's 
future--but could ultimately be effective only if consumers found 
online targeted advertising a valued, customized information service 
and not an unwelcome intrusion. From the outset, then, we developed an 
innovative technology to enable online marketers to understand the 
interests of website visitors based strictly upon anonymous, non-
personally identifiable information.
    Relying only on the apparent interests, broad demographics, and 
general location of a visitor reflected in interest profiles, Web site 
publishers, advertisers, and merchants can customize web pages and 
offer content, ads, promotions, products and services tailored to the 
visitor in real-time--and, at the same time, protect the consumer's 
privacy by not collecting personal (or otherwise sensitive) information 
of any kind. In fact, in our anonymous model:

  <bullet> We do not know a consumer's name, address, social security 
        number or any other personally identifiable information;

  <bullet> We do not maintain information about specific web pages a 
        browser visits or how long a visitor stays;

  <bullet> We do not collect any sensitive or controversial data, such 
        as personal medical or financial data, ethnic origin, religion, 
        political interest or review of adult content; and,

  <bullet> We do not merge anonymous profiling data with personally 
        identifiable data, no matter the source.

    Instead, our anonymous profiles consist of a score signifying the 
apparent level of a user's interests in various categories. We simply 
look to the aggregate amount of time a browser has spent on different 
types of content--not who they are, or where in particular they have 
been on the Web. Our conviction from the start has been that it should 
never be possible for Engage or anyone else to determine (or even 
``triangulate'') a visitor's real world identity based on our 
abstracted data.
    And we employ additional technological tools and practices to 
ensure this anonymity. We use firewalls--technological barriers to 
protect a system--to secure the (already) non-personally identifiable 
information we collect through a patent-pending technology we call 
``dual-blind'' identification: this way individual websites we work 
with do not have access to our interest profiles or know what other 
sites a user may have visited. There is no user interface through which 
anyone else can gain access to an individual profile. And, even with 
these technological protections in place, and only non-personally 
identifiable data at issue, we also provide consumers effective choice 
regarding whether to participate. We offer clear information about our 
data collection practices and an opportunity to opt-out of our 
anonymous information gathering.
    In short, Engage's business model not only accommodates, but is in 
fact borne of, consumer's interest in protecting their privacy 
interest.

Privacy-Driven Technological Innovation Is Further Empowering Industry 
        And Consumers Themselves To Raise The Bar
    Continued technological innovation promises our online industry--
and the web visitors themselves--sophisticated yet simple tools to 
support consumer privacy interests. I can report first-hand that the 
online industry has indeed brought to bear in the interest of consumer 
privacy the same zeal for technological break-throughs that have 
characterized--and fueled--the Internet itself. The result: a 
remarkable progression of emerging solutions that will offer consumers 
previously unimagined forms of notice, choice and protection of their 
own personal privacy demands.
    Emerging tools offer not only instantaneous and automatic notice 
and choice, but more than that, they also would empower consumers 
essentially to set for themselves just what measure of privacy they 
demand--and to avoid any sites that fail to meet their personal 
standards. The Platform for Privacy Project (P3P) at the World Wide Web 
Consortium (W3C) would enable a web server to communicate automatically 
how it collects and shares user data so users can define what privacy 
standards they prefer for that particular site or in general. Engage 
was a co-author of the P3P Protocol Specification.
    Beyond this, we are very excited about a specific application of 
P3P in the context of ``TrustLabels'' for cookies. To directly respond 
to the leading concerns over third party data collection and 
transparency, Engage has authored and is working with other industry 
leaders on a specification for TrustLabels, which would allow web 
servers to provide notice to consumers concerned about certain uses of 
cookies and would allow consumers the ability to accept or reject a 
site's data practices. This technology critically serves the goal of 
universal compliance with privacy standards. It permits consumers to 
compel online businesses to be privacy-sensitive because those 
businesses that attempt to set a cookie and do not meet consumers' 
privacy demands will cause a warning alert to be displayed on the 
computer screen of the user, allowing a choice (probably ``NO'') to be 
made solely by the consumer regarding whether to permit the business to 
collect data. The business will be unable to collect the data it seeks, 
unless and until it reforms its practices to meet the standards of 
privacy seal organizations. The bad actor will actually be locked out 
of the marketplace. This, more than any regulation, will drive 
universal compliance with seal programs. And, on the Internet, such 
technology-based enforcement does not stop at national borders. 
Certainly this is the sort of technological innovation that no one 
would wish to discourage with a premature regulatory framework that 
could stunt this continuing evolution--or, worse yet, a patchwork of 
such regimes across jurisdictions.

Extending Privacy-Sensitive Practices Through Industry Self-Regulation
    Along with this commitment to developing robust technological tools 
to empower consumers, online industry leaders have relied on a 
complementary set of additional tools to raise the bar industry-wide 
for the protection of consumer privacy:

  <bullet> First, adopting effective standards for industry collection 
        and use of consumer data;

  <bullet> Second, giving those standards teeth through enforceable and 
        increasingly vigorous seal of approval programs;

  <bullet> Third, extending the reach of those standards by 
        incorporating them into contracts with other online businesses 
        not already subject to such standards; and,

  <bullet> Finally but critically, actively educating consumers and 
        business customers about our business and the available means 
        for effectively safeguarding privacy on the Web.

    In the few short years over which the Internet has blossomed, the 
online industry has--through rapidly growing use of these tools--made 
tremendous strides in voluntary, but self-regulated adoption of ``the 
right way'' to do business. And through the Network Advertising 
Initiative, we are ensuring that our network advertiser segment of the 
marketplace embraces and expands upon prevailing standards--in a clear, 
public, and enforceable way.
    You will hear in the very near future, I believe, in greater detail 
about how our NAI standards will effectively incorporate all of the key 
self-regulatory tools I just described--substantive standards, 
independent third party certification and enforcement, binding 
commitments on our customers to follow the same standards, and a 
campaign to educate the public and our website customers alike.

The Power of Marketplace Demands For Privacy-Sensitive Practices
    I will confess that, for Engage, the standards and practices 
contemplated by industry largely codify the standards we have set for 
ourselves from the outset. But by no means does that suggest that this 
self-regulatory initiative, and the recurring spotlight on our 
industry's business practices, is not making a difference. To the 
contrary, as a whole, we are working to set a bar and, in certain 
respects, raise the commonly prevailing bar. More than that, we are 
fully unleashing an already significant and growing set of marketplace 
forces--the force of privacy-sensitivity as a competitive advantage. It 
is a force that we welcome--indeed one we have long harnessed. It is a 
force that public policy must take care not to squelch. And it is a 
force that makes the commitment to self-regulation in our business all 
the more credible.
    Our customers know that consumer comfort and security is critical 
to use of the Internet. In this competitive climate, those businesses 
serving consumers online ultimately will embrace only those 
technologies and practices that can provide tailored and effective 
online advertising without compromising consumer privacy. This is a 
powerful bottom-line force, as ongoing marketplace developments bear 
witness.

Conclusion
    The potent combination of technological innovation, industry 
standards, contractual requirements extending those standards, 
enforceable privacy seal programs, consumer and industry privacy 
education, and FTC enforcement offers a highly reliable and uniquely 
effective response to online privacy concerns. These initiatives 
bolster what are already formidable marketplace checks on online 
businesses' protection of consumer privacy. The needs of our customers 
to attract--and not repel--consumers will ensure that we get the job 
done.
    But so too is it critical to ensure that we do not needlessly 
undermine the effectiveness of online advertising by freezing the 
development of new technological tools to meet consumer and business 
needs. Instead of setting a floor that turns into a ceiling as well, 
the power of the market and the dynamism of technological innovation 
promise continued remarkable developments to protect privacy interests. 
As I suggested at the outset, the viability of e-commerce, of our 
advertising-supported Internet, and thus of all the Internet's 
tremendous economic and societal benefits depends on it.
    Thank you.

    The Chairman. Thank you very much.
    Mr. Rotenberg.

   STATEMENT OF MARC ROTENBERG, DIRECTOR, ELECTRONIC PRIVACY 
                       INFORMATION CENTER

    Mr. Rotenberg. Thank you very much, Mr. Chairman, members 
of the Committee. It is a pleasure to be here today. It was 
actually at a similar hearing a year ago that I described for 
you a company named DoubleClick, the Internet's largest 
advertising network, and another company named Abacus Direct, 
the country's largest database catalogue firm, and I explained 
following the announcement of a recent merger that the joining 
together of the online information in the Abacus Direct 
database and the surfing records that were being maintained by 
DoubleClick would raise profound issues for Internet privacy, 
that users would strongly object to this type of profiling of 
their Internet activity, and that you would see a public 
response.
    Indeed, that is what happened over the past year. The 
public responded, the FTC responded, State attorney generals 
responded, because people understood that in their use of the 
Internet--in the desire to obtain information online and 
receive the benefits of electronic commerce it did not seem 
fair or right that they should have to sacrifice their--
privacy.
    Now, the online advertising industry will say: We are 
providing great benefits. We are providing free content. We are 
making it possible for people to get access to information and 
systems. But I think it is important to keep two points in 
mind.
    First, advertising has always supported the delivery of 
editorial content. Whether it is a radio broadcast, a TV spot, 
magazine ad, or a billboard, there have always been ways for 
advertisers to market to consumers to support the delivery of 
information. What is different about the Internet, and it is 
different, is that this is the first time that it has been 
possible for advertisers to profile the people who receive 
information, to build detailed dossiers about their interests, 
their preferences, their likes, and their dislikes. In this 
respect the Internet world is different from the offline world. 
There is a different type of privacy problem made possible by 
the creation of a digital network.
    Now, a second point to keep in mind is that Congress has in 
the past confronted this issue of how we deal with the creation 
of personal profiles. This is not the first time. In fact, more 
than 30 years ago when people looked at the practices in the 
credit reporting industry and said, look at this detailed 
information that is being put together about how people live, 
whether they are married, what they earn, what time they show 
up at work, there has to be some control on the collection and 
use of this information.
    So Congress 30 years ago passed privacy legislation to 
control the collection and use of credit record information, to 
make sure that improper information was not collected and that 
the information that was collected was not used improperly.
    Similar issues were raised about the potential of Big 
Brother databases in the Federal Government. In the 1960's, 
Federal agencies were bringing in automation and people 
realized that it would be possible to create very detailed 
profiles of American citizens. So, over time a legislative 
framework called the Privacy Act was put in place which gives 
every citizen in America the right to limit the collection and 
use of information about them and, critically, to see the 
information which is collected.
    My suggestion to you today is that what we are facing with 
Internet profiling is in fact not a new problem. It is a 
familiar problem. It is the detailed collection of information, 
the creation of profiles, enabled by technology. Now, of course 
it is a wonderful technology and we really do not need to 
dispute the benefits of the Internet. The question is, are we 
going to have to trade our privacy, lose control of this 
information, to receive the benefits of the Internet.
    I think over the last five years as the FTC and the 
sponsors of legislation, this Committee, privacy groups--my 
own, Junkbusters and others--we have realized that there is 
simply not a need to make this trade. We do not need to choose 
privacy or the benefits of the Internet. We really should have 
both.
    Pulling it all together, I think the key point here is that 
when I came to you a year ago and said that this type of 
profiling is going to create problems, I also suggested that 
there were ways to do online marketing, online targeting, that 
would be good for business, good for consumers, and would not 
create these types of privacy problems. So what we needed, and 
what we still need, is the baseline privacy legislation that 
establishes an opt-in requirement, that gives people the right 
to access those profiles, and in some cases the right to have 
their personal information deleted if they no longer have a 
relationship with a company or they do not want to have a 
future relationship with a company.
    Those baseline standards will encourage the development of 
very good online business practices, very good privacy 
technology. They will not stand in the way of innovation and 
they will give people the benefits of the Internet and provide 
privacy protection.
    So I thank you very much for the chance to be here, and I 
will be pleased to answer your questions.
    [The prepared statement of Mr. Rotenberg follows:]

            Prepared Statement of Marc Rotenberg, Director, 
                 Electronic Privacy Information Center

Summary
    Privacy organizations that favor legislation to protect privacy 
have also been the leaders in the effort to establish good technology 
to protect privacy. Our view is that good privacy technologies will 
depend very much on the regulatory environment. Laws such as export 
controls that limit the availability of encryption or the requirements 
of the Communications Assistance for Law Enforcement Act, now before a 
federal appeals court, will discourage the development of good 
techniques to protect privacy. On the other hand, laws that implement 
Fair Information Practices, such as the Privacy Act of 1974, will have 
a positive impact on the development of technology. Privacy legislation 
is appropriate for the Internet because it will have a positive impact 
on the development of technologies to protect online privacy.
    In the matter of Doubleclick, we first brought the Committee's 
attention to this problem at a similar hearing a year ago. We warned 
that self-regulation would fail to protect privacy and that there would 
be a public backlash against the company's plan to profile Internet 
users. We think the lesson is clear that legislation is necessary. Even 
good models for online advertising can quickly change without baseline 
privacy rules.
    Going forward, we think the key is the development of techniques 
that implement common-sense Fair Information Practices and that 
minimize or eliminate the collection of Personally Identifiable 
information. Techniques for profiling that are not based on the 
identity of an actual user may be acceptable. But any system of 
profiling that could be linked to a user, even if that is not intended 
at the beginning should be subject to legal safeguards. The experience 
with Doubleclick has made this clear.
    In terms of P3P, we do not view this as a technology that will 
promote privacy. It builds on the very weak ``notice and choice'' 
approach that is increasingly asking consumers to trade their privacy 
for the benefits on electronic commerce. It is not fair to force 
consumers to make this choice. Good technologies that aim to protect 
consumer privacy will not be built on this model.
    We need privacy legislation to establish baseline standards for 
electronic commerce. We also need to look closely, with input from 
technical experts and experts in privacy, at how best to develop 
technologies that protect online privacy. We need a much broader right 
of access in the online world than currently exists in the offline 
world precisely because the online world enables such far-reaching 
profiling. Finally, we need to think more deeply about the true nature 
of profiling in the online world. The establishment of persistent 
profiles, beyond the control or scrutiny of the individuals affected, 
can stigmatize and reduce opportunity for some even as they create 
benefits for others.

Testimony
    My name is Marc Rotenberg, and I am Executive Director of the 
Electronic Privacy Information Center in Washington, DC. I am grateful 
for the opportunity to appear before the Committee this morning and 
also for your efforts in developing good privacy legislation that 
responds to growing public concern. Last year I testified before you on 
the growing risks to Internet privacy and described a firm named 
Doubleclick that had announced a merger with Abacus Direct. I warned in 
my testimony that Doubleclick proposal to profile Internet users showed 
the problems with the self-regulatory approach to privacy protection 
and that it would lead to a vast privacy backlash.
    This morning I will focus my comments specifically on one of the 
central questions in the ongoing effort to protect privacy online--what 
is the relationship between privacy legislation and privacy technology? 
With legislation pending before the Committee, and many companies 
developing privacy technologies, I am sure you are trying to understand 
the relationship between privacy legislation and privacy technology. 
Are they alternatives? Should we have both? What happens with 
technology if we continue to go forward without legislation?

Privacy Advocates Have Long Encouraged the Development of Technology to 
        Protect Privacy
    To answer these questions, I need to say a few words about the 
establishment of EPIC. The Electronic Privacy Information Center, which 
has long favored the adoption of legislation to protect Internet users, 
has also been on the front lines to ensure that Internet users would 
have access to the best technology to protect privacy. Several years 
ago there was a widespread belief in government that it would be 
necessary to limit the availability of strong technology, such as 
encryption, that would protect personal privacy. We strongly opposed 
this view and said that these technologies should be widely available 
to the general public. We argued that privacy technology was good for 
consumers, good for business, and ultimately good for national 
security. We prepared a letter to the President by experts, opposing 
the Clipper proposal to establish the escrowed encryption standard. 
That letter was later endorsed by 50,000 users of the Internet who 
agreed that good technology was critical to good privacy. The 
administration eventually changed its views and today the United States 
policy on encryption favors the development of good tools to protect 
personal privacy, though I should add that it is still the case that 
electronic mail is not routinely encrypted, though I think it should 
be.
    Since the Clipper campaign, we have also urged the development and 
adoption of the very best technical means to protect personal privacy. 
Our website contains a popular page--Practical Privacy Tools, which was 
featured in the New York Times just last week. The page includes 
techniques for encryption, anonymity, cookie management, and more.
    Members of the EPIC staff have even trained human-rights advocates 
and journalists in different parts of the world how to use encryption 
to protect their private communications from police forces and 
governments that would send a person to jail for what he might write in 
a private message. We supported the widespread use of anonymous re-
mailers, PGP, robust encryption, and other privacy tools, when many 
industry groups waited quietly in the wings for the policy debate to 
play out.
    Although lobbyists like to characterize privacy advocates as 
favoring ``heavy-handed Government regulation'' in fact we were far 
ahead of industry on proposing technical solutions to privacy 
protection. We have been pressing for good technical solutions to 
protect privacy before the vast majority of Internet-based companies 
were even established.
    And when groups in industry or government have gone forward with 
technical standards that threaten individual privacy--the Clipper chip, 
the Intel Processor Serial Number, the FBI wiretap standards, the 
Microsoft Global Universal Identifier--we launched national campaigns, 
in association with such groups as Junkbusters, the ACLU and others to 
bring public attention to the growing risks to privacy.

Privacy Legislation is Critical to Privacy Technology
    So why do we favor legislation? The answer is that our experience 
over the last ten years shows that you will get better technologies to 
protect personal privacy where there a legal framework in place that 
establishes baseline privacy standards. The Clipper proposal came about 
in the United States but not in Europe or Canada. One of the reasons is 
that European and Canadian privacy laws and European and Canadian 
privacy agencies prevented the adoption of a technical standard that 
would have enabled such widespread surveillance of privacy 
communications.
    Doubleclick pushed forward with its profiling scheme in the United 
States but not in Europe because European law would have required to 
Doubleclick to follow a set of privacy rules once it started collecting 
personal data. Doubleclick decided it didn't want to bother complying 
with privacy rules so it pushed forward in the United States.
    Many of the Internet protests that are taking place in the United 
States result from the failure to develop good privacy standards. Some 
might say that this is because the US is a leader in technology and 
first to experience the social consequences when companies go too far. 
But in fact, in many critical sectors--online banking, Internet use, 
cell phone use--the US is not the leader but is still facing enormous 
public concerns about the loss of privacy. The reason is simply that 
whereas other countries have made some effort to update their privacy 
laws to keep pace with new technology, the US stubbornly refuses to do 
so. And in the United States where privacy legislation is in place, you 
simply do not see the type of invasive profiling that companies like 
Doubleclick have pursued on the Internet.
    The message here is simple: privacy laws encourage good business 
practices and good privacy technologies. Where those laws exist, you 
can have innovation and privacy protection. Where the laws do not 
exist, you may still have innovation, but I doubt you will have privacy 
protection.

The Profiling Problem is Not New
    Although the Internet and Doubleclick appear to raise new problems, 
in many ways Congress has confronted similar problems in the past and 
developed appropriate legislative solutions.
    More than thirty years ago there was a proposal to establish a 
centralized databank in the United States called the National Data 
Center that would have provided detailed profiles on American citizens. 
The purpose was benign. It was believed that such a databank would be 
very useful to social scientists and others, but the implications were 
severe. People understood that the collection of these permanent 
profiles, made possible by computerized automation, would pose a threat 
to the privacy and liberty of American citizens. The proposal for the 
National Data Center was withdrawn and over time a comprehensive legal 
framework--the Privacy Act of 1974--was established to safeguards the 
rights of American citizens. The Privacy Act imposed on all federal 
agencies essential privacy rights and responsibilities--``Fair 
Information Practices''--that would limit would federal agencies could 
do with personal information and gave every American the right to see 
the information about them that was collected.
    Significantly, the Privacy Act did not slow the use of computers. 
It simply made the people who were designing those systems more aware 
of their obligations to protect the privacy interests of the people 
whose information was collected. In other words, the Privacy Act helped 
ensure that as automation was introduced in the federal government, 
privacy was built-in at the outset.
    Now I want to be clear at this point, that I am not defending all 
data collection practices by the federal government. I think there are 
any number of programs where data collection is too intrusive. Nor do I 
think the Privacy Act is beyond criticism. Recent amendments 
appropriately strengthened the penalty provisions to help ensure that 
there would be sufficient incentives to pursue enforcement, and recent 
court opinions have asked, appropriately in my view, whether the 
Privacy Act should apply to the White House.
    But the critical point is clear: law is necessary to limit 
profiling, such law does not discourage innovations, and the US Privacy 
Act provides a clear example of how such laws can operate successfully.

Lessons of Doubleclick
    To understand Doubleclick, I think it is important to think about 
how advertising has operated traditionally. Whether in the print world 
with magazine ads and billboards or the communications world with radio 
spots and TV ads, advertisers large and small have been able to reach 
their audience without collecting any personal information. This is 
true when 30 million people watch the same beer commercial on a 
television football game or when 30 people see an ad for a used kitchen 
table in the classified section of a morning newspaper. Advertisers 
communicate information to an audience without trying to create 
detailed profiles.
    Advertisers have always been able to tailor ads to specific 
markets. With the Internet it is even easier to do. The subject matter 
can be more focused, the information more timely. Advertisers also get 
almost instantaneous feedback on which ads are working and which are 
not. Follow an auction on one of the auction sites and you will see 
just how well the Internet enables targeted advertising between buyer 
and seller and still protects privacy.
    All of these factors suggest that the Internet could be a very 
effective way for marketers to reach customers with a minimal privacy 
intrusion. But Doubleclick, and in fairness, several of its 
competitors, pushed the envelope and decided that reaching customers, 
regardless of the privacy consequences, was the way to go. Not content 
with the most effective and efficient form of advertising ever made 
possible, these companies began plans to profile net surfers, to link 
anonymous clickstream data with detailed and personally identifiable 
purchase records. They called it ``personalization'' but the process is 
``profiling'' and the method involves the secretive collection of 
personal information about consumers.
    The schemes were deeply flawed, both as a matter of policy and 
technology. Doubleclick essentially ignored all of the generally 
accepted privacy rules. People could not see what information would be 
collected or determine how it would be used. Doubleclick couldn't even 
comply with their own privacy policy. As we pointed out in our 
complaint to the Federal Trade Commission, the privacy policy at the 
Doubleclick website was constantly being revised. First, Doubleclick's 
privacy policy assured users who received targeted ads from Doubleclick 
that they would remain ``completely anonymous.'' Then Doubleclick 
dropped the reference to anonymity and said the information was not 
``personally identifiable.'' More recently, following the merger with 
Abacus Direct, Doubleclick said that if it joined the two databases it 
would further revise its privacy statement to reflect its ``modified 
data collection and data use practices.''
    There was no way any consumer could make a meaningful decision 
about whether to disclose personal information to Doubleclick. 
Doubleclick could essentially do with the information whatever they 
wished. They might as well have scrapped their privacy policy and put 
up three words ``subject to change.''
    The technology was just as bad. Even Doubleclick's business 
partners were not aware of how personal information was being 
collected. Kozmo dropped Doubleclick when they realized that videotape 
rental records were being transferred by the advertising network, most 
likely in violation of the Video Privacy Protection Act. Web sites 
offering healthcare advice learned to their chagrin that they were 
passing on medical information on their visitors through the 
Doubleclick network. Even the opt-out scheme proposed by Doubleclick 
had problems. Customers who wanted privacy would be required to store a 
Doubleclick cookie on their computer. Not a very smart idea when 
consumers, trying to protect their privacy, are routinely deleting 
cookies.
    By the time Doubleclick dropped the plan, the company was facing 
investigation from the Federal Trade Commission, two state attorneys 
general, and a host of private litigants. Doubleclick's problems were 
hardly caused by the campaigning of a few privacy advocates; virtually 
anyone who thought about the long-term implications of profile-based 
advertising saw the problem.
    Doubleclick CEO Kevin O'Connor was right to admit a mistake and 
should be commended for responding, albeit belatedly, to growing public 
concern about privacy in the online world. The question now is what 
lessons will be learned. Is this simply a matter of ``issue 
management,'' or is there an opportunity for a genuine exploration of 
how to develop business models for the Internet that are profitable and 
also respect consumer privacy? My hope is that the industry will take 
the second course. But this will mean taking seriously the need to 
develop strong and effective privacy measures.
    If net advertisers intend to collect personal information on 
Internet users, they should follow the most stringent Fair Information 
Practices. That's not just about giving individuals ``notice and 
choice,'' it's about allowing individuals to know what the company 
knows about them, and to object to the use of the information and even 
to have it permanently deleted if they wish. It's about being more open 
and accountable in how personal information will be used. Access to a 
privacy policy is never as good as actually being able to see how 
someone else will use your personal data.
    Better of course would be for innovative firms to take advantage of 
the extraordinary flexibility of the Internet and develop advertising 
models that do not rely on the collection of personally identifiable 
information. Several advertising firms currently do this and others 
should consider it as well. There is every reason to believe that 
advertising models that respect consumer privacy can be made to work in 
an environment as dynamic as the Internet.
    Support for privacy legislation that would establish baseline 
standards across the industry would also be a good move. Self-
regulation has its advantages, but in the world of privacy it simply 
protects bad actors. A better approach would establish simple, uniform, 
predictable rules for business and consumers. A legal principle in 
support of anonymity will do a lot to spur the development of robust 
technologies of privacy.
    One argument that simply does not fly is that the surreptitious 
profiling of customers' private activities--what websites they visit, 
what articles they read, what pictures they watch--is necessary to 
support the Internet. That's an argument without bounds and one the Net 
advertisers should drop quickly if there is going to be a real 
discussion about how to protect privacy online. The Internet is growing 
rapidly in countries that do not permit these practices. In fact 
Internet penetration is higher in several countries that have stronger 
privacy rules than the United States.
    Consumers are serious about the need for privacy protection on the 
Internet, and they do not see a need to trade their privacy for their 
ability to use the Net.

The Danger of Notice and Choice
    Too often, the privacy problem is viewed as requiring the offering 
of notice and choice to consumers. But this is not the approach that 
the United States has typically taken to ensure privacy protection in 
other sectors, even those where there is rapidly changing technology. 
The privacy of cable subscriber records is protected because of a 
provision in the Cable Act. The privacy of video rental records is 
protected by the Video Privacy Protection. The privacy of telephone 
calling records is protected by a series of laws and regulations. But 
``choice'' is what consumers face where there is no baseline privacy 
protection.
    You have probably already heard about something called ``P3P'' and 
you are no doubt going to hear more about this in the future. This is a 
technical proposal developed by the World Wide Web consortium to 
facilitate the collection of personal information on the Internet. Many 
in industry believe that this standard will help solve the privacy 
problem because it will facilitate choice about privacy practices. But 
the real choice offered is not how to protect privacy, but how much 
privacy to give up. The FTC Chairman made the point very well that the 
reason we need privacy laws today is that consumers are too often asked 
to give up their privacy for some benefit.
    We need strong technical measures that give people greater control 
over the collection and use of personal information, and that limit 
where possible the collection and use of personal data. Consumers 
should not be forced to choose between the protection of privacy and 
the benefits of electronic commerce.

Recommendations
    First, we need privacy legislation to establish baseline standards 
for electronic commerce. Until there is legislation, you will see 
public protests grow. But in those sectors where there is good 
legislation, you will hear fewer complaints, except to see that the 
laws are in fact enforced. Even where companies are doing the right 
thing today, there is no assurance that they will continue to do so 
tomorrow. Remember that Doubleclick began with the exact same approach 
to Internet advertising that some today will hold up as a model. But 
that model collapsed because there were no baseline privacy rights in 
place to hold it up.
    Second, we need to look closely--with far more input from technical 
experts and experts in privacy--at how best to develop technologies 
that protect online privacy. Too many of these standard-setting 
discussions are dominated by the industry groups that have opposed 
privacy legislation and would much prefer technical standards that 
encourage people to trade privacy rather than to retain privacy. 
Privacy experts believe that we can develop good technical standards 
for privacy protection built on a legal framework that protects the 
interests of consumers and still encourages innovation. We do not think 
that users of the Internet should face a bewildering range of choices 
to protect their reasonable expectation of privacy in the collection 
and use of their personal information.
    We need a much broader right of access in the online world than 
currently exists in the offline world precisely because the online 
world enables such far-reaching profiling of private behavior in a way 
that is simply not possible in the physical world. The FTC's recent 
report on this subject failed to make clear this essential point.
    Any company that creates a persistent profile on a known user, or 
that could be linked to a known user, should be required to make known 
to that user all of the information that is acquired and how it is used 
in decisions affecting that person's life. The profile should always be 
only ``one-click'' away--there is no reason on the Internet that 
companies should force users to go through elaborate procedures or pay 
fees to obtain this information about themselves. Access will promote 
transparency and accountability. It is vital to consumer trust and 
confidence.
    It would also be appropriate in many cases to give individuals the 
right to compel a company to destroy a file that has been created 
improperly or used in a way that has caused some harm to the 
individual. Data could still be preserved in an aggregate form, but 
individuals should be able to tell a company that they no longer have 
permission to make use of the personal information that they have 
obtained.
    Finally, we need to think more deeply about the true nature of 
profiling in the online world. Profiling raises significant questions 
about identity, grouping, and what information people receive and what 
information they do not. Of course, such lines are drawn all the time, 
but it is the establishment of persistent profiles, beyond the control 
or scrutiny of the individuals affected, that can stigmatize and reduce 
opportunity for some even as they create benefits for others. Privacy 
law will help make companies more accountable and reduce the risk of 
unfair or inaccurate decisionmaking.

Conclusion
    We are not simply talking today about Internet privacy. More and 
more of our lives--entertainment, private communications, banking, 
reading, buying products, getting the news--all of this is taking place 
online. We are really talking about the future of privacy in the 
twenty-first century and whether there will be good standards in place 
to protect personal information or whether companies will be free to 
build secret, elaborate profiles that will determine where we go and 
what we see in this new world.
    Technology will clearly play a role in privacy protection. 
Technologies that protect privacy will enable online transactions 
without requiring the disclosure of actual identity as much as 
possible. Technologies that protect privacy will minimize or eliminate 
the collection of personally identifiable information.
    But technology is not enough. Legislation that enforces common-
sense Fair Information Practices is necessary to protect the interests 
of Internet users and it will also play a critical role in the 
development of these new technologies. It will protect privacy where 
privacy technologies have not been deployed. It will properly place 
burdens on companies that chose not to use good techniques to protect 
privacy. And it will support the development of technologies that will 
genuinely protect privacy.
    We are living in a time when we can still exercise choice over the 
future of the Internet. I don't mean simply the choice of a single 
person trying to comprehend a complicated privacy policy, but the 
choice of a country to safeguard its basic freedoms even as it enjoys 
the benefits of new technology. Legislation is the way we express this 
choice and legislation is the path toward technologies that will 
safeguard privacy interests in the future.
References
Phil Agre and Marc Rotenberg, eds., Technology and Privacy: The New 
Landscape (MIT Press 1997)

EPIC Doubleclick page
[www.epic.org/doubletrouble/]

EPIC, Online Guide to Practical Privacy Tools
[http://www.epic.org/privacy/tools.html]

Oscar H. Gandy, Jr., Exploring Identity and Identification in 
Cyberspace, Notre Dame Journal of Law (forthcoming)

Junkbusters Doubleclick page
[www.junkbusters.com/doubleclick.html]

Peter G. Neumann, Computer Related Risks (Addison Wesley 1995)

Marc Rotenberg, Testimony and Statement for the Record on The Online 
Privacy Protection Act of 1999, S. 809, Before the Subcommittee on 
Communications of the Senate Committee on Commerce, Science and 
Transportation, 106th Cong., 1st Sess. (July 27, 1999), reprinted in 
Congressional Digest, February 2000

``Weblining,'' Businessweek, March 26, 2000
[http://www.businessweek.com/2000/00--14/b3675017.htm]

``Kozmo Delivers `Consumer Racism?', MSNBC, April 12
[http://www.zdnet.com/zdnn/stories/news/0,4586,2534749,00.html]
Attachments
1. LIn the Matter of Doubleclick,, Complaint and Request for 
injunction, Request for Investigation and Other Relief, Electronic 
Privacy Information Center (EPIC), before the Federal Trade Commission, 
February 10, 2000
  [http://www.epic.org/privacy/internet/ftc/DCLK--complaint.pdf]

2. ``Privacy on the Internet,'' New York Times, February 22, 2000 
(editorial)
                                                       Attachment 1
                               Before the

                        Federal Trade Commission
                          Washington, DC 20580


In the Matter of                     )
                                     )
DoubleClick Inc.                     )
                                     )
---------------------------------------------------



             Complaint and Request for Injunction, Request
                 for Investigation and for Other Relief

                              INTRODUCTION

1. This complaint concerns the information collection practices of 
DoubleClick Inc. and its business partners. As is set forth in detail 
below, DoubleClick Inc. has engaged, and is engaging, in unfair and 
deceptive trade practices by tracking the online activities of Internet 
users and combining that tracking data with detailed personally-
identifiable information contained in a massive, national marketing 
database. DoubleClick Inc. engages in these activities without the 
knowledge or consent of the affected consumers, and in contravention of 
public assurances that the information it collects on the Internet 
would remain anonymous. The public interest requires the Commission to 
investigate these practices and to enjoin DoubleClick Inc. from 
violating the Federal Trade Commission Act, as alleged herein.

                                PARTIES

2. The Electronic Privacy Information Center (``EPIC'') is a public 
interest research organization in Washington, DC. EPIC is a project of 
the Fund for Constitutional Government (``FCG''). FCG is a non-profit 
charitable organization established in 1974 to protect civil liberties 
and constitutional rights. EPIC's activities include the review of 
governmental and private sector policies and practices to determine 
their possible impacts on individual privacy interests. Among its other 
activities, EPIC has prepared reports and presented Congressional and 
administrative agency testimony on Internet and privacy issues.

3. DoubleClick Inc. (``DoubleClick'') was organized as a Delaware 
corporation on January 23, 1996. DoubleClick's principal offices are 
located at 41 Madison Avenue, 32nd Floor, New York, New York 10010. At 
all times material to this complaint, DoubleClick's course of business, 
including the acts and practices alleged herein, has been and is in or 
affecting commerce, as ``commerce'' is defined in Section 4 of the FTC 
Act, 15 U.S.C. Sec. 44.

4. DoubleClick's business partners include more than 1,000 companies 
that have agreed to display DoubleClick advertising on the Web sites 
they operate and to enable the placement of ``cookies'' on the 
computers of Internet users who visit their Web sites. At all times 
material to this complaint, such companies' course of business, 
including the acts and practices alleged herein, has been and is in or 
affecting commerce, as ``commerce'' is defined in Section 4 of the FTC 
Act, 15 U.S.C. Sec. 44.

                  THE IMPORTANCE OF PRIVACY PROTECTION

5. The right of privacy is a personal and fundamental right in the law 
of the United States. The privacy of an individual is directly affected 
by the collection, use and dissemination of personal information. The 
opportunities for an individual to secure employment, insurance and 
credit, to obtain medical services, and the rights of due process may 
be endangered by the misuse of certain personal information.

6. U.S. privacy law has by tradition protected the privacy of consumers 
in the offering of new commercial services enabled by new technologies. 
For example, the Cable Act of 1984 protects the privacy of cable 
subscriber records created in connection with interactive television 
services. The Electronic Communications Privacy Act of 1986 protects 
the privacy of electronic mail transmitted over the Internet. The Video 
Privacy Protection Act of 1988 protects the privacy of rental records 
for video recordings of commercial programs made available to the 
public for home viewing.
7. Many Americans are today ``concerned'' or ``very concerned'' about 
the loss of privacy, particularly with regard to commercial 
transactions that take place over the Internet. One recent poll has 
indicated that the ``loss of personal privacy'' is the number one 
concern facing the United States in the twenty-first century.

8. The Federal Trade Commission today plays a critical role in 
protecting consumer privacy, particularly with respect to the offering 
of commercial services over the Internet, and the resulting collection 
and use of personal information.

                           STATEMENT OF FACTS

              DoubleClick's Tracking of Online Activities

9. DoubleClick is a leading provider of Internet-based advertising. The 
company places advertising messages on Web sites that are part of the 
``DoubleClick Network,'' which consists of highly-trafficked Web sites 
grouped together by DoubleClick in defined categories of interest. 
Participating sites include AltaVista, The Dilbert Zone, Macromedia, 
U.S. News Online, PBS Online, Multex Investor Network, Travelocity and 
Major League Baseball.

10. DoubleClick tracks the individual Internet users who receive ads at 
Web sites in the DoubleClick Network. When a user is first ``served'' 
an ad, DoubleClick assigns the user a unique number and records that 
number in the ``cookie'' file of the user's computer. When the user 
subsequently visits a Web site on which DoubleClick serves ads, 
DoubleClick reads and records that unique number. DoubleClick has 
acknowledged that ``Web sites usually place certain information 
(`cookies') on a user's hard drive usually without the user's knowledge 
or consent.'' \1\
---------------------------------------------------------------------------
    \1\ DoubleClick Inc. Form 10-K/A (Amendment No. 2) for Calendar 
Year Ended December 31, 1998.

11. Using the unique numbers contained in cookies, DoubleClick's 
``DART'' technology enables advertisers to target and deliver ads to 
Web users based on pre-selected criteria. As a user visits Web sites 
that utilize DoubleClick's technology, DART collects information 
regarding the user and his or her viewing activities and ad responses. 
According to DoubleClick, ``[t]he sophisticated tracking and reporting 
functionality incorporated into DART provides advertisers with accurate 
measurements of ad performance based on selected criteria.'' \2\ In 
early 1999, the company described the technology as follows:
---------------------------------------------------------------------------
    \2\ Id.

        DART's dynamic matching, targeting and delivery functions 
        enable Web advertisers to target their advertising based on a 
        variety of factors, including user interests, time of day, day 
        of week, organization name and size, domain type (i.e., 
        commercial, government, education, network), operating system, 
        server type and version, and keywords. In addition, DoubleClick 
        offers the ability to match geographic location of the user's 
        server and organization revenue, if known, through third-party 
        databases. . . . Further, in order to deliver the 
        advertisements on the pages that are likely to result in the 
        best response, DART improves its predictive capabilities by 
        continuously collecting anonymous information regarding the 
---------------------------------------------------------------------------
        user's viewing activities and ad responses.

Among other capabilities, DART technology allows advertisers ``to track 
a user to the advertiser's own Web site to determine what actions a 
user takes following a clickthrough.''

12. Through the use of cookies and DART technology, DoubleClick's 
collection of consumer information is extensive. In December 1998, the 
company received over 5.3 billion requests for the delivery of ads 
generated by approximately 6,400 Web sites. DoubleClick estimates that 
more than 48 million users worldwide visited Web sites within the 
DoubleClick Network during December 1998. According to Media Metrix, 
45.8% of Internet users in the United States visited Web sites within 
the DoubleClick Network during the same month. During the fourth 
quarter of 1998, DoubleClick placed approximately 18,000 Internet 
advertisements for over 2,300 advertisers. In calendar year 1998, 
DoubleClick's DART technology delivered approximately 34 billion 
advertising impressions worldwide.

13. DoubleClick reportedly has compiled approximately 100 million 
Internet user profiles to date.

              DoubleClick's Prior Assurances of Anonymity

14. DoubleClick has publicly represented that any information it 
collected about Internet users and their online activities was, and 
would remain, anonymous. Thus, the ``Privacy Policy'' displayed at the 
DoubleClick Web site in 1997 (attached hereto as Exhibit A) provided:

        DoubleClick does not know the name, e-mail address, phone 
        number, or home address of anybody who visits a site in the 
        DoubleClick Network. All users who receive an ad targeted by 
        DoubleClick's technology remain completely anonymous. Since we 
        do not have any information concerning names or addresses, we 
        do not sell or rent any such information to third parties. 
        Because of our efforts to keep users anonymous, the information 
        DoubleClick has is useful only across the DoubleClick Network, 
        and only in the context of ad selection.

The ``Privacy Policy'' displayed at the DoubleClick Web site in 1997 
did not state that it was ``subject to change,'' or otherwise indicate 
that the assurance of anonymity was in any way conditional.\3\
---------------------------------------------------------------------------
    \3\ The attached print-outs of material displayed at the 
DoubleClick Web site in previous years were obtained from cached copies 
of Web pages that EPIC accessed through the Google search engine at 
http://www.google.com/

Likewise, the ``Privacy Policy'' displayed at the DoubleClick Web site 
in 1998 (attached hereto as Exhibit B), when the company served some 34 
---------------------------------------------------------------------------
billion advertising impressions, provided:

        All users who receive an ad targeted by DoubleClick's 
        technology remain completely anonymous. We do not sell or rent 
        any information to third parties. Because of our efforts to 
        keep users anonymous, the information DoubleClick has is useful 
        only across sites using the DoubleClick technology and only in 
        the context of ad selection.

The ``Privacy Policy'' displayed at the DoubleClick Web site in 1998 
did not state that it was ``subject to change,'' or otherwise indicate 
that the assurance of anonymity was in any way conditional.

15. DoubleClick's business partners have similarly represented that 
DoubleClick cookies generated at their Web sites were anonymous and 
that no personally-identifiable information would be collected by 
DoubleClick or its business partners as a result of the placement of 
DoubleClick cookies.

               DoubleClick's Acquisition of Ababus Direct

16. On June 13, 1999, DoubleClick entered into an agreement to acquire 
Abacus Direct Corporation (``Abacus''), a leading provider of 
specialized consumer information and analysis for the direct marketing 
industry.

17. Abacus created and directs the Abacus Alliance, a cooperative 
arrangement through which more than 1,050 direct marketers contribute 
their customers' purchasing histories to Abacus for inclusion in a 
comprehensive database. As of December 31, 1998, the Abacus database 
contained over 88 million detailed buyer profiles compiled from records 
of over 2 billion catalog purchasing transactions. Abacus claims that 
the Abacus Alliance members include over 75% of the largest consumer 
merchandise catalogs in the United States. The database is continually 
enhanced as members contribute current sales transaction information 
and as additional companies join the Abacus Alliance.

18. Since at least as early as 1998, the Abacus database has contained 
information identifying and tracking the activities of Internet users. 
On November 2, 1998, Abacus formed a strategic alliance with Catalog 
City, Inc., an on-line catalog Web site offering on-line shopping 
services to catalog shoppers, to jointly promote each others services 
and share certain ``e-commerce data.'' That information includes 
consumer e-mail addresses and phone numbers, online transactions and 
``click data.''

      DoubleClick's Intention to Combine ``Personally-Identifiable
     Information'' and ``Non-Personally-Identifiable Information''

19. Subsequent to entering into the agreement to acquire Abacus, 
DoubleClick began to distance itself from its earlier assurances that 
users would ``remain completely anonymous.'' A revised ``Privacy 
Policy'' posted on the DoubleClick Web site in or around June 1999 
(attached hereto as Exhibit C) stated:

        In the course of delivering an ad to you, DoubleClick does not 
        collect any personally-identifiable information about you, such 
        as your name, address, phone number or e-mail address. 
        DoubleClick does, however, collect certain non-personally-
        identifiable information about you, such as the server your 
        computer is logged onto or your browser type (for example, 
        Netscape or Internet Explorer). The information collected by 
        DoubleClick is used for the purpose of targeting ads and 
        measuring ad effectiveness on behalf of DoubleClick's 
        advertisers and Web publishers who specifically request it. . . 
        .

        In addition, in connection solely with the delivery of ads via 
        DoubleClick technology to one particular Web publisher's Web 
        site, DoubleClick combines the non-personally-identifiable data 
        collected by DoubleClick from a user's computer with the log-in 
        name and demographic data about users collected by the Web 
        publisher and furnished to DoubleClick for the purpose of ad 
        targeting.

        There are some cases when a user voluntarily provides personal 
        information in response to an ad (a survey or purchase form, 
        for example). In these situations, DoubleClick (or a third 
        party engaged by DoubleClick) collects the information on 
        behalf of the advertiser and/or Web site. This information is 
        used by the advertiser and/or Web site so that you can receive 
        the goods, services or information that you requested. Where 
        indicated in some requests, DoubleClick may use this 
        information in aggregate form to get a more precise profile of 
        the type of individuals viewing ads or visiting the Web sites.

20. Under the heading of ``Future Plans,'' DoubleClick stated as 
follows in its revised ``Privacy Policy'' posted on the DoubleClick Web 
site in or around June 1999:

        On June 14, 1999, DoubleClick and Abacus Direct Corporation 
        announced their plan to merge in the third quarter of 1999. 
        Abacus currently maintains a database consisting of personally-
        identifiable information used primarily for off-line direct 
        marketing. DoubleClick has no rights or plans to use Abacus' 
        database information prior to the completion of the merger. 
        Upon completion of the merger, should DoubleClick ever match 
        the non-personally-identifiable information collected by 
        DoubleClick with Abacus' database information, DoubleClick will 
        revise this Privacy Statement to accurately reflect its 
        modified data collection and data use policies and ensure that 
        you have adequate notice of any changes and a choice to 
        participate.

There is no indication that DoubleClick's business partners, who 
operate the Web sites at which Internet users convey personally-
identifying cookies to DoubleClick, made similar revisions to the 
privacy statements posted at their Web sites.

21. On November 23, 1999, DoubleClick completed its acquisition of 
Abacus. For the first time, DoubleClick stated that ``personally-
identifiable information'' (including ``the user's name, address, 
retail, catalog and online purchase history, and demographic data'') 
would be combined with ``non-personally-identifiable information 
collected by DoubleClick from Web sites on the DoubleClick Network.'' 
Specifically, a revised ``Privacy Policy'' currently (as of February 9, 
2000) posted on the DoubleClick Web site (attached hereto as Exhibit D) 
states as follows:

        On November 23, 1999, DoubleClick Inc. completed its merger 
        with Abacus Direct Corporation. Abacus, now a division of 
        DoubleClick, will continue to operate Abacus Direct, the direct 
        mail element of the Abacus Alliance. In addition, Abacus has 
        begun building Abacus Online, the Internet element of the 
        Abacus Alliance.

        The Abacus Online portion of the Abacus Alliance will enable 
        U.S. consumers on the Internet to receive advertising messages 
        tailored to their individual interests. As with all DoubleClick 
        products and services, Abacus Online is fully committed to 
        offering online consumers notice about the collection and use 
        of personal information about them, and the choice not to 
        participate. Abacus Online will maintain a database consisting 
        of personally-identifiable information about those Internet 
        users who have received notice that their personal information 
        will be used for online marketing purposes and associated with 
        information about them available from other sources, and who 
        have been offered the choice not to receive these tailored 
        messages. The notice and opportunity to choose will appear on 
        those Web sites that contribute user information to the Abacus 
        Alliance, usually when the user is given the opportunity to 
        provide personally identifiable information (e.g., on a user 
        registration page, or on an order form).

        Abacus, on behalf of Internet retailers and advertisers, will 
        use statistical modeling techniques to identify those online 
        consumers in the Abacus Online database who would most likely 
        be interested in a particular product or service. All 
        advertising messages delivered to online consumers identified 
        by Abacus Online will be delivered by DoubleClick's patented 
        DART technology.

        Strict efforts will be made to ensure that all information in 
        the Abacus Online database is collected in a manner that gives 
        users clear notice and choice. Personally-identifiable 
        information in the Abacus Online database will not be sold or 
        disclosed to any merchant, advertiser or Web publisher.

        Name and address information volunteered by a user on an Abacus 
        Alliance Web site is associated by Abacus through the use of a 
        match code and the DoubleClick cookie with other information 
        about that individual. Information in the Abacus Online 
        database includes the user's name, address, retail, catalog and 
        online purchase history, and demographic data. The database 
        also includes the user's non-personally-identifiable 
        information collected by Web sites and other businesses with 
        which DoubleClick does business. Unless specifically disclosed 
        to the contrary in a Web site's privacy policy, most non-
        personally-identifiable information collected by DoubleClick 
        from Web sites on the DoubleClick Network is included in the 
        Abacus Online database. However, the Abacus Online database 
        will not associate any personally-identifiable medical, 
        financial, or sexual preference information with an individual. 
        Neither will it associate information from children.
         The Inadequacy of DoubleClick's ``Opt-Out'' Procedure
22. The most recent version of DoubleClick's ``Privacy Policy'' 
purports to offer users the ability to ``opt-out'' of the information 
sharing activities described above. It states, in pertinent part:

        While some third parties offer programs to manually delete your 
        cookies, DoubleClick goes one step further by offering you a 
        ``blank'' or ``opt-out cookie'' to prevent any data from being 
        associated with your browser or you individually. If you do not 
        want the benefits of cookies, there is a simple procedure that 
        allows you to deny or accept this feature. By denying 
        DoubleClick's cookies, ads delivered to you by DoubleClick can 
        only be targeted based on the non-personally-identifiable 
        information that is available from the Internet environment, 
        including information about your browser type and Internet 
        service provider. By denying the DoubleClick cookie, we are 
        unable to recognize your browser from one visit to the next, 
        and you may therefore notice that you receive the same ad 
        multiple times.

23. The vast majority of Internet users who receive cookies from 
DoubleClick never visit the DoubleClick Web site and therefore never 
learn of the ``opt-out'' procedures described by the company. 
DoubleClick cookies are placed on users' computers when users visit 
third-party Web sites that display ads placed by DoubleClick. Users are 
rarely given notice by such third-party Web sites that they need to 
visit the DoubleClick Web site in order to understand DoubleClick's 
data collection activities or learn about any available ``opt-out'' 
procedures.

24. A large percentage of DoubleClick cookies are placed on the 
computers of users who visit the AltaVista Web site. Approximately 
18.7% of DoubleClick's revenues for the nine months ended September 30, 
1999, resulted from advertisements delivered on or through the 
AltaVista Web site. Approximately 41.2% of DoubleClick's systems 
revenues for the nine months ended September 30, 1999, resulted from 
AltaVista billings.\4\
---------------------------------------------------------------------------
    \4\ DoubleClick Inc. Form 10-Q for the Quarterly Period Ended 
September 30, 1999

25. Visitors to the AltaVista Web site are not provided notice that 
their use of the AltaVista site will result in the placement of 
DoubleClick cookies on their computers. The AltaVista ``Privacy 
Policy'' displayed on February 9, 2000 (attached hereto as Exhibit E) 
---------------------------------------------------------------------------
provides, in pertinent part:

        AltaVista uses one or more third party companies to serve 
        advertisements at our site. These companies may use cookies to 
        ensure that you do not see the same advertisements too often, 
        but they also may collect information about you when you view 
        or click an advertisement at our site. Cookies that are 
        received with advertisements are read and placed by one of our 
        advertising companies, and AltaVista does not have access to 
        them, nor can we control how they are used.

The AltaVista ``Privacy Policy'' does not contain any reference to 
DoubleClick.
        Inaccurate Information Posted by DoubleClick's Partners
26. Some third-party Web sites that generate DoubleClick cookies do 
inform users of their relationship with DoubleClick and that 
DoubleClick places cookies on the computers of users who visit such 
third-party sites. Some of those Web sites continue to assure users 
that they will remain anonymous. For instance, the ``Privacy Stuff '' 
page at the Dilbert TV Web site (attached hereto as Exhibit F) 
displayed the following information on February 9, 2000:

        United Media contracts with DoubleClick to sell and manage the 
        advertisements that you see on this site. The advertisements 
        help us bring you the United Media site without charge. 
        DoubleClick uses ``cookies'' to improve the quality of your 
        visit to the Dilbert TV Web site. . . .

        DoubleClick uses cookies to make sure that you do not see the 
        same advertisements repeatedly and when possible, shows 
        advertising that is relevant to you based on what you have seen 
        previously. Cookies are anonymous. DoubleClick does not know 
        the name, e-mail address, phone number, or home address of 
        anybody who visits the United Media site or any other site in 
        the DoubleClick Network. All users receiving an ad from 
        DoubleClick through the United Media site therefore remain 
        entirely anonymous to DoubleClick; DoubleClick does not have 
        any information to sell or rent to other parties.

                 VIOLATIONS OF SECTION 5 OF THE FTC ACT

27. Section 5(a) of the FTC Act, 15 U.S.C. Sec. 45(a), prohibits unfair 
or deceptive acts or practices in or affecting commerce.

     DoubleClick's Activities Constitute Deceptive Trade Practices

28. DoubleClick has publicly represented that any information it 
collected about Internet users and their online activities was, and 
would remain, anonymous.

29. In truth and in fact, DoubleClick intends to combine data it has 
consistently described as ``non-personally-identifiable information'' 
with users' names, addresses, retail, catalog and online purchase 
histories, and other personally-identifiable information contained in 
the Abacus database. Therefore, DoubleClick's representations 
concerning the anonymity of information it collected and collects about 
Internet users were, and are, deceptive practices.

       DoubleClick's Activities Constitute Unfair Trade Practices

30. DoubleClick's collection of information about Internet users, 
through the placement of cookies on users' computers and the linkage of 
cookie-generated data with information contained in the Abacus 
database, is performed without the knowledge or consent of the great 
majority of Internet users who receive DoubleClick cookies. Users who 
receive DoubleClick cookies on their computers do not knowingly access 
the DoubleClick Web site. Many of DoubleClick's partners, who operate 
the Web sites which generate DoubleClick cookies, provide either no 
information or inaccurate information about the placement of such 
cookies and the manner in which data about users will be collected or 
used. As a result, the great majority of users who receive DoubleClick 
cookies neither know that their activities are being monitored, nor are 
aware of any ``opt-out'' procedures that might be available.

31. DoubleClick's collection of information about Internet users, 
through the placement of cookies on users' computers and the linkage of 
cookie-generated data with information contained in the Abacus 
database, without the knowledge or consent of Internet users, is likely 
to cause substantial injury to consumers which is not reasonably 
avoidable by consumers and not outweighed by countervailing benefits to 
consumers or competition, and therefore is an unfair practice.

32. DoubleClick has publicly represented that any information it 
collected about Internet users and their online activities was, and 
would remain, anonymous.

33. DoubleClick's plan to combine ``non-personally-identifiable 
information'' with users' names, addresses, retail, catalog and online 
purchase histories, and other personally-identifiable information 
contained in the Abacus database, in violation of its representations 
to the contrary, is likely to cause substantial injury to consumers 
which is not reasonably avoidable by consumers and not outweighed by 
countervailing benefits to consumers or competition, and therefore is 
an unfair practice.

                            Consumer Injury

34. DoubleClick's conduct, as set forth above, has injured consumers 
throughout the United States by invading their privacy; using 
information obtained through the placement of DoubleClick cookies in 
ways and for purposes other than those consented to or relied upon by 
such consumers; causing them to believe, falsely, that their online 
activities would remain anonymous; and undermining their ability to 
avail themselves of the privacy protections promised by online 
companies.

35. Absent injunctive relief by the Commission, DoubleClick is likely 
to continue to injure consumers and harm the public interest.

36. Absent injunctive relief by the Commission in this matter, other 
companies will be encouraged to collect personally-identifiable 
information from consumers in an unfair and deceptive manner.

37. Absent injunctive relief by the Commission in this matter, the 
privacy interests of consumers engaging in online commerce and other 
Internet activities will be significantly diminished.

                           REQUEST FOR RELIEF

WHEREFORE, EPIC requests that the Commission:

A. Initiate an investigation into the information collection and 
advertising practices of DoubleClick and the Web sites on which 
DoubleClick places advertisements and/or generates cookies on the 
computers of Internet users;

B. Order DoubleClick to destroy all records it created concerning 
Internet users during any period of time in which DoubleClick or any of 
its business partners were assuring the anonymity of the information 
DoubleClick collected;

C. Order DoubleClick to obtain the express consent of any Internet user 
about whom DoubleClick intends to create a personally-identifiable 
record, and to develop such means as are necessary to ensure that the 
user has access to the complete contents of the record;

D. Order DoubleClick to pay a civil penalty equal to fifty percent 
(50%) of the revenues it obtained as a result of the practices 
described herein, or such other civil penalty as may be appropriate;

E. Permanently enjoin DoubleClick from violating the FTC Act, as 
alleged herein; and

F. Provide such other relief as the Commission finds necessary to 
redress injury to consumers resulting from DoubleClick's violations of 
the FTC Act.

Respectfully Submitted,


Marc Rotenberg                                           David L. Sobel
Executive Director                                       General Counsel


                                 ______
                                 
                                                       Attachment 2
                        Privacy on the Internet
                   February 22, 2000, New York Times

    As the Internet matures, preserving user privacy and anonymity is 
becoming a significant problem. Technology now makes it possible for 
online businesses and advertisers to turn the Internet into a realm 
where activities and habits are monitored and recorded, largely without 
consumer knowledge or consent. Unless businesses can protect privacy, 
the erosion of trust could seriously harm e-commerce as well as cause 
the public to become wary about using the Internet for education, 
research and other important non-commercial functions.
    In the offline world, a big part of personal privacy is simply the 
freedom to remain a face in the crowd. No one tracks a shopper as he 
visits various stores in a mall or keeps notes on what products he 
looks at. But in cyberspace, that shopper's behavior--which Web sites 
he visits, and which ads he clicks on--can all be instantly recorded 
and compiled, albeit through computer-based identifiers rather than by 
name. Most consumers have little idea that unseen advertising networks 
on the Internet track their movements across multiple Web sites. Most 
do not know that Web sites can collect and sell data about them. But 
consumer concerns are rising, and businesses are getting worried about 
a privacy backlash.
    This month the Electronic Privacy Information Center, an advocacy 
group, filed a complaint against DoubleClick with the Federal Trade 
Commission, alleging unfair trade practices in its tracking of the 
online activities of millions of Internet users. DoubleClick, the 
leading Internet advertising company, places ads for its clients on 
about 1,500 Web sites--including many of the most heavily used sites 
such as AltaVista--that are part of the DoubleClick network. When a 
computer user views an ad on a network site, DoubleClick places a 
``cookie'' file on the user's computer hard drive that carries a 
special identifying number. The cookie allows DoubleClick to monitor 
the user's computer--though without being able to identify the user by 
name or address--whenever he visits a network site, and note the 
content he is viewing to deliver a targeted ad that is customized to a 
user's interests.
    Last year DoubleClick acquired Abacus Direct, a company that has a 
database of millions of names, addresses and other personal information 
collected by the nation's largest direct-mail catalogues. Now 
DoubleClick is building an online version of Abacus, and will be able 
to match personally identifiable information on purchasers collected by 
the online Abacus with DoubleClick's data on those individuals' 
subsequent Web activities.
    DoubleClick says it will give users the opportunity to opt out of 
this matching. But privacy advocates fear that this kind of data 
collection will become widespread in cyberspace, and that personal 
information--from browsing habits to the research one might do on the 
Web--could potentially be released to employers, insurers and others. 
Industry's answer to these worries is self-regulation and the creation 
of privacy policies. Unfortunately, even good policies are largely 
unenforceable. A new study by the California HealthCare Foundation of 
21 major health-related Web sites found that many violated their own 
stated privacy policies, and shared personal information collected from 
visitors without their permission.
    One solution is to give users easier ways to block the collection 
of information. DoubleClick, responding to public criticism, has begun 
a campaign to tell users how to opt out of tracking. The World Wide Web 
Consortium, the group that designs standards for the Web, is creating a 
new way for Web sites to transmit the site's privacy policy 
automatically, and allow users to signal only the information they are 
willing to share.
    Also, several Internet privacy bills have been introduced in 
Congress. Businesses are concerned that government regulations could 
hinder the Internet's dynamism. Many users may want to receive ads 
aimed at their interests. But all users should get a meaningful choice 
about how personal data are collected and used. Maintaining privacy 
will be integral to the Internet's future, if only because consumers 
need to feel safe enough to participate.

    The Chairman. Thank you very much.
    Mr. Smith, welcome.

        STATEMENT OF RICHARD SMITH, INTERNET CONSULTANT

    Mr. Smith. Thank you for the invitation here to speak today 
before this Committee. My background is technical. I have been 
in the computer business for approximately 30 years and have 
also run my own businesses for about the last 20 years.
    Since September of this past year, I have taken a 
sabbatical and begun looking at the issues of Internet privacy 
and security. What I would like to do today is talk a little 
bit and expand upon the excellent presentation that was made by 
Jodie of the FTC here of some of the technology that is going 
on behind the scenes here.
    In my written testimony, I have--I want to start off here 
with exhibit A here, as I call it, which illustrates one of the 
issues of how ad targeting is done today. This is from the 
AltaVista search engine. If you have used the search engine, 
you probably noticed after a while that the banner ads that you 
see at the search engine are related to what you are searching 
for. This is not an accident, because companies can purchase 
keywords and whatever keyword you type in you get a relevant 
ad. So for example, here I have typed in ``sports cars'' and I 
get a Toyota ad. I type in ``vacation homes'' and I get an ad 
for move.com.
    This practice has been going on for 3 or 4 years and is 
really, I would say, not necessarily a privacy-unfriendly 
technology. But we get down into some other interesting issues 
here. I found this one accidentally. I typed in ``growing pot'' 
and I got an anti-drug ad. This actually comes from the White 
House, so even the government is involved in buying these 
keywords.
    We are doing some medical conditions here. I typed in 
``AIDS'' and get a pitch for an anti-HIV drug. ``Compulsive 
gambling,'' I get a banner ad for an online casino. I think 
that is a little mess-up there.
    Given the political nature of this today, I thought I would 
also try ``Al Gore'' and ``George Bush'' here. It looked like 
they are owned--pardon me--the keywords are owned by women.com.
    The idea here is that this illustrates sort of the birth of 
online profiling, is that the Internet ad companies noticed 
that you could begin discerning a lot about people by how they 
search. This is, as Daniel has talked about, one of the ways 
that information is put into our profiles, by watching 
everything we search for. As a matter of fact, at the AltaVista 
search engine, Engage today is using this kind of information.
    I want to go on to the topic of web bugs because that came 
up a little bit earlier. It is a technology. Basically the idea 
is you have a web page and you put an invisible image on the 
page, if you are a network advertiser or a marketing company, 
to monitor who comes to web pages. They act like banner ads in 
the sense that they provide back the same information, but they 
obviously, they are totally hidden. They are only one by one 
pixel in size.
    The problem that I have with them is I think they have very 
much undermined the trust in the Internet because they are very 
much a tracking device. Some sites that have web bugs on them 
today are I think we would all agree very sensitive in nature. 
For example, Procrit, it is a drug from Johnson and Johnson, 
has approximately five web bugs on the website from 
DoubleClick. The home page is one of the pages bugged, as well 
as each of the conditions, the page on AIDS, the page on kidney 
diseases, and the page on cancer.
    So we can see in this case here that DoubleClick has been 
hired to do monitoring of users at that site. So I am kind of 
interested about this idea that network advertisers do not get 
into monitoring sensitive issues.
    Another technology, or it is not really a technology, but a 
problem that we have with network advertisers, is that of what 
I term as data spills. The idea behind a data spill is that if 
you type in data on a web form and it goes into the website--
for example, an example I found was at Intuit you would type in 
information about your financial information to see if you 
could get a mortgage. That information was accidentally leaked 
off to DoubleClick through the use of banner ads.
    This is a bug, this is a problem or a mistake that the 
Intuit website made, but that does illustrate that this data 
that is being sent in to the ad networks sometimes is very 
personal in nature. In a two-month period, for example, I found 
approximately ten data leaks to DoubleClick--things like my 
name, address, and e-mail address.
    Another issue that I would like to get into real quickly 
here is the issue of notice. The industry talks about one of 
the things that we need here is notice and the idea that 
websites would link to the privacy policies of network 
advertisers so they could learn about the online profiling. 
Well, over the weekend I did a quick check here with the 
AltaVista search engine and found, for example, with the case 
of DoubleClick, although they have 12,000 websites that they 
provide banner ads to, only about 130 of those sites had links 
to their privacy policy. So if you wanted to opt out at 
DoubleClick, there are very little ways to understand about 
that.
    The same thing was true with Engage and its family of 
companies. AltaVista shows less than a hundred links to their 
privacy policies.
    Finally, I would like to end up my testimony with just a 
quick remark to give folks an idea how different the Internet 
is than any other media in terms of tracking. On my computer I 
monitor all traffic that goes in and out of the computer on the 
Internet. Over the past 6 months I have had 250,000 
transactions, that is web pages and images and java script 
applets that have been downloaded. Of those, 27,000 URL's went 
back to DoubleClick. So they got back 27,000 URL's of web pages 
that I was at.
    So we are dealing with a very different medium than 
anything else in the offline world. For example, my credit card 
company, my bank, and my telephone company do not know about 
anywhere--do not get that amount of information about me each 
and every day. That works out to about 150 transactions a day.
    Thank you very much.
    [The prepared statement of Mr. Smith follows:]

        Prepared Statement of Richard Smith, Internet Consultant

Introduction

    To begin with, I would like to first thank the Chairman and the 
Senate Committee on Commerce, Science, and Transportation for this 
opportunity to testify today on the issue of online profiling and its 
impact on consumer privacy. It is indeed an honor to be here.
    My own background is that I have spent almost 30 years in the 
computer software business both as a software engineer as well as a 
business owner. I retired last September as the President of Phar Lap 
Software, Inc., a company I co-founded 14 years ago. Since leaving Phar 
Lap, I have worked as a consultant specializing in Internet security 
and privacy issues.
    The issue of online profiling is very controversial. The reason is 
quite simple to understand. Most consumers are very bothered by the 
fact that companies are monitoring their Web surfing habits. In 
addition, consumers are almost never informed about these monitoring 
activities and have never been asked if it is okay. To many people who 
learn about online profiling for the first time, their first impression 
is that it is something right out of Orwell's 1984.
    In my testimony today, I will be focusing on two major areas. To 
begin with, I will talk about how data is collected by Internet ad 
companies for use in online profiles. To date, I do not think that ad 
companies have been totally straight with consumers with their data 
collection practices. The second area I want to talk about today is the 
lack of proper notice to consumers about online profiling. I will be 
using real-life examples of some of things that I have seen in my own 
use of the Internet.
    Along the way, I want to also suggest an alternative to online 
profiling which is content-based targeting for banner ads. Content-
based targeting is typically employed in the off-line world 
(newspapers, TV, and magazines). It is much more privacy friendly than 
online profiling because it requires no tracking of individual users as 
they surf the Internet. The most banner ads shown today are already 
using content-based targeting because it is easy to understand and 
favored by advertisers.

How Data Is Collected For Online Profiles
    To begin the discussion of data collection practices of Internet ad 
companies, the best place to start looking is at Internet search engine 
sites. Everyone seems to have their own favorite search engine and mine 
happens to be AltaVista. It also turns out that the AltaVista site has 
business relationships with DoubleClick and Engage who both are also 
testifying here today.
    Most people probably have noticed at one time or another that the 
banner ads that they see on a search results page are related to what 
they are searching for. This is no accident. AltaVista employs 
DoubleClick to show banner ads at the site. One of the services that 
DoubleClick provides for advertisers is the ability to ``purchase'' 
keywords at the site. When a company owns a particular keyword or 
phrase, their banner ads will appear of the search results page for the 
keyword or phrase. Keywords are typically purchased on a month-by-month 
basis. They can be purchased either on an exclusive basis or can be 
shared with other companies.
    Exhibit A illustrates how some common keywords such as ``sports 
cars'' and ``vacation homes'' will show relevant banner ads at 
AltaVista. A version of Exhibit A is also available at my Web site that 
shows in real-time what banner ads are being shown for common keywords. 
This demonstration is available at:

        http://www.tiac.net/users/smiths/commerce/avads.htm

    Advertisers like keyword targeted ads because it is more likely 
that people seeing their ads will be interested in their products. 
DoubleClick and AltaVista also like keyword targeted ads because they 
can charge a premium for them. This premium is typically 2 to 3 times 
more than standard ads at AltaVista.
    But what about the consumer? How do they feel about keyword-
targeted ads? The answers are a bit more difficult to come by. When 
many consumers notice keyword-targeted ads for the first time they get 
a bit uncomfortable. They realize that someone is watching them as they 
search the Internet with AltaVista. Most folks do not like to be 
watched and one of the first association that comes to mind is 1984. On 
the other hand, I think most people will agree that if they are going 
to see banner ads at Web sites, they might as well be relevant to their 
interests.
    AltaVista did not help matters much, because until January of this 
year, they did not disclose to users that banner ads can be targeted to 
search phrases. They also have made mixed efforts in informing users 
about their relationship with DoubleClick. However, a savvy Web user 
today who reads the AltaVista privacy policy will learn both about 
keyword-targeted ads and DoubleClick.
    So do keyword-targeted ads present a privacy problem for users? I 
personally do not think so. In the Yellows Pages, we see ads for car 
dealerships in the automobile section. The same is true with the search 
results page for ``cars'' at AltaVista. I believe that this type of 
content-based targeting is valuable to both advertisers and consumers. 
It is an example of good Internet marketing.
    However, there still are the concerns of consumers that they are 
being watched when they see keyword-targeted ads. How can these 
concerns be addressed? The first part of the solution is to provide 
adequate notice to consumers about the practice. For example, some of 
the search engine companies are now disclosing this practice in their 
privacy policies. The real answer for consumers is to make it clear 
that that their search strings are never saved in a database. Except 
for keeping aggregate statistics on the popularity of keywords, 
people's search strings should be discarded. More about this issue 
shortly.
    But how does DoubleClick know what ad to display for a search 
keyword in the first place? Very simply, AltaVista gives DoubleClick, 
everyone's search strings. The hand-off is done right on the search 
results page. A banner ad is displayed as a image, and the URL of image 
is specially constructed by AltaVista to include the search string. 
Here is what one of these banner ad image tags looks like for the 
search string ``sports cars'':

        <IMG SRC=``http://ad.doubleclick.net/ad/altavista.digital.com
        /result--front;kw=sports+cars;cat=totext;ord=1804224227?''
        border=0 height=60 width=468>

    You will notice that the search string is embedded as the ``kw'' 
parameter in the image URL.
    So DoubleClick is being sent everyone's search strings at 
AltaVista. Pretty obviously you can learn a lot about a person by 
observing what they are searching for on the Internet. The ad network 
companies have realized this also and invented the idea of online 
profiling. The basic concept is for the ad server computers of the ad 
companies to track over time what an individual is searching for and to 
provide relevant ads to according to their search history. These 
personalized banner ads can be shown whenever someone searches for a 
keyword that has not been purchased by an advertiser. These same 
personalized ads can also be shown at other Web sites in the same ad 
network.
    However it is pretty cumbersome for an ad network to remember every 
little search string that someone has used. Such a list does not lend 
itself to quickly selecting an ad for a user. In general, an ad server 
must decide on what ad a user sees in about 1/100 of a second. So in 
order to meet this time constraint, Internet ad companies instead build 
profiles of people. A profile is a table that rates a person on their 
level of interest in particular subjects. A profile might contain up to 
a thousand different subjects areas. These subjects areas might include 
things like sports (golf, tennis, football, etc.), travel (US, Canada, 
Europe, etc.) and food (cooking, gardening, etc.). A person is then 
scored for each of these subject areas. A score is a percentage. Zero 
percentage meaning no interesting, while one hundred percentage means 
extremely interested. These scores are updated in real-time from search 
strings and other data.
    Advertisers can then target groups of users by instructing an 
Internet ad network to show their ads to people who have certain 
characteristics in their profiles. For example, a ski resort may want 
to have their ads to be shown only to people who appear by their 
profiles to have a strong interest in skiing. The targeting might also 
be indirect. A car company might target ads for their luxury models at 
people who show an interest in European travel, while their middle-of-
the-road models might be pitched to people who show an interest in 
American travel.
    An online profile is created for a user the first time they are 
shown a banner ad from a particular Internet ad network. All of the 
scores in the profile are set to zero. The profile is stored at the ad 
server computers. It is updated in real-time according to the following 
information that is received by Internet ad networks:

  <bullet> What search strings an individual searches for

  <bullet> What Web pages an individual visits

  <bullet> What banner ads an individual clicks on

    A user can be tracked by an Internet ad company on any Web page 
that a banner ad appears that is served by the company.
    In addition to their profile, a user is also assigned a unique 
customer ID number. This ID number is stored with the profile to 
identify who the profile belongs to. The ID number is also sent back to 
the user's computer as a cookie and stored on the hard drive of the 
computer. Then as the user surfs the Web and is shown more banner ads, 
this customer ID number is sent back to the Internet ad network with 
each and every request for a banner ad. The cookie is the mechanism 
that allows Internet ad networks to track people over time.
    Cookies are anonymous in the sense that they do not say who a 
person is. However, personal information can be associated with a 
cookie and stored with a profile if a user provides this information to 
an Internet ad company. This is typically done using some sort of 
online contest or sweepstake where users are required to provide their 
names, addresses, and phone numbers. As an example, DoubleClick 
operates a Web site called NetDeals (http://www.netdeals.com) for this 
purpose.
    In addition, using a technique called ``cookie synchronization'', 
it is possible for one Web site to provide an Internet ad network with 
personal and demographic data about users. Again this information can 
be associated with a cookie and stored in an online profile. 
Excite@Home is apparently using this technique to provide registration 
data to its sister company, MatchLogic, an Internet ad company.
    On paper, the economic benefits of online profiling seem self-
evident. In theory, a profiled banner ad should have an increased 
response rate because it is being better targeted. Advertisers can 
purchase a smaller number of ad impressions in order to get the same 
results. Ad networks can charge more money per ad impression because 
the higher perceived value. Consumers are suppose to benefit because 
they will see less ads about products that they no interest in.
    However in practice, the value of online profiling is yet to be 
proven. The industry has not released any studies that show response 
rates are significantly higher for profiled ads. In addition, the 
response rates need to go up more than the costs of profiling. These 
costs include the premium paid for ads themselves plus the time it 
takes to figure out what profile works best for a particular ad. This 
second point is very important. It is unclear if advertisers can use 
all of the data that Internet ad companies can provide them. This point 
was made recently in a New York Times article by Saul Hansell:

        ``So Far, Big Brother Isn't Big Business''
        http://www.nytimes.com/library/financial/personal/
        050700personal-privacy.html
        May 7, 2000

         ``The few advertisers that have tried these systems have not 
        yet given up on them. But most say the response to their ads 
        does not go up enough to be worth the extra cost and bother. It 
        seems easier for them to buy cheap shotguns, in effect, than 
        expensive laser-guided rifles.''

    Regardless if online profiling systems make economic sense or not, 
from a privacy standpoint, they present some real dangers. These 
systems are monitoring people as they surf Internet. What data is being 
collected and what is being saved away is not made very clear. All of 
the uses of this data is not disclosed and may change over time. Also 
in spite of claims by Internet ad companies that the profiles are 
anonymous almost all of these companies maintain separate databases 
with personal data that can be combine with the anonymous profiles at 
anytime using cookie synchronization.
    However the real danger that I see with online profiling is that 
Internet ad companies have set up extensive monitoring systems to 
provide data for profiling. It is almost like they have put hidden 
microphones in our homes and our offices and they listening to what we 
do all day long. Pretty obviously if you deploy hidden microphones, you 
are going to pick up information which is personal in nature. And this 
is exactly what I have found on my own computer. The data collection 
systems that the Internet ad companies are currently running are 
getting personal and sensitive information that almost everyone will 
agree is none of the business of these companies. The problem here is 
one of collateral damage
Data Spills
    The first problem that I have seen at many Web sites is the problem 
of data spills. A data spill is where information that is typed into a 
form at a Web site is accidentally sent off to an Internet ad company. 
Data spills are caused by poor Web site design Because I do logging of 
my Internet traffic from my computer, I can detect data spills. In a 
two-month period, I found close to 10 data spills of personal data to 
DoubleClick. These data spills include things like my name, home 
address, Email address, and birth date. Web sites that were sending off 
this data to DoubleClick included well-known sites like AltaVista, Real 
Networks, HealthCentral, Quicken, and Travelocity.
    My Web site includes a write-up that describes how data spills 
occur in the first place and how they can be prevented. The URL of the 
write-up is available at:

        http://www.tiac.net/users/smiths/privacy/banads.htm

    In the write-up, I talk mostly about DoubleClick. They are going to 
be receiving the most information from data spills given that they are 
largest provider of banner ads. However, the problem can occur with any 
banner ad network and all companies are receiving this kind of personal 
data from Internet users. A recent example of data spill really 
illustrates the point. I found that on my computer the sign-up page for 
the contest Web site, Jackpot.com, gave away my Email address to three 
different companies all at the same time. The companies receiving my 
Email address were Flycast, YesMail, and Sabela. The Jackpot.com 
privacy policy states they never share personal data, but they seem to 
have a tough time keeping this promise. My enquiry to the company about 
the issue was answered with a denial that there was any problem. The 
customer support person simply repeated the claims of the privacy 
policy.
    In general, Jackpot.com is the exception rather than the rule. 
Other Web sites have been more response and fixed the problems right 
away when I have brought them to their attention. In addition, in some 
discussions I have had with the Internet ad companies, they have made 
it clear that they do not want this of type of unsolicited personal 
information from users. However, from their perspective it is a problem 
they cannot directly solve because the issues are with the Web sites 
running the banner ads and not at the ad servers.
    In the near term, I am hoping to see Internet ad companies publicly 
commit to not use this unsolicited personal data from data spills. The 
best place to do this I think is in their privacy policies. The idea 
here is to acknowledge the problem that Web sites may accidentally give 
away personal data, but the Internet ad networks will discard it and 
not make use it.
    Over the long term, there is a simple technology solution to the 
problem that can be implemented by Web browser companies. This solution 
involves eliminating referring URLs for being sent in situations where 
a data spill is likely to occur. Referring URLs can contain the 
personal data in a data spill.
Web Bugs
    Besides banner ads, Internet Ad companies also track users with 
something I've nicknamed ``Web Bugs.'' A Web Bug is an invisible image 
on a Web page that sends back the cookie of an Internet ad company to 
their servers. The main purpose of a Web Bug is to track what pages 
users are going to the Internet. Given that images are invisible on the 
page, the averagel user has no way of knowing that they are being 
tracked in this manner. In addition, to my knowledge, no Web site or 
Internet ad company has every disclosed the use of Web Bugs in their 
privacy policies.
    Pretty obviously, people in the Internet ad business do not call 
these invisible images ``Web Bugs'. Instead they use names like ``clear 
GIFs'', ``1-by-1 pixels'', ``tracker GIFs'', and sensors. Since no one 
has come up with a consistent name for them, I will continue to use the 
term ``Web Bugs''.
    Even though there has not been very much public discussion about 
Web Bugs, they seemed to be employed by most Internet marketing 
companies. In my discussions with these companies, I have been told 
that they are used for these purposes:

  <bullet> The see who has come to a Web site after viewing a banner ad

  <bullet> To transfer both personal and non-personal information from 
        a Web site to an Internet ad company

  <bullet> To provide data to an online profile

  <bullet> To count ad impressions and page hits

    More technical information on Web Bugs can be found at my Web site 
at this URL:

        http://www.tiac.net/users/smiths/privacy/wbfaq.htm

    In addition, I have set up search page that will locate Web pages 
that employ Web Bugs. The page operates by giving special search string 
to AltaVista that has located the hidden images. The URL of the search 
page is:

        http://www.tiac.net/users/smiths/privacy/wbfind.htm

    The page will locate Web Bugs that have been placed around the 
Internet from more than 20 different Internet marketing companies
    Although Internet ad companies represent that they do not do 
profiling of sensitive areas such as children, medical, financial, and 
sexual issues, most of them will use Web Bugs on pages that deal with 
these areas. Here are a few illustrations of Web pages that employ Web 
bugs that I believe most people will find troubling:

  <bullet> Kids Zone of Santa.com (http://www.santa.com/santa/kidszone/
        index.htm)

  <bullet> Procrit.com (http://www.procrit.com)

  <bullet> Rodale Press (http://www.sexamansguide.com/a/home/
        order.rhtml)

  <bullet> Metropolitan Life
        (http://metlife.com/Salescareers/Apply/Docs/
        online_interview.html)

    The Procrit Web site is the most interesting use of Web Bugs on the 
list. Procrit is product of Ortho Biotech which is a subsidiary of 
Johnson and Johnson. The drug is used to fight anemia in patients with 
a number of different conditions including AIDS, cancer, and kidney 
disease. Hidden image files from DoubleClick are strategically placed 
on the Procrit Web site in order to distinguish if someone is at the 
site because they are interested in treatments because of AIDS vs. 
cancer vs. kidney disease. Needless to say, I believe that most 
visitors to the Procrit site would be very surprised to learn they are 
being monitored in this way. However, unless someone understands HTML 
source code and knows where to look, they would never see the Web Bugs 
at the site.
    Web Bugs appeared to be employed by all of the Internet ad 
companies. AltaVista has found more 30,000 placed by DoubleClick and 
about 1,000 placed by Engage. Be Free, another Internet marketing 
company, has more a half of a million according to AltaVista.
    Personally I am surprised that Web Bugs are ever used. When 
discovered, they undermine people's trust in Web sites. Some sites I 
know have stopped using Web Bugs when they received enquires from the 
press and consumers about their presences on the sites. Two such sites 
were Nabisco Kids and the United States Air Force. Web Bugs are also 
playing a role in a number of the privacy lawsuits that have been filed 
against Web site and Internet ad companies.
    The problem that I see with Web Bugs is that supply information on 
the sly to Internet ad companies that can be used in personal profiles. 
Given that this tracking is being done with no notice or consent, I 
find use of Web Bugs very problematic.

Notice and Banner Ad Networks
    I want to shift gears for a second and talk about the problem of 
notice with online profiling. Most consumers are unlikely to be aware 
that they are being tracked as they surf the Web. I suspect that most 
consumers would be surprised that their computers are sending back 
information to Internet ad companies about what articles and Web pages 
they are reading online. They would probably also be more even dismayed 
to learn that some of this information actually is being used for 
profiling purposes. Most consumers are in the frame of mind that Web is 
just like other media such as television or newspapers. Reading an 
article in a newspaper is obviously anonymous unless a person chooses 
to tell someone else about what they have read. However, reading the 
same article in the online world can be very different. Two or three 
different companies may know what article someone has read, how long 
the article took to read it, and where the person went on the Web when 
they were done.
    Over the last 3 or 4 years, the industry has settle on the use of 
Web site privacy policies to inform consumers about what data is being 
collected by a Web site and what is done with the data. Today almost 
all popular Internet sites have privacy policies in places. In most 
areas these privacy policies do an acceptable job of inform a consumer 
what they can expect with information. One very notable exception is 
the use of online profiling at their sites.
    In addition, all of the major Internet ad companies also have 
privacy policies that describe how banner ad networks work, what data 
is being collected by these networks, and the details of online 
profiling. Also, most of the Internet ad companies offer an ``OPT-OUT'' 
to allow consumers the ability to turn off tracking and profiling.
    However, there is one major flaw with the privacy policies of 
Internet ad companies. Consumers have almost no way of ever seeing 
these privacy policies. The problem here is the Internet ad companies 
are hidden in the background at Web sites and consumers by and large do 
not know anything about the companies. Web sites, in the own privacy 
policies, have not helped the situation very much for consumer. 
Although a Web site privacy policy may talk some about the Internet ad 
company they use, Web sites almost never link to the privacy policy of 
ad networks. For example, the AltaVista search engine finds less than 
150 links to DoubleClick's privacy policy. Yet, DoubleClick has more 
than 12,000 Web sites that they provide banner ads for. A similar 
situation exists for Engage, less than 100 links are found to the 
Engage privacy policy, yet Engage and its sister companies provide 
banner ads for more than 6,000 sites.
    There clearly is a problem here of Internet ad companies providing 
proper notice about online profiling.

Conclusion
    The bottom line for me on online profiling is that Internet ad 
companies are getting too much data about us. Their ad networks 
function as tracking systems the gather data about us from search 
strings, banners ads on Web pages we visit, data spills, and Web Bugs. 
Clearly the data collection systems of the Internet ad companies are 
gathering more information about us than is necessary to show banner 
ads.
    I know that many people involved in regulation issues around 
Internet advertising support the concept of OPT-OUT from online 
profiling. At the present time, I feel extremely uncomfortable with 
OPT-OUT for the following reasons:

  <bullet> It is nearly impossible for consumers to learn about how 
        they can OPT-OUT to online profiling because of lack of almost 
        any kind of reasonable notice about online profiling.

  <bullet> Invisible Web Bugs can provide data to the online profiles 
        and consumers have no method of knowing that they are being 
        tracked.

  <bullet> Data spills are providing personal data about users to 
        Internet ad companies and the industry has taken no public 
        steps to stop the problem

  <bullet> Many of Internet ad companies have divisions or sister 
        companies that maintain databases of personally identified data 
        that can be combined with the anonymous profiles at any time.

    I want to conclude my testimony with one quick statistic from my 
own travels around the Internet. As I mentioned earlier, I run software 
on computer that logs all of my transactions on the Internet. The last 
6 months, I had about 250,000 Web transactions total. More than 10% of 
these transactions were with DoubleClick. This works out to about 150 
transactions per day. This means that DoubeClick is receiving 150 URLs 
of Web pages I am visiting each and everyday. In the offline world, I 
cannot think of one company that it is getting this amount of data 
about me. Not my phone company, not my bank, and not my credit card 
company.
    Thank you again for this opportunity to address the Senate Commerce 
Committee.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Smith.
    Mr. Polonetsky, you know that we discussed DoubleClick's 
``permission'' in order that one can opt out at the last 
hearing. Now you are going to simplify that, according to your 
testimony.
    Mr. Polonetsky. Yes, the proposed simplified policy that we 
have given to your staff, and we welcome your reaction, is a 
one-page clear, effective explanation of what the privacy 
policy is. I think that, in an effort to give all the possible 
information that anybody might want, our earlier privacy policy 
was, as you pointed out, long and detailed and complex.
    The Chairman. Why was it like that to start with?
    Mr. Polonetsky. I think we felt that we ought to give all 
the information that anybody would want in all the detail 
should anybody want to have all that detail. I think what we 
need to do is put a cover page that has the simple, basic 
information, with an opportunity to get more detail if you want 
to click on a link and get that information.
    The Chairman. Well, I guess I will ask you and Mr. Jaye: 
According to Mr. Smith, the AltaVista search engine finds, as 
he said, less than 150 links to your privacy policy and yet you 
have 12,000 websites that you provide banner ads for. In your 
case, Mr. Jaye, less than 100 links were found to Engage's 
privacy policy, yet Engage and its sister companies provide 
banner ads for more than 6,000 sites.
    What is your response to that, Mr. Jaye?
    Mr. Jaye. Unfortunately, Mr. Smith and I have an e-mail 
dialog and I should have gotten back to him when he mentioned 
that to me, because unfortunately the search string that he 
used at AltaVista was not necessarily the right search string. 
We actually provide a deep link directly to our opt-out page 
from sites that link to us. So if he was searching for our 
privacy page it would not show up.
    We have 3,000 sites, for example, in the Flycast network, 
which is a company we acquired earlier this year, and we have 
gone through a certification process as we have brought them 
online and we have all those sites compliant. We have actually 
kicked out sites that are not compliant. So I think that we 
just need to probably spend a little bit more time on going 
over a couple of the details there.
    In some cases also, when we deal with a third party in our 
business we are working with networks and what happens is that 
the site discloses that they are working with Engage and the 
third party, but the link may actually be to a slightly 
different form of the web page to let them know, for example, 
this site is part of the Flycast network, which is working with 
Engage.
    So I think that we can probably put that to rest, at least 
in our case.
    The Chairman. Mr. Polonetsky.
    Mr. Polonetsky. If I can respond to that as well, Senator. 
In February, DoubleClick announced that every new contract that 
we signed with a client would have in that contract language 
requiring that that U.S. web publisher had a clear and 
effective policy with a link to DoubleClick, and every single 
one of our new contracts has had that.
    I have been going through the 1,000 or 1,200 sites that are 
in the DoubleClick network, taking a look at their privacy 
policies and requiring that they change that and link to us. So 
I think the numbers for us are substantially more than Mr. 
Smith laid out as well. Frankly, it is our firm policy that 
anybody that we will do business with, anybody frankly who has 
information that is being contributed to a profile, certainly 
has a link to our policy or I do not sign off on that site's 
participation.
    The Chairman. Mr. Jaye, should consumers have access to the 
profiles that network advertisers keep about them when they are 
linked to personally identifiable information?
    Mr. Jaye. When they are linked to personally identifiable 
information, yes.
    The Chairman. Mr. Rotenberg.
    Mr. Rotenberg. Yes, Senator. I think without the ability to 
see the information that is being collected, the privacy 
policies do not really mean very much because they are very 
general, they are very confusing, and you really cannot make an 
informed decision. I think one of the points also in Jodie 
Bernstein's presentation with respect to cookies, even if you 
try to exercise choice, which is what she described with the 
browser software, you will see a screen that gives a web 
domain, an expiration date, and then a value field that is just 
a string of characters. It has no meaning to you.
    For that reason, you have to see what information is being 
collected about you and how it is being used.
    The Chairman. Mr. Polonetsky.
    Mr. Polonetsky. I think it ought to depend on the type of 
information. I think if we are talking about sensitive 
information, the kind of information consumers would be 
concerned could be used against them or could cause harm, there 
ought to be a higher level of protection. But I think that 
basic information, such as the kind of information that is used 
in the offline world for marketers to make decisions about what 
offers to send, the standard there for non-sensitive 
information could be opt-out as long as it was clear, as long 
as the consumer knew what the rules were when they were at the 
site.
    The Chairman. What type of information should I have access 
to?
    Mr. Polonetsky. You should have access I think to a 
reasonable amount of information to the extent that the site 
has that information easily available.
    The Chairman. Who should decide that?
    Mr. Polonetsky. Well, we served on the FTC Committee on 
Online Access and Security, as did Engage and some of the 
others at the table, and I think there is not a one-size-fits-
all answer. There is some information that is probably easily 
available and we certainly, if we use personal information, 
will make that kind of information available.
    Other information may be difficult. If I walk into a 
Macy's, whether it is an online version of Macy's or offline, 
and I say, I have shopped here once a year, could you please 
give me a record of everything I have ever bought--the question 
is what is the tradeoff? Are there certain kinds of information 
where consumers really need and really should have access? Are 
people making decisions about credit, about mortgages, 
information that is going to affect their lives substantially? 
If it is non-sensitive marketing information, I think the 
standard of access might be different.
    The Chairman. Mr. Smith.
    Mr. Smith. Well, yes, it is a complicated problem of 
providing access, and there are also some privacy downfalls to 
it in the sense that if you allow somebody else to get 
information there are problems. But I would really love to 
know, for example, of those 27,000 transactions that 
DoubleClick got about me in the last 6 months which are very 
personal in nature, which ones they are saving and which ones 
they are not.
    The Chairman. Finally, the issue of the moment seems to be 
that the FTC and the online advertisers are in serious 
negotiations. I would like to know the confidence level of the 
witnesses in the ability of the parties to come to agreement, 
and would that then negate any requirement for legislation?
    Mr. Polonetsky.
    Mr. Polonetsky. I am not the person at the table for our 
company, but I can tell you that we are optimistic that they 
are progressing in a positive way. I think we all agree that 
strong standards of notice and choice that are adopted by all 
in our industry will provide a real strong level of protection 
for consumers. So we think that a system of self-regulation 
could be very effective.
    The Chairman. Mr. Rotenberg?
    Mr. Rotenberg. Mr. Chairman, I think even if there were 
agreement between the industry and the FTC on practices in this 
area, it would not be sufficient to protect privacy. I say this 
for several reasons. First of all, we have followed very 
closely the self-regulatory efforts in other areas involving 
such groups as TRUSTe and BBB Online, and I think the sense at 
this point is that those are not providing adequate protection 
in the online world.
    The second point, as a matter of process, I have been 
personally disappointed that the FTC has not involved the 
privacy community in this proceeding. I think we have a right 
to participate. We were, after all, the group that initiated 
the complaint at the Federal Trade Commission. We identified 
the flaws in those privacy policies, and we think if the FTC 
proposal is going to be responsive it has to address the issues 
we raised.
    The Chairman. Mr. Jaye.
    Mr. Jaye. As was reported evidently this morning in the 
Wall Street Journal, I guess I am optimistic about our 
likelihood of reaching agreement, and I stand by that comment. 
I think that the industry has been working very hard--I am one 
of the people at the table from my company--to try to come to 
agreement on a baseline set of standards that will meet the 
legitimate consumer concerns about data protection and privacy 
with regard to network advertisers.
    I think that there has been a very good faith dialog going 
on and I hope that we will be able to come to an agreement. 
Whether or not there is a legislative backdrop or not is 
somewhat independent, because I think in the end self-
regulatory programs in this area will be more effective for 
jurisdiction issues and many other issues.
    The Chairman. Mr. Smith.
    Mr. Smith. Well, I have not been privy to any of the 
negotiations also, as Marc has pointed out. I am also a 
programmer, so I am not sure that I can comment so much on the 
legal issues here.
    But overall, I think one of the concerns I think raised in 
the earlier testimony, what if somebody just does not want to 
participate and then we have that problem? That could just see 
a breakup of those kinds of regulations.
    The Chairman. Senator Wyden. I thank the witnesses.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Polonetsky, I am interested in knowing when DoubleClick 
collects information from a website how detailed the 
information is about a consumer's activities there? For 
example, if I visit a bookstore site, do you have full 
information about the titles I browse through as well as what I 
purchased?
    Mr. Polonetsky. The answer is not at all. What DoubleClick 
does is we deliver an ad when somebody is at perhaps a site 
where books are being sold. So the information we have is that 
we delivered a sports ad to this cookie ID when it was at this 
sports site.
    Senator Wyden. What about recording search terms that I 
type in?
    Mr. Polonetsky. When one goes to a search engine and types 
in a keyword that one is searching for, the page that is 
generated--let us assume one goes to a page and types in 
``golf''--the search page that is generated is going to be a 
golf page. So the information that DoubleClick gets is: serve a 
sports ad here, serve a golf ad here, because the search term 
is going to provide a golf page, so put in golf. That is the 
kind of information that we would have in terms of paying an 
advertiser and paying the website for the ad that was served 
and the ad that was delivered.
    Senator Wyden. How many users at this point do you have 
profiles on?
    Mr. Polonetsky. We actually do not currently serve ads 
based on profiles. I know that that is a misconception that 
many have. We currently serve ads based on some of the visible 
demographics of the browser at the site, geographic 
information----
    Senator Wyden. What kind of numbers are we talking about 
there?
    Mr. Polonetsky. So those are not profiles at all. We are, 
however, developing such a product, as some others are doing, 
and will have one in the near future. But we are not currently 
working with profiles. We will probably have say 40 or 50 
million when we do, because we serve ads at many sites. But we 
currently are not serving ads across the web based on profiles. 
We are serving ads based on somebody is going to a sports site, 
we know we have showed three ads to this unique cookie ID on 
other sites; let us serve this sort of ad into that site.
    Senator Wyden. Now, Mr. Rotenberg, most of the users never 
visit the website of the online profiler that is collecting 
information. So we are wrestling with this question of notice 
and choice and how to deal with the collection of profile 
information there. Would host websites serve as intermediaries 
between the consumer and the profiler? How would you see that 
working? For those of us who want to make sure that those kinds 
of FTC principles apply to profiling, how would you address 
this question of notice and choice specifically?
    Mr. Rotenberg. Senator, I think the whole process has to be 
much more transparent. One of the very interesting things about 
Jodie Bernstein's presentation, when she described what was 
taking place with the cookie tracking online you saw boxes go 
up. I think she used the phrase ``US Advertising,'' maybe that 
was the ad network, ``US Advertising is now gathering 
information for this purpose, US Advertising is now linking 
information for this purpose.''
    I actually believe that those are the types of notices that 
consumers who are online should be able to see as the 
information flows. In other words, you have to literally 
understand as you move from one website to the next what 
information about you has been obtained and how it will then be 
used.
    Now, at that point you can make a decision and you can say: 
Well, I do not want to be a part of an advertising network that 
collects information about me in this way or uses it in this 
way. There should be a box there that says: I am not going to 
be a part of this.
    But as long as we have these very complicated arrangements 
where people cannot really evaluate what is going on, frankly, 
it would not matter whether you had to go to the advertiser's 
website, a consortium's website, or the website that you 
visited originally to express a preference, because you would 
not understand what the preference was you were expressing.
    Senator Wyden. In your view, how critical is the 
distinction between personally identifiable information and the 
non-identifiable data that is collected by profilers?
    Mr. Rotenberg. Well, I used to think it was about the 
brightest line that there could be. But I have actually changed 
my view on this, because I understand now that it is possible 
to take a profile that is not linked to a known user and 
subsequently link it to a known user. In fact, that is exactly 
what happened with DoubleClick. And I am a little surprised to 
hear them say that they are not creating profiles. Now, they 
have tens of millions of unique cookie ID's. Maybe that is the 
phrase we should be using. Currently today, tens of millions of 
unique cookie ID's, and those are the ID's that make it 
possible when Richard Smith surfs the web for an advertiser to 
know that three ads have gone out to that unique cookie ID 
which Richard Smith is standing behind and therefore we have to 
put a different ad.
    Now, if that unique cookie ID can be linked to Richard 
Smith, even though it may not currently be linked to Richard 
Smith, then I think we need some legislation in place to 
control that practice.
    Senator Wyden. Let me do this, because I have one other 
important question I want to ask about litigation. But Mr. 
Polonetsky, do you want to respond to Mr. Rotenberg's point, 
because I think that the reason I asked the question about what 
you all were doing specific to individuals is that is of course 
what the American people want to know. You all are sort of the 
most visible company in this area and Mr. Rotenberg just 
described a way with the use of the cookie ID that a fair 
amount of personal information was in effect being collected or 
certainly utilized.
    Mr. Polonetsky. Sure, let me clarify if I can. First of 
all, we are not using any personal information at all. What we 
are doing is when a browser comes to a site that browser is 
assigned a unique ID. If DoubleClick is serving an ad on that 
site, DoubleClick knows that this Nike ad was served to this 
unique ID.
    We also know that most folks, if they have not responded to 
an ad after two or three times, do not keep showing the same ad 
over and over and over again. So what we will keep a record of 
is this ad was shown one time, two times, three times, so then 
do not show this same ad again, show a different ad the next 
time that unique ID shows up at a site where DoubleClick is 
serving ads.
    So I do not know that that would be considered profiling. I 
think that would be frequency capping, making sure the same ad 
is not shown over and over. I would say that a profile is 
keeping track of all the different sites that a unique ID was 
at and then building a record saying, well, this is a cookie 
that spends a lot of time on sport sites, on news sites, so let 
us show them a certain kind of an ad when that anonymous ID 
shows up again at a different site.
    Senator Wyden. Mr. Rotenberg is smiling and that indicates 
to me that he is probably concerned about the ramifications of 
that on individuals.
    Since time is short, I want to ask just one other question. 
It is really for you, Mr. Jaye, and you, Mr. Polonetsky. That 
is, with folks in the industry facing lawsuits with respect to 
the practice of online profiling, do the two of you, Mr. Jaye 
and Mr. Polonetsky, believe that by defining the appropriate 
scope of profiling behavior that that might head off some of 
the disputes that seem to be headed for a lawyer's full 
employment program here?
    Mr. Jaye.
    Mr. Jaye. At Engage we feel comfortable that since we 
started the company we have had privacy--finding the balance 
between the consumer's right for privacy and the marketer's 
need for effectiveness--in the form of anonymity. We feel very 
comfortable in our position with regard to those types of 
risks.
    Certainly there is still the possibility of some sort of 
action that would be perhaps without merit, waste our time, 
waste the government's time. But at the same point, we are 
concerned about moving quickly. For example, just to take a 
point, this issue about web bugs. I think web bugs are a very 
legitimate concern because they are not visible to the 
consumer. But one very important use of this technology is not 
for any type of profiling, but simply for the ability of 
reporting to an advertiser the percentage of visitors who saw 
an ad who actually subsequently made a purchase, not at an 
individual level at all, but the ability to basically tell the 
advertiser did they spend their money wisely.
    If we cannot provide that level of reporting, the ad 
spending on the Internet is not going to be sustained. So it is 
very important to proceed very carefully to make sure we draw 
the lines so that we do not inadvertently carve out the ability 
for the advertising to be supported while at the same time 
addressing the very legitimate concerns about invisible 
tracking.
    Senator Wyden. Mr. Polonetsky.
    Mr. Polonetsky. I agree. I think that education, definition 
of the terms, transparency so consumers are aware of what is 
taking place is the key. Much of the research I think that is 
out there academically and certainly much of the work that we 
have done at DoubleClick has indicated that as people are 
aware--as they understand the technology, as they understand 
what control they have over any information and how it is 
used--they become increasingly comfortable with their surfing 
on the web and what is taking place.
    So one of the reasons why I think we talk about notice and 
choice is it is an easy way to show a consumer what is going on 
at a site. It is one of the reasons why we ran our online ad 
campaign and I think it is probably key in terms of self-
regulation--making sure that consumers understand what we do as 
the greater American public starts spending more and more time 
shopping and using the benefits of the web--that people 
understand how it works and how they have control over what 
happens on the web.
    Senator Wyden. The central problem, of course, is that 
millions of people, as Mr. Rotenberg has talked about----
    The Chairman. Senator Wyden.
    Senator Wyden. And I will wrap up with this, Mr. Chairman. 
The central point is that----
    The Chairman. I am not trying to cut you off. If you would 
like to at least let Senator Kerry go and then we will come 
back to you.
    Senator Wyden. I will wrap up right now.
    The Chairman. Thank you. Thank you. No, please.
    Senator Wyden. This was just my last point. I happen to 
share your view on education and it is clear. But what Mr. 
Rotenberg said that is central to this is that millions of 
people are not at this point empowered with enough information 
to make these choices, and that is why I am hoping that we will 
be able to get some legislation that defines the appropriate 
scope of profiling behavior.
    I thank you, Mr. Chairman.
    The Chairman. I thank Senator Wyden and I again appreciate 
his deep involvement in this very important issue.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Smith, could you repeat for me. You mentioned something 
about 27,000 transactions. That is more than a bank. I did not 
quite get the whole thing.
    Mr. Smith. Right, yes. I log each time a web page is 
fetched or an image is fetched on my computer and sent out to 
companies on the Internet. In 6 months I had 250,000, a quarter 
million of these transactions--web pages that I went to and 
images that I saw. More than 10 percent of those went to 
DoubleClick.
    With that, each transaction was for like a banner ad. There 
would also be the URL of the web page that I was at. So if I 
was at Quicken, they would get what page I was on at Quicken.
    Senator Kerry [presiding]. But you said something to the 
effect that that represented a lot more information than any 
bank has on you, or something.
    Mr. Smith. Yes.
    Senator Kerry. But that is not the kind of information that 
a bank collects or needs or that you give a bank. I mean, the 
bank has your social security number.
    Mr. Smith. Correct.
    Senator Kerry. And the bank has an address.
    Mr. Smith. I was talking about quantity here, not 
necessarily quality.
    Senator Kerry. Well, but your quantity was for a specific 
purpose. You are not the average person shopping in some way. 
You were out there really analyzing this.
    Mr. Smith. Well, I might be using it a little bit more, but 
I suspect for a regular person it might be 100 transactions, 50 
to 100 transactions in a day.
    Senator Kerry. But what I am trying to understand is the 
information that they gleaned from that was essentially non-
personal, am I correct?
    Mr. Smith. No, that is not correct.
    Senator Kerry. What was the personal nature?
    Mr. Smith. Well, I will just go through some of the list 
here: my name, my home address, my e-mail address, what plane 
flight my daughter was taking to Philadelphia from Boston, 
these sorts of things; on buy.com, the movie that I was 
renting.
    Senator Kerry. Let me stop you there, because I was trying 
to figure out what kind of information it was. Now I want to go 
from there to Mr. Jaye.
    I specifically want to flow out of this. I think that is 
the heart of what we are trying to get at here. Mr. Jaye, you 
listed the way Engage approaches this and what you can 
guarantee and a list of things that you do not do. Would you 
repeat that list?
    Mr. Jaye. Certainly. We do not know a consumer's name, 
address, social security number, or any other personally 
identifiable information. We do not maintain information about 
specific web pages a browser visits, which is probably the one 
that is most relevant to this issue. We do not collect any 
sensitive or controversial data, such as personal medical or 
financial data, ethnic origin, religion, political interests, 
or review of adult content, and we do not merge anonymous 
profiling data with personally identifiable data no matter the 
source.
    I think just a comment. I think the issue here has to do 
with the specific information about the web pages because of 
the data spillage issue in particular I think that Richard 
Smith is bringing on. That is precisely the reason why we took 
a data minimalization approach at Engage to make sure we did 
not maintain that information.
    Senator Kerry. So essentially you have software that has 
the capacity to provide a guarantee of anonymity.
    Mr. Jaye. We have made every attempt that we could. Just 
once again in full disclosure, the way the web works is data 
may be received, but there is a difference between when data is 
received and actually processing that data and storing that 
data. We do not process that spilled data, and one of the 
reasons why we discard it is so that it cannot be subsequently 
processed.
    Senator Kerry. When you say discard, practically speaking 
how does that happen? What happens to it?
    Mr. Jaye. From a technical perspective, it never gets 
written out into magnetic storage and where it is maintained in 
memory for the milliseconds or the seconds while the data 
around it is being processed is quickly overwritten with other 
data.
    Senator Kerry. So, for all intents and purposes, it has 
disappeared, or could somebody draw it out?
    Mr. Jaye. It has for all intents and purposes disappeared.
    Senator Kerry. Now, Mr. Rotenberg, what is the matter with 
that?
    Mr. Rotenberg. I actually think it is pretty good. I think 
it is the type of network advertising that a year ago I 
explained could work for business and work for consumers. The 
problem, though, is that consumers online do not have a choice 
about whether to get their advertising between one firm and 
another.
    Senator Kerry. Correct. Now, if we were to mandate that the 
notice be up front and personal as to what the expectations 
are, what is going to happen to somebody, what is being 
offered, is there any consumer responsibility here? Is there 
any caveat emptor, any degree to which an informed consumer 
takes place on page one if it is adequately noticed?
    Mr. Rotenberg. I think consumers have some responsibility, 
but I think in fairness, considering the rapid growth of these 
various business models and the various types of advertising 
schemes, we are going to be doing this dozens or hundreds of 
times for consumers every time someone figured out a new way to 
collect and use personal information, which is why I think--and 
I do not think Mr. Jaye would necessarily disagree with me--
that a simple set of fair information practices of the type 
that have been adopted in previous legislation--we have done 
this, by the way, with a lot of technology. We have done it 
with cable subscriber records, video rental records, e-mail.
    We have put in place basic fair information practices and 
then companies like Mr. Jaye's do very well because they have 
good business models and they protect privacy.
    Senator Kerry. That is essentially what I am talking about. 
That is a notice approach fundamentally, with a requirement as 
to standards that are adhered to, correct?
    Mr. Rotenberg. And access; notice and access.
    Senator Kerry. Well, come to the access thing for a minute. 
I want to come back to the other for a second. But when you say 
adequate access, of course people should have access. We want 
to have some structure there. To what degree can you get 
detailed? Exactly how is access going to be implemented, 
specifically with respect to what sort of corrective measures 
are available to somebody? Once they have access, what 
information ought to be changed or can a person change if they 
do not like it?
    Mr. Rotenberg. Well, it is a problem, but I think it is 
also a problem that has been handled in the past. It has 
certainly been handled fairly well in the credit reporting 
world. People who disseminate information say: To the best of 
our understanding, this information is accurate, and the credit 
subject seems to disagree with what we know about this person.
    So what that statute says is: Okay, give that person a 
right to include in the record his own interpretation about 
what the bill was not paid. Then the person who receives the 
file can see what the credit reporting agency is saying and 
what the credit subject is saying and make a determination 
about how to interpret it.
    But we have not even approached that type of resolution to 
I think the question that you are asking, because we are still 
not sure about whether people should have the right to access 
these profiles. I think we have to take that as a starting 
point and then figure out how we would resolve these important 
questions that you have asked.
    Senator Kerry. Now, what is the distinction between the 
profile as it has been described, that is achieved by a cookie 
or by ten million cookies and the profile that somebody might 
have created on themselves by repeated visits to Macy's, 
Neiman-Marcus, and whatever numbers of stores, and they then 
are getting X number of catalogues coming to their house on a 
regular basis?
    Mr. Rotenberg. Well, I think they are different in at least 
two respects. One, it really is the nature of this interactive 
digital environment that you can collect a lot more information 
about individuals. That is why these----
    Senator Kerry. Let us stop for a minute.
    Mr. Rotenberg. Yes.
    Senator Kerry. If we have proceeded--I am not saying 
laissez faire. I have said we have got to have a standard and 
we have got to put something in place. Let us assume we put in 
place a very clear notice requirement with the principles of 
choice and access and security as subtexts of that notice. This 
is what we are trying to achieve as a full measure of people's 
ability to participate in the following way. They are the 
principles that have already been adopted fundamentally by the 
industry and others, but there is not a clarity to them 
necessarily.
    Let us say that that is the structure you have here. But 
you are giving to companies like Engage and others out there 
the creative capacity to provide the technologies and the 
competitive abilities to offer people ways of satisfying their 
desire to have this adequate privacy. Would you not possibly 
excite a greater response and in fact a speedier response 
conceivably by approaching that for a little while here to see 
how this develops?
    Mr. Rotenberg. I think the critical question at this point 
is what direction is this self-regulatory experiment taking us.
    Senator Kerry. But I have gone beyond the self-regulatory 
in that, because if we have gotten very specific as to the 
level of notice. Let me say that I have particularly become 
sensitive to this in the last months. I have tried to find 
different people's privacy and some you can see it on the home 
page, boom, you hit it, and it is lower down, it is not exactly 
leaping out at you, but you can find the word ``privacy'' or 
some protective disclosure. On others you have got to go 
multiple clicks away, and in some cases it is quite complicated 
because then you have got to type in a relatively long and 
complex address to go find it and get the full privacy level.
    So it is clearly a discrepancy between companies as to what 
they are prepared to offer people in terms of disclosure. There 
is no question about that. But if we were more clear about that 
requirement of disclosure and there is a clear understanding 
that it is an unfair trade practice not to provide that up 
front choice to people adequately. You then have empowered the 
FTC in terms of enforcement to the degree they can and you have 
left it to people like Engage and others to hopefully come back 
with a series of competitive measures that offer people what 
they want.
    Do you see something lacking in that?
    Mr. Rotenberg. Well, Senator, I think the problem--and I 
certainly understand what the proposal would--I think I 
understand what the proposal would accomplish. But I think the 
problem is that even if we have a simplified notice and a clear 
notice where people can make better informed choices, we will 
still end up forcing consumers to choose between their privacy 
and the benefit that the website is offering.
    I believe that there are solutions that will allow us to 
avoid those choices, so that advertisers can reach customers, 
so that web merchants can effectively deliver their products, 
without requiring consumers on the Internet to make a choice 
that invariably involves giving up some degree of privacy.
    Senator Kerry. I think you have got to be more explicit on 
that, because I have a hard time envisioning it. I mean, I 
assume you would agree that there is a major problem if 
advertising cannot support the Internet, correct?
    Mr. Rotenberg. No.
    Senator Kerry. I mean, the dream has been that the Internet 
is going to be free, fundamentally supported by advertising. 
But the verdict is out on that. I mean, I understand the number 
of--Mr. Smith, is not the number of clicks that are currently 
recorded as spending meaningful time or making a purchase is 
lower, it is about 1 percent, is it not?
    Mr. Smith. Right, it has been dropping. But also the number 
of banner ad impressions has been going up much faster. So it 
is not necessarily an indication of a problem, just that the 
number of ad impressions has gone way up. And the companies who 
are showing banner ads, revenues are rising very rapidly. So 
more money is coming in on advertising.
    Senator Kerry. And I think if I am correct, the current 
prognosis is that the advertising revenues are going to go from 
something like $6.7 billion up to $20 billion in the next 
couple years. But that depends on the continuing capacity of 
people to be able to market effectively.
    Mr. Smith. Right.
    Senator Kerry. If all of a sudden that is taken away 
somehow because this balance of what you are saying, the choice 
between adequate protection and capacity to be able to 
effectively figure out who you are reaching is not in balance, 
you could wind up with people choosing sort of what they think 
is going to be good for them to protect themselves, but in 
effect it is going to deny people the capacity to know how to 
advertise or how to target.
    Mr. Smith. One thing, now. The jury is also still out on 
whether online profiling is effective technology for ads. I do 
not think that has been proven at all. The New York Times had 
an article about a month ago on this exact subject.
    Senator Kerry. Well, I think the point is, the point being 
made by Mr. Jaye, while he is speaking for a specific company 
and technology and it may be that others can do it as well or 
whatever, but the point is that they have the ability to 
provide a lack of profiling, a specific guaranteed lack of 
personal profiling and use of personal information, but still 
permit an adequate balance with respect to the advertising 
needs. Am I correct?
    Mr. Jaye. Yes, that is correct.
    Senator Kerry. It seems to me that if that exists, if it is 
there in technology and it is really an effective component of 
the notice that is right up front, that if somebody is, in 
fact, that is their sine qua non of participating in the 
Internet, they can get it. And if that notice is required 
adequately up front, then have we not provided the protection?
    Mr. Smith. None of us have seen our profile, so I am not 
sure how we can say. We are going by the word of the companies 
on what they say they are doing and they are not doing. I hear 
from DoubleClick that they stay away from medical issues, yet 
they put web bugs on anti-AIDS drugs. So I do not know what to 
think.
    Senator Kerry. I mean, there is a distinct difference 
between typing in a search word ``AIDS'' and getting back some 
drug advertisement or something versus some medical record of 
yours with respect to a test or a visit or something else. 
Those are two different worlds.
    Mr. Smith. Right, but in between here is----
    Senator Kerry. Do not confuse it as a medical. That is not 
a medical.
    Mr. Smith. But what I am talking about is an invisible 
image at the Procrit.com website that sends back a message to 
DoubleClick saying you are now here and, oh, by the way, you 
are interested in cancer treatment. So I do not see that--yes, 
it is not medical records, but it is not just viewing a banner 
ad, either.
    Mr. Polonetsky. If I could jump in----
    Senator Kerry. Yes, Mr. Polonetsky.
    Mr. Polonetsky. And perhaps explain a little bit about what 
these tags do. The sites want to know how many unique users 
have visited their site and they also want to know which of the 
ads they have run have brought unique users. Johnson & Johnson, 
which is the operator of Procrit, might be running an ad on 
AOL, might be running an ad on Yahoo, might be running an ad on 
a DoubleClick Network site, and wants to know how many people 
are coming, how many anonymous unique users are coming to the 
Procrit site from each of the sites where ads were displayed.
    They use this spotlight tag, as we call it, or, as Mr. 
Smith calls it, a web bug, to simply anonymously keep a record 
of how many users are coming to the site and did they come from 
the ad that Johnson & Johnson ran on AOL or Yahoo. Innocuous. 
The information does not belong to DoubleClick. We are 
providing this service on behalf of the Johnson & Johnson 
Procrit site. We do not use it for a profile.
    Senator Kerry. How do you answer the question posed by Mr. 
Smith as to whether or not he can have some kind of personal 
guarantee that that is in fact all you are doing, so that he 
will know that is the full profile?
    Mr. Polonetsky. He has got a number of guarantees. Number 
one, we employ an outside third party auditor, so the 
commitments that we make are audited by PriceWaterhouse-
Coopers, so that we can guarantee that we do what we say we do. 
My role as Chief Privacy Officer, as a former consumer affairs 
commissioner, is to report directly to our Board and be the 
inside watchdog ensuring that we live up to the commitments we 
make.
    Frankly, our clients would be very unhappy if we took 
information about how many users were coming to their site, and 
how their site was doing, and which parts of their site were 
getting more hits, and which ads were bringing people to their 
site, and used it for anything else. So we legally are bound to 
make sure that any information, anonymous information that we 
are getting from a tag, is used specifically for that purpose: 
given back to the advertisers so they know how they can manage 
their content.
    Senator Kerry. Mr. Rotenberg, if that kind of guarantee can 
be put in place and you have the capacity through the software 
being provided by Engage or others to be able to give people 
that option, what is the compelling rationale for something 
more mandated and intrusive?
    Mr. Rotenberg. Just to be clear, Senator, when you or I 
surf the Internet and banner ads are placed, we are not 
choosing between Engage and DoubleClick as the company that is 
going to serve ads to us.
    Senator Kerry. You are saying anybody can do that.
    Mr. Rotenberg. Exactly. Anybody can be doing this in the 
background. And while I agree with you that I think Engage is 
doing some good things certainly, I do not think privacy 
legislation is going to undermine what Engage is doing. If 
anything, it may spur the development of half a dozen companies 
like Engage, all looking for better privacy solutions.
    Senator Kerry. What is the technological response to the 
fact that once it is out there on the web, so to speak, anybody 
can grab it and try to use it and pull it down? What is the 
response to that, either Mr. Jaye or Mr. Smith?
    Mr. Jaye. Well, first of all, it is not anyone. They 
require certain network connections that make certain types of 
transfers possible. But in particular, the commonly used 
technology is this thing called third party cookies, that is 
cookies that are set and sent back to a website other than the 
website the consumer is specifically visiting.
    That does not mean that anyone can; only the sites that are 
working with each other. So for example, there usually has to 
be a specific relationship between the website and the third 
party in order for the third party to gain that data.
    In terms of the technical aspects of it, that is one of the 
reasons why two and a half years ago I initially started 
working on this trust label standard at the ITF, which was a 
standard to focus on how do you take that cryptic pop-up box 
telling you that a cookie was being set and to tell you what it 
meant, what it was going to be used for, and more specifically 
make it so that the riskiest behavior to consumer privacy, 
which is third party cookies, would have a hard and fast 
requirement that those cookies would have to pass muster, they 
would have to be digitally signed by seal authority before they 
would be allowed through or else robust notice and choice would 
be provided to the consumer.
    So I actually do disagree at the moment with the people on 
my left and right with regard to technical solutions addressing 
the legislative need, because I think that type of technology 
solution goes farther than any legislation could go in ensuring 
that we do not have bad actors who are beyond our reach.
    Mr. Polonetsky. Senator Kerry, if I could just correct the 
record for a second as well. There was the data spillage issue 
that was raised earlier and some of those were DoubleClick 
examples. There was a technological issue and that is the 
reality that there are some sites that accidentally--they 
should not, but accidentally--have information sent to anyone 
they link to if there is a form on that page.
    Now, we certainly informed our clients that they ought to 
take a close look and make sure they are not accidently finding 
unintended information. But we have also implemented a 
technological fix to this problem, in addition to saying please 
do not send us anything that we should not have, we do not want 
it, we do not use it, it does not go in a profile, but do not 
even send something that someone will get nervous about. We 
have set up a process where our ad servers truncate anything 
after the question mark.
    So if we are accidentally sent information from a website 
that we do not want, it does not even get recorded because our 
technology automatically chops that off so it does not get to 
us.
    Senator Kerry. Well, query whether you would all be better 
off if we were to be more mandatory in being sort of 
prophylactic about the capacity of that kind of accident to 
occur. In other words, if we make it unlawful for people to 
transfer and use, or to use conceivably, that kind of third 
party transferred information, would that have an excessively 
intrusive impact, based on the fact that you are saying that 
this would be accidental and therefore no company would set out 
to do it and therefore no one should be impeded by our saying 
that is an unlawful act?
    Mr. Polonetsky. Well, I think this is probably the best 
example of how self-regulation works. Here was a technological 
flaw which we all appreciate Richard Smith for helping point 
out and identifying, and all the companies who are in the 
industry--and frankly, this is not solely an ad server problem. 
If I have a website and I have got a form because I am selling 
something or registering and I have links to other sites that I 
have got partnerships with or that I am linking to because it 
is useful information, I can accidentally at this website be 
sending that information in any direction.
    So this is a technology problem with the way some websites 
are set up. When it was identified, all the responsible sites 
quickly took a look and made sure they were not doing it. 
Frankly, those of us who are at the receiving end, who are 
being accused of getting this information and using it or 
having it, very quickly said to our clients: Do not 
accidentally do this, and here is how we are going to make sure 
it does not get to us.
    So I think legislation probably cannot even anticipate some 
of the other practical problems. This is a perfect example of 
industry becoming aware of a flaw in the infrastructure of the 
technology of the web and then quickly fixing it so that it 
does not happen.
    Senator Kerry. Should it be technologically feasible or 
even should it be a matter of public policy that if somebody 
did not want pop-up ads at all that that should be an up-front 
part of notice and they should be able to opt out of those 
immediately?
    Mr. Polonetsky. It has been our policy at DoubleClick since 
1997 to have an opt-out link, even when----
    Senator Kerry. But it isn't easy to opt out. I mean, let us 
be candid. There are lots of people in the country who would 
like to opt out of a lot of things on the net and it is very 
hard to do even for people that know how to use the net.
    Mr. Polonetsky. I think it is our job to make it frankly 
easier. The Internet is 1,700 days old; our company has been 
public for two years. I think this huge growth in sites having 
privacy policies from 14 percent two years ago to 90 percent--I 
agree, now those policies need to be complete. But I think we 
are making real rapid progress and in an industry that is still 
in its infancy, and frankly, consumers will use the Internet 
that we are first imagining.
    So I argue that if industry is moving in the right 
direction, is eagerly working with the FTC, working with each 
other, to put the appropriate protections in place, I think you 
are seeing the ideal of how responsive self-regulation should 
and can work.
    Senator Kerry. What do you think, Mr. Rotenberg?
    Mr. Rotenberg. Well, I think it is fine to encourage 
industry to address privacy concerns, and in that respect some 
progress has been made. But at the end of the day, I think you 
really have to focus on the central question, which is, is 
consumer privacy being protected? That is about more than 
assurances. It is about what is really happening, whether 
people can exercise opt-out, what the purpose, frankly, of 
choice is in this very important policy world.
    So certainly as a privacy advocate I do not want to 
criticize industry groups for trying to address this issue. But 
also as a privacy advocate, I have to say to you my sense is 
that the gap between the amount of privacy protection that 
people expect and the amount that they are receiving online 
continues to grow, and it is going to grow further. That is why 
we need legislation, to give people control over their personal 
information.
    It may mean that more companies like Engage are going to do 
well in that world, because it will be a world where privacy 
will be important.
    Senator Kerry. Did one of you want to respond to that or 
you are comfortable on it?
    [No response.]
    Senator Kerry. Well, there is no question in my judgment, 
as I have said at the outset, that we need to establish the 
standard here. The question is how far do we go and how 
quickly, and I think it is the balance that we need to find.
    You said, Mr. Rotenberg, that it is a different kind of 
privacy problem on the Internet. I just wanted to explore that 
with you for a minute. Obviously, because it is electronic, 
because it is global, because it is fast, there is a perception 
issue there. But tell me how in your judgment? Is it the 
distribution network that makes it so different and raises the 
specter of threat?
    Mr. Rotenberg. It is the ability to track and monitor what 
you do. If you go into a book store, pick up a book, put it 
back down, find another one you like----
    Senator Kerry. Right, nobody knows what book you looked at.
    Mr. Rotenberg [continuing]. Pay for it by cash--there is a 
tremendous amount of anonymity in the physical world, and so 
much of what we do--driving in our car, walking on a street, 
riding the Metro, cash-based transactions, this is all 
anonymous by and large.
    In the online world, there are a great deal of incentives, 
understandable incentives, to collect information about what 
people do. You cannot do it offline, but you can do it online. 
That is what created the problem here. It is because this 
information could be collected and that there was no way to 
protect privacy when, for understandable reasons, I may well 
have done the same thing at DoubleClick or Engage in terms of 
building these profiles.
    That is why I think Congress needs to take some action in 
this area. It is different.
    Senator Kerry. Well, it is more intense, but as to the 
browsing and as to the collection of that information, again it 
is possible to create a standard by which people are offered 
the opportunity to have that be anonymous, is it not?
    Mr. Rotenberg. Anything that we can do to promote anonymity 
online--and you have mentioned this several times, Senator--I 
think should be encouraged. I think a lot of people who are 
familiar with the history of the Internet--and I do not just 
mean the last few years of the World Wide Web and electronic 
commerce, but know the history of how this network of 
interconnected databases could allow people to freely collect 
information--look at data, post news, read news, without 
disclosing identity--understand that anonymity has always been 
a very big part of online privacy.
    It is that interest that is now being threatened. Now, as I 
have said before, I think advertising can be made to work, can 
be made to work very well. I said it in my testimony, in many 
ways the Internet offers a wonderful platform for giving 
information to consumers. But I think we have to draw some 
lines, and one line to draw is when we are collecting 
information about individuals.
    Senator Kerry. There is, I assume you would agree, a 
distinction between--well, I think we have been over that. I do 
not think we need to beat that over.
    On the third-party cookies, is there a specific--should 
that require a specific remedy legislatively directed, or is 
that something that under some privacy policy you think it 
could be contained?
    Mr. Rotenberg. I think if we have a general rule on the 
collection and use of personal information online that will be 
easiest for businesses, because they do not have to sort of go 
back and forth, where are we; and it will be easiest for 
consumers because they will know what the expectations are. I 
am just concerned if we try to draw too many lines particularly 
related to certain technologies or certain business practices 
that we are familiar with today----
    Senator Kerry. So it is better to have a broader standard 
that applies, which is basically the way I think we are 
heading.
    Mr. Rotenberg. Yes.
    Senator Kerry. Understood.
    Well, I appreciate it. It is a very interesting subject 
with a lot of complexities, but it is very important that we 
try to get it right. I am very grateful to you for your input, 
all of you here today.
    The record will remain open for two weeks. If anyone wants 
to update their statements, they can do so. Likewise, 
colleagues can submit questions in writing.
    At this time the hearing is adjourned.
    [Whereupon, at 12:40 p.m., the Committee was adjourned.]

                            A P P E N D I X


     Prepared Statement of Mr. Steve Markowitz, Chairman and CEO, 
                           MyPoints.com, Inc.

    Mr. Chairman and Members of the Committee, I am Steve Markowitz, 
Chairman and Chief Executive Officer of MyPoints.com. I am pleased to 
have the opportunity to submit testimony about my own and my company's 
sentiments concerning the important issue of online profiling and 
privacy and I thank you for the forum to explain MyPoints' consumer 
privacy program, which, I maintain, could form the basis of an industry 
standard.
    MyPoints.com is the Internet's most popular promotional site, and 
the Internet's fifth most popular shopping site. More than eight 
million consumers have voluntarily joined our online membership 
program--MyPoints<Register>--and given us express permission to contact 
them via e-mail with targeted advertising offers on behalf of our 
clients. We reward consumers to interact with our advertisers, and our 
advertisers rely on us to provide them with an integrated suite of 
cost-effective, permission-based e-marketing tools.
    The MyPoints Program was developed as a ``True Opt-in<Register>'' 
Internet service, and express permission lies at the heart of our 
business model. Put simply, MyPoints has one of the Internet's 
strongest privacy pledges--guaranteeing to each member that his or her 
personal information will not be released to any third party without 
his or her express permission. MyPoints members are fully aware and 
have expressly approved of our information practices.
    We feel so strongly about our True Opt-in marketing approach that 
we have trademarked the term ``True Opt-in.'' However, while extremely 
well positioned in the competitive and volatile e-marketplace, 
MyPoints.com--like any company in the Internet marketing services 
space--is not completely insulated from the privacy concerns rumbling 
through Internet message boards, the national media and now, the halls 
of Congress. Impact on the industry at large can have an impact on 
every player in the industry--even players on the right side of the 
privacy debate. In fact, the only way to fully protect every company in 
this important and fast-growing industry is for a strong move by the 
federal government to regulate this space, and help allay consumer 
concerns once and for all. Self-regulation is nice in theory, but with 
heavy vested interests in a less than-fully consumer focused privacy 
policy, change will be, I fear, too slow to offset consumer concern 
over Internet privacy issues. Swift and sure movement by the government 
is the best answer.
    Let me begin by explaining MyPoints' stand on privacy, and then I 
will address how the industry and government need to cooperate to frame 
effective legislation. The MyPoints privacy policy makes certain 
absolute guarantees to our Members. First and foremost is our pledge 
never to release personally identifiable information to any third party 
without the Member's express consent. Thus, any person who enrolls in 
our program does so voluntarily with the knowledge that their 
personally identifiable information is safe in our hands. This key 
concept is the foundation of our relationship with our Members, a 
relationship based upon trust. We send all communications to the Member 
on behalf of our advertisers--we do not reveal our list of e-mail 
addresses to anyone. Members are then rewarded simply for reading and 
responding to the messages they receive by e-mail and on our website.
    On the Internet today, consumer privacy has become an oxymoron. 
Businesses have the ability to track consumers as they move about the 
virtual world, noting what they like, what they don't like, how long 
they spend at one site or another, what they buy and how much they 
spend.
    For many businesses, the name of the game in Web marketing is 
data--personal data that sophisticated advertisers use to target ever 
more specific offers. For the consumer there is a bright side as well 
as a dark side. The bright side offers ever-more-relevant advertising 
and opportunities to extract more value from one's time online. The 
dark side shows itself when companies most consumers don't know exist 
compile deep profiles on them and manipulate personal data on behalf of 
advertisers most consumers never asked to hear from.
    It is necessary for government and industry groups to consider both 
sides carefully as they inevitably make their way towards more 
stringent regulations regarding true consumer privacy on the Internet. 
However, a threshold issue has already split the Internet marketing 
industry into two camps--the question of who should regulate whom. Most 
Internet industry groups call vociferously for self-regulation. The 
standard refrain is that government meddling will lead ineluctably to 
inefficiencies in a fast-moving marketplace. Yet, it is precisely the 
speed at which the Internet is developing that demands a more active 
role by the government in protecting consumer privacy online.
    There are more than 10 million commercial Web sites in the United 
States alone, and the number grows by scores every day. Unfortunately, 
according to the recent survey by the Federal Trade Commission (FTC), 
only 20% of Web-based businesses currently comply with FTC standards of 
fair information practices. There is also significant confusion over 
what ``Internet privacy'' really means. Ask five Web site managers to 
describe when a user has ``opted in'' and you are likely to get five 
very different answers. The Internet marketing industry in general has 
proven to be a fairly lax self-regulator. Like any big city on the 
information highway there is a Main Street and there are back alleys, 
and many ``back alley'' companies have been less than genuine in their 
dealings with consumers, especially with respect to the protection of 
personal information.
    This leaves an important and immediate role for government to play 
in protecting consumer privacy by setting fair and simple guidelines 
and actively enforcing them. Banner bar networks are one example of 
where regulations would be an improvement. Many have been known to 
surreptitiously collect user information, and although they do give 
users the opportunity to opt out, this presents a barrier to the 
average user who simply does not know how to go about it. On the e-
mailer's side, many use an ``opt out'' standard as well, which presents 
additional barriers to the unwary consumer. These and other dubious 
means to get the user to supply information and supposedly ``agree'' to 
its use are what have caused user alarms to sound. A clear-cut, 
government-enforced policy would eliminate this issue, in no way 
impeding the conduct and growth of legitimate Internet businesses.
    Regulation is not something for the industry to fear. A major move 
by the government to take charge of this matter will do much to allay 
consumer concerns (real and imagined) about Internet security, which 
will in turn drive the continued embrace of the Internet. Companies 
that will prevail in today's Internet marketplace will do so precisely 
because of the relationships they have with their users. Trust is the 
key to building that relationship. The problem is not the collection 
and manipulation of data per se, but collection and manipulation of 
data without express permission based on full disclosure of a Web 
marketer's data practices. Consumers are smart. Let them make the call 
from there.
    Many online marketers will ask, why should this be? In the offline 
world, after all, the rule was ``opt out.'' Consumers were fair game 
for marketers so long as they didn't specifically ask to be exempted 
from the marketing process. But on the Internet, the rules are 
dramatically different. Marketers unprecedented power to deliver 
messages less expensively, faster, and far more effectively than ever 
before. And it is precisely because of the unique advantages of the 
medium that marketers must make a trade--the ability to utilize the 
medium in exchange for a higher degree of respect for the consumer's 
roll in creating it. The Internet is a channel for the consumer, by the 
consumer.
    Thank you Mr. Chairman for allowing me to express my views on the 
online profiling and privacy issue and share MyPoints.com's commitment 
to protecting online consumer privacy.
                                 ______
                                 
       Additional Testimony of Richard Smith, Internet Consultant
    During the Senate Commerce Committee Hearings on June 13, 2000, 
Daniel Jaye of Engage and myself disagreed on the issue of the number 
of Web sites which link to the Engage privacy policy. After the 
hearings, I did some further investigations of the issue to see why Mr. 
Jaye's and my numbers were so different. What I found is that the 
AltaVista search engine was able to locate more than 1,100 Web sites 
that contain links to the Flycast privacy policy. Flycast is an ad 
serving company that Engage acquired earlier this year. Clicking on one 
of these Flycast links actually takes a person to the Engage privacy 
policy and opt-out page. I believe that for the consumer this is a 
confusing situation about who Flycast is versus who Engage is. However, 
I now do agree with Mr. Jaye that Engage has worked with member Web 
sites of its ad networks to have these sites link to the Engage privacy 
policy.


</pre></body></html>
